<html>
<title> - U.S. VISION FOR SPACE EXPLORATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                            U.S. VISION FOR
                           SPACE EXPLORATION

=======================================================================


                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2004

                               __________

                           Serial No. 108-42

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                 U.S. GOVERNMENT PRINTING OFFICE

91-691                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001









                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
JOE BARTON, Texas                    NICK LAMPSON, Texas
KEN CALVERT, California              JOHN B. LARSON, Connecticut
NICK SMITH, Michigan                 MARK UDALL, Colorado
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
VERNON J. EHLERS, Michigan           MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
GEORGE R. NETHERCUTT, JR.,           LINCOLN DAVIS, Tennessee
    Washington                       SHEILA JACKSON LEE, Texas
FRANK D. LUCAS, Oklahoma             ZOE LOFGREN, California
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
W. TODD AKIN, Missouri               DENNIS MOORE, Kansas
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
J. RANDY FORBES, Virginia            DENNIS A. CARDOZA, California
PHIL GINGREY, Georgia                VACANCY
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
















                            C O N T E N T S

                           February 12, 2004

                                                                   Page
Hearing Charter..................................................     2
    A Renewed Spirit of Discovery, The President's Vision for 
      U.S. Space Exploration, President George W. Bush, January 
      2004.......................................................     7

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    19
    Written Statement............................................    20

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    20
    Written Statement............................................    22

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    23
    Written Statement............................................    24

Statement by Representative Nick Lampson, Member, Committee on 
  Science, U.S. House of Representatives.........................    25
    Written Statement............................................    26

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    27

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    28

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    28

                               Witnesses:

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy, Executive Office of the President
    Oral Statement...............................................    29
    Written Statement............................................    33
    Biography....................................................    37

Mr. Sean O'Keefe, Administrator, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    38
    Written Statement............................................    41

Discussion
  Budget Assumptions and Uncertainties...........................    48
  Program Management and Sunk Costs..............................    49
  Cost Estimates.................................................    49
  Heavy Lift.....................................................    54
  Robotic Exploration............................................    55
  CEV Costs......................................................    56
  The End of ISS.................................................    57
  INA............................................................    59
  International Participation in the ISS.........................    61
  The Exploration Vision and Current Budget Constraints..........    62
  ARC Accounting and Field Center Closures and ``The 
    Militarization of Space''....................................    63
  The Vision's Focus on Science..................................    66
  Hubble.........................................................    68
  Shuttle RTF....................................................    70
  The Role of CEV................................................    71
  Hubble and Risk................................................    73
  NASA's Budget and National Security............................    74
  Efforts at Marshall............................................    76
  INA and Soyuz Purchases........................................    76
  Centennial Challenges..........................................    77
  The Cost of the Vision.........................................    78
  RTF Costs......................................................    80
  Schedule Pressure..............................................    81
  OSTP Efforts in the Interagency Deliberations..................    82
  RTF Delays and Their Effect on the Budget......................    83
  INA............................................................    84
  Vision Cost....................................................    84
  Centrifuge.....................................................    85

             Appendix 1: Answers to Post-Hearing Questions

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy, Executive Office of the President...........    90

Mr. Sean O'Keefe, Administrator, National Aeronautics and Space 
  Administration.................................................    97

             Appendix 2: Additional Material for the Record

Space Exploration: Overview of President Bush's New Exploration 
  Initiative for NASA, and Key Issues for Congress, by Marcia S. 
  Smith, CRS Report for Congress, February 9, 2004...............   126

How Much Space for Science?, Science magazine, January 30, 2004..   132

Adventure or Inquiry? Two Visions of Cosmic Destiny, article by 
  Dennis Overbye, The New York Times, February 3, 2004...........   141














                   U.S. VISION FOR SPACE EXPLORATION

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:08 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.
                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   U.S. Vision for Space Exploration

                      thursday, february 12, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, February 12th at 10:00 a.m., the Science Committee 
will hold a Full Committee hearing on the President's proposed space 
exploration initiative, which was announced Jan. 14. (A copy of the 
White House document that outlines the President's vision is attached 
as Attachment A.)

2. The President's Proposal

    The President's plan can be seen as having three distinct, but 
related aspects. The first aspect concerns current human space flight 
programs. The President proposes to complete construction of the 
International Space Station (ISS) by the end of the decade and to 
retire the Space Shuttle at that point. ISS research is to be 
reconfigured to focus on questions related to the impact on human 
health of spending long periods in space. Under the proposal, the U.S. 
participation in ISS is slated to end around 2016, although the 
Administration has said that that date may shift. The National 
Aeronautics and Space Administration (NASA) has also decided to cancel 
the Shuttle mission that was needed to keep the Hubble Space Telescope 
in operation past 2007. Ending the Shuttle and Station programs is 
necessary to free up funds for other aspects of the proposal and to 
avoid Shuttle recertification in 2010, an expensive process called for 
by the Columbia Accident Investigation Board.
    The second aspect of the plan concerns new medium-term goals for 
human space flight. The central goal is to return to the Moon between 
2015 and 2020. To do this, NASA will develop a new Crew Exploration 
Vehicle (CEV), which will carry humans by 2014. (The CEV may also be 
used to service the Space Station.)
    The third aspect of the plan concerns long-range goals for the 
years past 2020. The entire plan is geared toward preparing for this 
period, but what will happen during these years is (perhaps 
necessarily) left entirely open-ended. The ultimate goals are to send 
humans to Mars and to increase the commercial exploitation of space. 
The timing of future exploration is left open and will depend on the 
pace of technology development and discovery during the years leading 
up to 2020. The President announced the appointment of a nine-member 
commission, headed by former Secretary of the Air Force Pete Aldridge, 
that will focus primarily on recommending what kinds of things ought to 
be done in the long-run on the Moon and to get to Mars, and how those 
activities might shape programs in the nearer-term.

3. Overarching Questions

    The President's plan raises many fundamental questions about the 
purposes of the U.S. space program and about the details of how it will 
be carried out. The overarching questions for the hearing include:

        1.  What is the purpose of the exploration program? To what 
        degree will it be designed to answer scientific research 
        questions? To what degree will it be designed to promote 
        commercialization or national security interests? How high a 
        national priority is exploration for exploration's sake?

        2.  How much will the President's proposal cost to implement 
        now and in the future? What are the greatest uncertainties in 
        the budget estimates that have been presented? When will those 
        figures become more definite? Are there early points at which 
        progress can reasonably be assessed? What is being done to 
        avoid the inaccurate cost estimates that have plagued the Space 
        Shuttle, Space Station and Orbital Space Plane programs?

        3.  What budgetary tradeoffs will have to be made to fund the 
        President's proposal? Specifically, what will the impact be on 
        NASA's programs in astronomy, outer planetary exploration, 
        Earth science, and aeronautics?

    The overall goal of the hearing is to make sure the Committee has 
clear information on the philosophy and budgetary assumptions that 
undergird the President's proposal.

4. Witnesses

Mr. Sean O'Keefe, Administrator of the National Aeronautics and Space 
Administration.

Dr. John Marburger, Director of the Office of Science and Technology 
Policy.

5. Issues

        <bullet>  What is the goal of the President's initiative? Human 
        space travel is inherently expensive and risky compared to 
        robotic missions. Congress needs to decide whether human space 
        travel is a priority that merits continued funding, and 
        obviously that will depend, in part, on what is to be gained. 
        In his Jan. 14 speech, the President said, ``We choose to 
        explore space because doing so improves our lives and lifts our 
        national spirit.'' But the Administration has sent mixed 
        signals about what kinds of improvements will be sought. In 
        some presentations, the Administration has left the impression 
        that exploration is a basic human need, an end in itself--an 
        activity that will be informed by science and may contribute to 
        science, but that will not have a science-driven agenda. In 
        other presentations, the Administration has implied that 
        science is the primary rationale for the President's vision. In 
        other places, commercialization, national security, and the 
        possibility of technological spinoffs have been offered as 
        rationales. None of these reasons is mutually exclusive, but 
        the goals of the program will determine the spending and 
        activities that are undertaken.

        <bullet>  How much will the President's initiative cost? The 
        President has been clear that he is not willing to seek massive 
        amounts of new spending to fund the initiative--unlike the 
        approach that was taken during the Apollo program in the 1960s. 
        NASA officials have said that if work does not proceed 
        smoothly, they will extend deadlines rather than increase 
        annual costs. (Moving deadlines would still increase cumulative 
        costs.) The President has proposed a 5.6 percent increase for 
        NASA (to $15.4 billion) for Fiscal Year (FY) 05, by far the 
        largest increase for any R&D agency.

             Figuring out how much the President's initiative would 
        cost is not easy because of the many assumptions that need to 
        be made. Adding to the complexity, NASA has described the costs 
        differently in different documents, using different baselines.

             The most specific figures concern the next five years 
        (FY05-09), over which the President proposes to spend a 
        cumulative total of $87.1 billion on the entire NASA budget. 
        NASA has compared the proposal to two different baselines. In 
        the first comparison, NASA says that over the next five years, 
        the President proposes to spend $1 billion more on the entire 
        NASA budget than NASA had predicted it would spend in February, 
        2003. (That estimate was made as part of the Presidents's FY04 
        budget.) In the second comparison, NASA describes the 
        President's proposal as providing $12.6 billion more, 
        cumulatively, over five years for the entire NASA budget 
        compared to what NASA would have received if its spending had 
        been frozen for five years at the FY04 level of about $15 
        billion. (NASA uses this figure frequently, but there is no 
        evidence that NASA was ever going to face such a freeze.)

             Figuring out how much of the NASA budget will be dedicated 
        to the President's initiative depends on what is included in 
        that spending category. Should it include the Space Shuttle and 
        Space Station? Should it include robotic missions that were 
        planned before the President's announcement, but may contribute 
        to it, or just new ones? NASA, generally, includes all robotic 
        missions that will contribute to the initiative and excludes 
        the Space Shuttle and Space Station. Using those definitions, 
        the initiative would receive $31.4 billion over the next five 
        years. Costs would increase considerably in the subsequent 10 
        years, and costs cannot even be estimated for the period beyond 
        that because the activities remain undefined. (See Attachment 
        B, although, according to NASA, the chart was designed more for 
        internal purposes than to give a precise picture of out-year 
        spending.)

        <bullet>  What are the greatest uncertainties in NASA's cost 
        projections? Of necessity, the proposed budget is based on best 
        guesses of costs for key elements of the President's 
        initiative.

             Perhaps the greatest uncertainty remains the cost of 
        continuing to operate the Space Shuttle. Any delay in retiring 
        the Space Shuttle will add significantly to NASA's costs (as 
        well as raising the question of whether the Shuttle should fly 
        without recertification). NASA continues to assume a return to 
        flight this fall, although experts inside and outside the 
        agency are raising doubts about whether that deadline can be 
        met. Once flights resume, NASA plans about five flights a 
        year--a pace that Admiral Gehman, the Chair of the Columbia 
        Accident Investigation Board, has said could revive concerns 
        about ``schedule pressure'' adversely affecting safety. 
        Retiring the Shuttle on schedule may also require using means 
        other than the Shuttle to take up crew and supplies to the 
        Space Station because the Shuttle will be needed to complete 
        Station construction. Shuttle retirement could also be delayed 
        if key portions of the Station, such as the centrifuge being 
        built by the Japanese, are not completed on schedule. (The 
        centrifuge is generally viewed as the most valuable piece of 
        scientific equipment that will be brought to the Station.) NASA 
        is still figuring out the ``manifests'' for the remaining 
        Shuttle flights--that is, the description of when flights would 
        leave and return and what they would carry.

             The costs of developing the CEV, the new vehicle that 
        would take astronauts to the Moon and beyond also are uncertain 
        because development has not yet begun. In some ways, CEV 
        development will build on the Orbital Space Plane (OSP) project 
        that NASA discontinued as part of the President's initiative. 
        The OSP, which was to be designed primarily to take astronauts 
        to the Space Station, was already facing cost overruns in its 
        early design stages, and Congress was raising doubts about its 
        usefulness. NASA now estimates that it will spend $6.5 billion 
        over the next five years on CEV development.

             The CEV will also require the development of a new launch 
        system, and NASA has not decided yet how to approach the design 
        of a new launch vehicle. NASA is now estimating that the 
        development of such a vehicle will cost about $5 billion.

             Administration officials have said that because the CEV 
        and its launch system will be developed over a longer time 
        period than was allotted for the OSP there will be time to 
        reevaluate costs before becoming overly committed to a 
        particular design. Total CEV development is expected to cost 
        about $15 billion.

             The cost of the CEV may be affected by how NASA decides to 
        select a contractor for the program. NASA limited OSP 
        development to two competitors. NASA has not yet made clear 
        whether it will have a more open competition for the CEV.

        <bullet>  How will the President's initiative affect the rest 
        of NASA's programs? The Space Sciences budget will continue to 
        grow (from $3.9 billion in FY04 to $5.6 billion in FY09) 
        because many of its robotics missions will be considered part 
        of preparation for human exploration. Most of these missions 
        will be entirely unchanged despite the redesignation. In 
        addition, new lunar missions will be added. Nonetheless, 
        projects totaling about $2.6 billion will be cut from the Space 
        Sciences budget over the next five years (compared to the 
        Administration's February, 2003 projections) by canceling or 
        deferring missions and programs that are considered less 
        important to human exploration. (Other projects are added so 
        that, overall, Space Sciences will receive slightly more over 
        the five-year period than had been planned, if one excludes 
        Project Prometheus, which is being transferred from Space 
        Sciences to another account.) One question is how Space 
        Sciences will fare in the years after FY09 when the costs of a 
        human lunar landing will begin to increase substantially.

             Earth Science would fare far worse, sustaining cuts in 
        FY05 through FY08. Earth Science spending would decline from 
        $1.52 billion in FY04 to $1.47 billion in FY09, a year in which 
        it is slated to receive an increase. NASA Earth Science 
        missions are a major component of the Administration's climate 
        change science program.

             Aeronautics would be essentially flat through the period, 
        increasing in some years and decreasing in others, but ending 
        up in FY09 at $942 million--a drop from the FY04 level of $946 
        million.

             (See Attachment C for more details.)

        <bullet>  Why is the Shuttle mission to the Hubble Space 
        Telescope being cancelled? The Administration is describing the 
        Hubble cancellation as a ``close call'' made by the 
        Administrator because of safety concerns. The Hubble, which has 
        been enormously successful, is expected to go dark around 2007 
        without a servicing mission. Many astronomers are lobbying for 
        that mission to occur, and, indeed, before the President's 
        initiative was announced, a panel assembled by the National 
        Academy of Sciences, called for another servicing mission to be 
        added to extend the telescope's life even further. That request 
        became moot with the decision to discontinue the Shuttle in 
        2010. However, some experts contend that ground-based 
        telescopes have advanced so much in recent years that they can 
        now make up for at least some of the capability that would be 
        lost if the Hubble ceases to function.

             A Shuttle mission to the Hubble is a special case because 
        Hubble missions cannot reach the Space Station, which could be 
        used as a ``safe haven'' in case of an emergency or the need to 
        inspect or repair the Shuttle. The Columbia Accident 
        Investigation Board said that the Shuttle should fly to 
        destinations other than the Space Station only when NASA had 
        developed an ``autonomous'' inspection and repair capability--
        that is, a way to inspect without using the Space Station. NASA 
        believes such a capability is probably many years away. As a 
        substitute, NASA examined having a second Shuttle ready to fly 
        a rescue mission, but viewed that as dangerous and 
        prohibitively expensive. However, debate continues among Hubble 
        enthusiasts as to the relative dangers of a mission to the 
        Station and a mission to Hubble.

             NASA acknowledges that there were ``secondary'' 
        considerations that also led to the cancellation of the Hubble 
        mission, including the need to complete all the Shuttle 
        missions needed for Station construction by 2010.

        <bullet>  How will the President's initiative change the Space 
        Station program? As a result of the initiative, NASA is re-
        examining the entire Station research program. Decisions on the 
        new program may not be made for about a year. The new program 
        will focus on questions of human health. Among the questions 
        this raises are: what research will be discontinued and was any 
        of it of real value? How much will the new research agenda 
        cost? Does the new research really require facilities in space 
        and will it be peer reviewed? Will concerns arise since much of 
        the new research will presumably involve using astronauts as 
        human experimental subjects?

        <bullet>  How will NASA transport crews to the Station after 
        the Shuttle is retired? The Administration acknowledges that it 
        has not yet figured out how to get crews to the Station between 
        the retirement of the Shuttle in 2010 and the first flight of 
        the CEV in 2014. (The Shuttle may also be unavailable for crew 
        transfer earlier, if its schedule needs to be devoted entirely 
        to Station construction.)

             The U.S. is already using the Russian Soyuz spacecraft for 
        crew transfer while the Shuttle is grounded. However, it is 
        doing so under an agreement that the Russians will have 
        fulfilled by 2006. Renewing the agreement may require a change 
        in the Iran Nonproliferation Act (INA), which Congress passed 
        in 2000. That Act attempts to prevent the spread of weapons of 
        mass destruction to Iran by prohibiting the purchase of Russian 
        rockets by the U.S. unless the President certifies that no 
        Russian entity is engaged in any sales of missiles or missile 
        systems to Iran. (The INA does not apply to the current 
        agreement.)

             Amending the Act would be controversial, and so far the 
        Administration has hedged its bets, simply saying that the 
        matter is under review.

        <bullet>  How will NASA carry cargo to and from the Station 
        after the Shuttle is retired? Similar to the crew situation, 
        NASA has no current plan for getting cargo to the Station after 
        the Shuttle is retired. NASA is using Russian Progress vehicles 
        while the Shuttle is grounded, but continuing to do so 
        indefinitely could require amending the Iran Nonproliferation 
        Act. (See above.) NASA might also rely on Europe or Japan, 
        which are partners in the Space Station and which are 
        developing cargo-carrying spacecraft of their own. But those 
        craft have not yet been flight-tested. Some have suggested that 
        NASA could convert the space shuttle itself into a cargo-only 
        craft that could deliver huge loads of cargo to the ISS. But 
        critics have said that such an approach would be much more 
        expensive than flying smaller loads on existing rockets. 
        Finally, NASA might try to purchase the services of commercial 
        rocket firms. But at present no firm has a rocket that can 
        supply the Station, although several have indicated a 
        willingness to try to carry small amounts of cargo there. 
        Another complication is that some cargo for the Space Station 
        is very large--major replacement parts, for example--and most 
        craft other than the Shuttle are not big enough to carry such 
        cargo.

6. Questions to witnesses:

    In his letter of invitation to appear as a witness, Administrator 
O'Keefe was asked to address the following questions in his testimony:

        (1)  What specific activities must be undertaken and milestones 
        achieved over the next twelve months and over the next five 
        years to implement the new initiative? What analysis was 
        performed to ensure that the proposed budget is adequate to 
        accomplish those activities?

        (2)  Specifically, what changes (in spending and program 
        content) are contemplated in the Shuttle, International Space 
        Station, and Space Science programs as a result of the new 
        initiative?

        (3)  What is the current status of NASA's thinking about a 
        mission to the Hubble Space Telescope? What changes in spending 
        and in other NASA activities would be necessary to allow one or 
        two more missions to the Hubble?

        (4)  Are any changes to the Iran Non-proliferation Act, the 
        Space Station Inter-Governmental Agreement or any other 
        agreements required to complete the Space Station? If so, 
        please explain how the Administration plans to inform and 
        consult with the Congress on these changes, including the 
        timetable for any actions that may be necessary.

    In his letter of invitation to appear as a witness, Dr. Marburger 
was given the following information and asked to address the following 
questions in his testimony:

         In their briefings on the initiative, White House officials 
        have said that you were an active participant in developing the 
        initiative, and that, more specifically, you had reviewed the 
        initiative to ensure that no essential science activities would 
        be sacrificed to pay for it.

         In your testimony, you should describe the role you and your 
        staff played in formulating the initiative and why and how you 
        concluded that the initiative would be a net benefit from a 
        scientific point of view. As part of that description, please 
        specifically address the following:

                (1)  What criteria did you use to determine whether an 
                activity was ``essential,'' and how did you evaluate 
                and balance the differing scientific benefits of 
                existing and potential NASA activities?

                (2)  To what extent, has and can the International 
                Space Station contribute to science? Did you review any 
                specific new research agenda for the Space Station as 
                part of your evaluation of the overall initiative?

                (3)  To what extent can scientific research that would 
                be accomplished by manned missions to the Moon be 
                accomplished by space telescopes or by unmanned probes 
                on the Moon?

                (4)  How would you describe the contributions to 
                science made by the Hubble Space Telescope? How would 
                you assess what would be lost if the Hubble ceases to 
                function earlier than had been planned? How did you 
                weigh those losses against the potential benefits of 
                other activities under the new initiative?''

7. Attachments

Attachment A: A Renewed Spirit of Discovery: The President's Vision for 
U.S. Space Exploration

Attachment B: NASA Budget Projection 2004-2020. (This chart can be 
viewed in color on the Internet at http://www.nasa.gov/pdf/
54873main<INF>-</INF>budget<INF>-</INF>chart<INF>-</INF>14jan04.pdf

Attachment C: NASA FY 2005 Budget


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Good morning. I want to welcome everyone 
here for the first of what I am sure will be many hearings on 
the President's Space Exploration Initiative. Our goal today is 
to get as many facts on the table as possible. Congress can 
only have a sensible and definitive debate on space policy if 
we are all working with the same understandings and 
assumptions. But policy questions before us are tough enough 
without a fight over the facts in the case. And I think 
everyone concerned with this issue should expect lengthy and 
spirited debate before Congress decides how to proceed, which 
could easily take us to the end of this calendar year.
    So what do we hope to better understand at the end of 
today's session? We want a clear description of the goals of 
the proposed initiative, the ways it is expected to contribute 
to science, security, and the economy. We need a clear 
understanding of the cost of the initiative, what has been 
assumed in developing cost estimates, and how those estimates 
are most likely to change. We need to get more operational 
details of the initiative, for example, how the Space Station 
will be serviced after 2010. And we need a fuller explanation 
of the impact of the policy. How will it affect Earth science 
and aeronautics and other NASA programs?
    Right now, we have far more questions than answers, and I 
look forward to hearing from our witnesses today, who are among 
the key architects of this new policy. We are going to need 
very direct and precise guidance from them.
    As you might have already gathered, I remain open-minded 
about this proposal. The President and his top advisors are to 
be congratulated for having done what no one has been able--
willing to do for more than 40 years: lay out a well thought 
out space policy with a seemingly reasonable price tag. The 
President has made hard choices. I know I agree with some of 
those choices. For example, I have been calling for the past 
year for a date certain to end the Shuttle and Space Station 
programs. The President's proposal provides those dates, 
although we still have to examine whether the right endpoints 
were selected.
    But I still need much more information about the goals and 
costs before I can decide whether I decide the particular 
choices the President has made in this proposal. I have to say 
that this is hardly the ideal year for this proposal to have 
come forward, although, perhaps, there never would be an ideal 
year. But the increase proposed for NASA is especially 
conspicuous in a budget in which basic research increases by 
only 1/2 a percentage point. Indeed, non-Defense, non-Homeland 
discretionary spending, as a whole, increases only by that same 
slim amount.
    Is this initiative a high enough priority, a pressing 
enough priority, to be funded in such a budget? I don't know. 
And we have to remember that the percentage increases required 
in the years before fiscal year 2009, if not before, may also 
turn out to be significant.
    So I am in a quandary, quite frankly. And the answers we 
get today will help me determine which way to turn. I imagine 
that will be true of others on the panel and certainly of 
others in the Congress. The advance of human space flight is an 
engaging dream, but I want to know how we are going to feel 
when we wake up. Will we have advanced human knowledge? Will we 
have enabled our nation to be more respected, more secure, and 
more prosperous? Will we have behaved responsibly in meeting 
the needs of the American people? Will we, in short, have 
helped this nation remain what Abraham Lincoln, born this day, 
called ``The last best hope of Earth''? These are, perhaps, the 
toughest questions we will confront at a hearing this year.
    I look forward to hearing our witnesses provide the 
specifics that will help me figure out the answers.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]
            Prepared Statement of Chairman Sherwood Boehlert
    I want to welcome everyone here for the first of what I'm sure will 
be many hearings on the President's Space Exploration Initiative.
    Our goal today is to get as many facts on the table as possible. 
Congress can only have a sensible and definitive debate on space policy 
if we're all working with the same understandings and assumptions. The 
policy questions before us are tough enough without a fight over the 
facts of the case. And I think everyone concerned with this issue 
should expect a lengthy and spirited debate before Congress decides how 
to proceed--which could easily take to the end of this calendar year.
    So what do we hope to better understand at the end of today's 
session? We want a clearer description of the goals of the proposed 
initiative--the ways it's expected to contribute to science, security 
and the economy. We need a clearer understanding of the costs of the 
initiative--what's been assumed in developing cost estimates and how 
those estimates are most likely to change. We need to get more 
operational details of the initiative--for example, how the space 
station will be serviced after 2010. And we need a fuller explanation 
of the impact of the policy--how it will affect Earth science and 
aeronautics and other NASA programs.
    Right now, we have far more questions than answers. And I look 
forward to hearing from our witnesses today, who are among the key 
architects of this new policy. We're going to need very direct and 
precise guidance from them.
    As you might have already gathered, I remain open-minded about this 
proposal. The President and his top advisors are to be congratulated 
for having done what no one has been able or willing to do for more 
than 40 years--lay out a well thought out space policy with a seemingly 
reasonable price tag.
    The President has made hard choices. I know I agree with some of 
those choices. For example, I have been calling for the past year for a 
date certain to end the Shuttle and Space Station programs. The 
President's proposal provides those dates, although we still have to 
examine whether the right endpoints were selected.
    But I still need much more information about goals and costs before 
I can decide whether I support the particular choices the President has 
made in this proposal. I have to say that this is hardly the ideal year 
for this proposal to have come forward--although perhaps there never 
would be an ideal year. But the increase proposed for NASA is 
especially conspicuous in a budget in which basic research increases by 
only half a percentage point. Indeed, non-defense, non-homeland 
discretionary spending as a whole increases only by that same slim 
amount.
    Is this initiative a high enough priority--a pressing enough 
priority--to be funded in such a budget? I don't know. And we have to 
remember that the percentage increases required in the years beyond 
fiscal 2009--if not before--may also turn out to be significant.
    So, I'm in a quandary, quite frankly. And the answers we get today 
will help me determine which way to turn. I imagine that will be true 
of others on this panel, and certainly of others in this Congress. The 
advance of human space flight is an engaging dream, but I want to know 
how we're going to feel when we wake up.
    Will we have advanced human knowledge? Will we have enabled our 
nation to be more respected, more secure, and more prosperous? Will we 
have behaved responsibly in meeting the needs of the American people? 
Will we, in short, have helped this nation remain what Abraham 
Lincoln--born this day--called ``the last, best hope of Earth''? These 
are perhaps the toughest questions we'll confront at a hearing this 
year.
    I look forward to having our witnesses provide the specifics that 
will help me figure out my answers.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman, and good morning.
    I want to thank the Chairman for welcoming the witnesses--
or to join the Chairman in welcoming the witnesses to today's 
hearing. And I want to thank Chairman Boehlert for convening 
this hearing on the President's new Space Exploration 
Initiative. It is clear that the proposal has the potential to 
result in significant changes to NASA's programs and future 
direction as an agency. We need to hear more about it.
    First, however, I would like to state that I am pleased 
that the President has proposed some specific, long-term goals 
for the Nation's human space flight program. That is something 
that Members on both sides of the aisle have been urging for 
some time. I think it is appropriate for this nation to make a 
sustained commitment to human and robotic exploration of the 
Solar System, and I also welcome the President's speech to that 
matter. And I think that an incremental approach, starting with 
a sustained presence on the Moon makes a lot of sense for many 
reasons.
    History has shown that past investments in our space 
program have resulted in new discoveries and technologies that 
have delivered significant benefits to our citizens. I have no 
doubt that we will learn much from future exploration missions, 
and the American people will garner benefits, both tangible and 
intangible, from our expansion into the Solar System.
    Of course, after further review, Congress and the American 
people may conclude that NASA's plans for implementing the 
President's goals are unrealistic or unaffordable, or both. If 
so, that doesn't mean that the Nation should walk away from the 
long-term exploration goals. It just means that we have more 
work to do to craft a plan that is workable and sustainable.
    As we examine NASA's plan, I will be looking for answers to 
a number of questions, including: one, what will the impact of 
the President's initiative on NASA--be on NASA and other 
important activities? I am particularly concerned that NASA's 
other missions not be cannibalized, whether over the short-term 
or the long-term to cover the cost of this initiative.
    Second, how confident should we be that NASA and the White 
House have a good understanding of the cost of their proposal 
and have a budget plan that truly reflects those cost? NASA has 
had a mixed record on the credibility of its budgeting, and we 
need to be convinced that NASA is not being overly optimistic 
in its cost estimates. In that regard, I would simply note that 
the former President, George H. W. Bush, proposed a similar 
program in 1989. His OMB Director estimated its 30-year costs 
to be about $590 billion in 2003-dollar terms. If that is what 
NASA is now estimating, I hope that the budget plans reflect 
it. If NASA thinks it can be done cheaper, then we need to 
understand why.
    Third, what are the implications of some of the policy 
decisions embedded in the President's initiative? In 
particular, what will it mean to terminate the Space Shuttle 
Program years before another American spacecraft is available 
to get U.S. astronauts into space? It is clear that we will be 
dependent on the kindness of others, in this case, the 
Russians, to have any way of getting our astronauts to and from 
the Space Station. What if the Soyuz fleet is grounded or 
unavailable to us for whatever reason? What is plan B?
    Well, there is much to cover, and I hope that this hearing 
will mark the beginning of a thorough review of the initiative. 
I also hope that the President will choose to speak out on this 
space initiative. This will not be an easy year to start a 
major new initiative in the face of a growing deficit. The 
President is going to have to make the case that this 
initiative is a high priority if it is going to survive for 
more than one or two sessions in Congress.
    With that, I, again, want to welcome our witnesses, and I 
look forward to your testimony.
    [The prepared statement of Mr. Gordon follows:]
            Prepared Statement of Representative Bart Gordon
    Good morning. I want to join the Chairman in welcoming the 
witnesses to today's hearing. And I want to thank Chairman Boehlert for 
convening this hearing on the President's new space exploration 
initiative. It is clear that the proposal has the potential to result 
in significant changes to NASA's programs and future direction as an 
agency. We need to hear more about it.
    First, however, I would like to state that I am pleased that the 
President has proposed some specific long-term goals for the Nation's 
human space flight program. That is something that Members on both side 
of the aisle have been urging for some time. I think that it is 
appropriate for this nation to make a sustained commitment to the human 
and robotic exploration of the solar system, and so I welcome the 
President's speech. And I think that an incremental approach, starting 
with a sustained presence on the Moon, makes a lot of sense for many 
reasons.
    History has shown that past investments in our space program have 
resulted in new discoveries and technologies that have delivered 
significant benefits to our citizens. I have no doubt that we will 
learn much from future exploration missions, and the American people 
will garner benefits both tangible and intangible from our expansion 
into the solar system.
    Of course, after further review Congress and the American people 
may conclude that NASA's plans for implementing the President's goals 
are unrealistic or unaffordable or both. If so, that doesn't mean that 
the Nation should walk away from the long-term exploration goals. It 
just means that we have more work to do to craft a plan that is 
workable and sustainable.
    As we examine NASA's plans, I will be looking for answers to a 
number of questions. First, what will be the impact of the President's 
initiative on NASA's other important activities? I am particularly 
concerned that NASA's other missions not be cannibalized--whether over 
the short-term or the long-term--to cover the cost of the initiative.
    Second, how confident should we be that NASA and the White House 
have a good understanding of the cost of their proposals--and have a 
budget plan that truly reflects those costs? NASA has had a mixed 
record on the credibility of its budgeting, and we will need to be 
convinced that NASA is not being overoptimistic in its cost estimates. 
In that regard, I would simply note that when President George H.W. 
Bush proposed a similar program in 1989, his OMB director estimated its 
30-year cost to be about $590 billion (in 2003 year dollars). If that 
is what NASA is now estimating, I hope that the budget plans reflect 
it. If NASA thinks it can be done cheaper, we will need to understand 
the reasons why.
    Third, what are the implications of some of the policy decisions 
embedded in the President's initiative? In particular, what will it 
mean to terminate the Space Shuttle program years before another 
American spacecraft is available to get U.S. astronauts into space? It 
is clear that we will be dependent on the kindness of others--in this 
case the Russians--to have any way of getting our astronauts to and 
from the Space Station. What if the Soyuz fleet is grounded or 
unavailable to us--for whatever reason. What is the ``Plan B''?
    Well, there is much to cover, and I hope that this hearing will 
mark the beginning of a thorough review of the initiative. I also hope 
that the President will choose to speak out on his space initiative. 
This will not be an easy year to start major new initiatives in the 
face of the growing deficit, the need for continued spending for the 
Iraq war, and the increase in the Medicare cost estimate. The President 
is going to have to make the case that this initiative is a high 
priority if it is going to survive for more than one session of 
Congress.
    With that, I again want to welcome our witnesses, and I look 
forward to your testimony.

    Chairman Boehlert. Thank you very much, Mr. Gordon.
    The Chair recognizes the Chairman of the Subcommittee on 
Space and Aeronautics, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    How many times have we pointed to this slogan on the wall? 
All right. And how many times have we said we want a vision 
statement, we want a--some guidance from the President, a long-
term strategy? And we got it. And the President has indicated 
very strongly in that speech and his--and what has happened 
since then that he has got a game plan for us, and he has done 
his part of the job, at least he has started doing his part of 
the job. Now it is up to us to do our part of the job. It is 
the time for Congress to get on board.
    And one thing that makes a strategy is that one--is that 
you are setting priorities. And where I respectfully disagree 
with my good friend, Mr. Gordon, I expect the President to 
cannibalize other programs in order to make this strategy work. 
That is called setting priorities. What we need to do, however, 
is to make sure that those decisions, and this I would agree 
with Mr. Gordon, are clear decisions made that this priority is 
more important than another and thus we are taking funds 
intentionally in order to make sure that the President succeeds 
in the goals that he has established.
    And Mr. O'Keefe, you can count on me, and I know you can 
count on the other Members in this committee, to work with you 
if, indeed, the President is serious about the vision that he 
laid out. And I am banking on the fact that he is serious and 
that we are going to do a job here and that we are going to 
start our way back to the Moon and then beyond. With your 
leadership, and then perhaps when we are--10 years or 20 years 
from now, there will be a whole new set of characters, but we 
will have laid the foundation for the great success that they 
will accomplish.
    Mr. Chairman, I commend your decision of holding this 
critical hearing today. As you know, I have been a strong 
advocate of returning to the Moon and establishing a permanent 
manned site there. Now the President has given NASA a vision 
that may help us realize that dream as a stepping stone, of 
course, to even more further explorations of the universe. 
Someday, lunar settlements may be, and will be, thriving and 
growing, increasing our natural resources, the natural 
resources that are available to us, and perhaps providing us 
abundant energy, but most certainly expanding our scientific 
knowledge in creating future industries that we can only now 
imagine. In fact, citizen astronauts not only will contribute 
to our economic development, but also to our national standing 
in leadership in science and engineering as well.
    First and foremost, this outlook for the future must be 
built on a foundation of credible and affordable near and far-
term technologies, and that is basically what we are going to 
be talking about: the development of these technologies, how to 
pay for it, when we expect them to come on board, what--how 
that relates to the plan. But experience has shown that the 
private sector's innovative approaches are just as important as 
what government is doing. So let us, as we move forward, not 
look at this as simply a government enterprise. What the 
President laid out was a National vision, not just a 
bureaucratic or governmental process.
    Emerging space entrepreneurs have demonstrated that space 
activities are no longer limited to the government domain and 
that making a profit is critical to enabling the private sector 
to make investments in space. If we make it profitable, we have 
a vision--the vision of the Moon includes something where the 
private sector is going to make a profit in helping us 
accomplish this--that mission, we can expect private sector 
investment to help the taxpayers. The successful development of 
new space industries will undoubtedly hinge on expanding market 
opportunities. And the new space exploration mandate calls for 
promoting commercial space.
    And however, let me just say that at this moment, I am 
uncertain exactly what NASA's plans are for the commercial part 
of this and how to attract private sector investment into the 
technologies and into the goals that we wish to achieve. We 
can't expect to have that right now, but I know that that is 
going to be an area of discussion for the next few months and, 
perhaps, the rest of this year. NASA must make clear how its 
long-term investment in the future exploration activities will 
support a combination of focused manned missions, robotic 
exploration, and private sector initiatives. Anything less 
threatens the credibility of the President's space vision.
    And again, let me say, you have our 100 percent support, 
and I am looking forward to working with you, Mr. O'Keefe, in 
making this vision a reality.
    Thank you.
    [The prepared statement of Mr. Rohrabacher follows:]
         Prepared Statement of Representative Dana Rohrabacher
    Mr. Chairman, I commend your decision in holding this critical 
hearing early in the session. As you know, I have been a staunch 
advocate for us returning to the Moon and establishing a permanent 
manned site. Now the President has given NASA the vision in helping us 
realize this deferred dream.
    Someday lunar settlements will be thriving and growing, increasing 
our natural resources at our disposal, providing abundant energy, 
expanding our scientific knowledge, and creating future industries that 
we can only imagine. In fact, citizen astronauts not only will 
contribute to our economic development, but to our national standing 
and leadership in science and engineering as well.
    First and foremost, this outlook of the future must be built upon a 
foundation of credible and affordable near- and far-term technologies. 
Experience has shown that the private sector's innovative approach in 
solving space-related problems has proved to be invaluable.
    Emerging space entrepreneurs have demonstrated that space 
activities are no longer limited to the government domain, and that 
making profits are critical in enabling private sector investments in 
space. The successful development of new space industries will 
undoubtedly hinge on expanding market opportunities. The new space 
exploration mandate calls for promoting commercial space, but NASA is 
unclear how private space ventures will support missions to low-Earth 
orbit.
    NASA must make clear how its long-term investments in future 
exploration activities support an intelligent combination of focused 
manned missions, robotic exploration, and private-sector initiatives. 
Anything less threatens the credibility of the President's space 
vision. Thank you, Mr. Chairman.

    Chairman Boehlert. Thank you very much, Mr. Rohrabacher. 
And like you, as I indicated in my opening statement, I want to 
applaud the President's vision, but I would like to add that 
before we get on board and--we have to determine the extent of 
the ticket we are willing to purchase for the journey. And that 
is why it is so critically important that we get very precise 
in addressing the timetables, the dollars, and the impact on 
science overall. And that is why I welcome Dr. Marburger here, 
because this is critically important that we hear from the 
President's Science Advisor on how this critical component of 
an overall package fits in with everything else.
    With that, I recognize the Subcommittee Chairman--a Ranking 
Member on Space and Aeronautics, Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman. Good morning.
    I want to join my colleagues in welcoming Dr. Marburger and 
Administrator O'Keefe to this morning's hearing. It is, indeed, 
a very important one.
    I hope it is just the first, as it has been said, in a 
series of hearings to examine the President's proposed 
initiative as well as to review the overall NASA budget 
request.
    For me, the President's announcement of some long-term 
goals for the Nation's human space flight program was both 
welcome and overdue. I have long been pushing for a commitment 
to a sustained exploration agenda with a series of exciting and 
significant intermediate milestones on the way to Mars. I 
introduced legislation to that effect in the last Congress and 
I reintroduced it again in this Congress. I welcome the 
President's decision to put forth an exploration agenda, and I 
look forward to working with him to advance its goals.
    I think space exploration brings out the best of us in us, 
as a people. With that said, I am going to also need to be 
convinced that the implementation plan laid out by NASA is, in 
fact, both credible and sustainable before I can give it my 
unreserved support. I found it interesting this--that this 
morning's Washington Post had an article on the meeting 
yesterday, the Commission--Space Exploration Commission meeting 
where Norman Augustine, the retired Chairman of Lockheed 
Martin, made comments that NASA doesn't have enough money or 
bright young stars to achieve President Bush's goal of 
returning astronauts to the Moon and flying from there to Mars, 
and ``it would be a grave mistake to undertake a major new 
space objective on the cheap,'' he said. ``To do so, in my 
opinion, would be an invitation to disaster.'' And in that same 
article, there was a quote from General Lester Lyles, who is 
retired from the Air Force, about the possibility that budgets 
and technologies of other government agencies could even be 
tapped. So it would be interesting to know, Mr. Marburger--or 
Dr. Marburger, if those were certainly plans or thoughts that 
you have.
    We will do no favor to the dedicated men and women of NASA 
if we fail to ask the tough questions about the President's 
initiative. For example, what will be the impact of the 
President's plan on NASA's other programs? I agree with my 
colleague, Mr. Gordon. I am not prepared to do damage to NASA's 
other programs, its other important activities, in order to 
make this new plan fit within the budget--President's budget. 
Those who know me know that I am an unabashed supporter of 
NASA's human space flight program and of the good work done, 
particularly at the Johnson Space Center.
    Human space flight is an important part of our nation's 
overall space effort, and it has delivered significant 
technological and other benefits to our citizens over the 
years, but it is only one of NASA's missions. I don't know how 
many of you saw the news about the local law enforcement 
officials getting help from NASA technology in identifying the 
suspect in the tragic abduction and murder of Carli Bruscha in 
Florida just recently. And what you may not know is that the 
technology was first developed by two NASA employees: one a 
solar physicist, and the other atmospheric scientist, to assist 
them in their research activities. So it is a poignant but an 
important example of the ways in which our investments in all 
areas of the space program concern the broader needs of our 
society.
    As you know, the House recently passed NASA workforce 
legislation to improve NASA's ability to attract and retain the 
best and the brightest. What message will we send if we now 
embrace an exploration plan that tells a range of dedicated 
NASA employees, ``Thanks for your hard work, but we now need 
your budget for our new initiative''? It seems to me that the 
President needs to propose funding adequate to do the job right 
or NASA, regrettably, will have to scale back its aspirations.
    My own strong preference is that the President provide the 
funding needed to do the job right. We, in Congress, will work 
to do it, but fundamentally, I don't want to put the NASA 
employees in the situation of once again trying to fit 10 
pounds of new tasks into a five-pound budgetary pack.
    Mr. Chairman, I have a great number of questions about the 
initiative that I hope we will address at this and subsequent 
hearings, but I won't list them all right now. Instead, I just 
will close by saying that we are being given the opportunity to 
construct an exciting and productive future for our nation's 
civil space program. We owe it to NASA and to the American 
taxpayers to take the time to get it right.
    Thank you, and I yield back my time.
    [The prepared statement of Mr. Lampson follows:]
           Prepared Statement of Representative Nick Lampson
    I welcome the President's decision to put forth an exploration 
agenda, and I look forward to working with him to achieve its goals. I 
think space exploration brings out the best in us as a people. That 
said, my colleagues and I need to be convinced that the implementation 
plan laid out by NASA is in fact both credible and sustainable before I 
can give it my unreserved support.
    We will do no favor to the dedicated men and women of NASA if we 
fail to ask the tough questions about the President's initiative. For 
example, what will be the impact of the President's plan on NASA's 
other programs? I agree with my colleague Mr. Gordon--I am not prepared 
to do damage to NASA's other important activities in order to make this 
new plan fit within the President's budget.
    Those who know me know that I am an ardent supporter of NASA's 
human space flight program and of the good work done at the Johnson 
Space Center. Human space flight is an important part of our nation's 
overall space effort, and it has delivered significant technological 
and other benefits to our citizens over the years. But it is only one 
of NASA's missions.
    Recently, law enforcement officials used video imaging technology 
to identify the suspect in the tragic abduction and murder of the young 
girl in Florida. What you may not know is that technology was first 
developed by two NASA employees--one a solar physicist and the other an 
atmospheric scientist--to assist them in their research activities. It 
is a poignant but important example of the ways in which our 
investments in all areas of the space program can serve the broader 
needs of our society.
    As you know, the House recently passed NASA Workforce legislation 
to improve NASA's ability to attract and retain the best and the 
brightest. What message will we send if we now embrace an exploration 
plan that tells a range of dedicated NASA employees: ``thanks for your 
hard work, but we now need your budget for our new initiative.''
    It seems to me that the President needs to propose funding adequate 
to do the job right, or NASA regrettably will have to scale back its 
aspirations. My own strong preference is that the President provide the 
funding needed to do the job right. But fundamentally, I don't want to 
put the NASA employees in the situation of once again trying to fit ten 
pounds of new tasks into a five-pound budgetary sack. Mr. Chairman, I 
have a great number of questions about the initiative that I hope we 
will address at this and subsequent hearings. We owe it to NASA and the 
American taxpayers to take the time to get it right.

    Chairman Boehlert. Thank you very much, Mr. Lampson. I am 
particularly pleased that you mentioned the successful effort 
on the part of this committee to pass the NASA Restructuring 
Act, because that will enable Administrator O'Keefe, and others 
associated with that very important agency, to retain the 
existing stars on the horizon and to attract the new ones to 
that lexicon. So I am very pleased with that.
    With that, let me say how pleased we are to have with us 
two very distinguished witnesses, who have proven their service 
to the Nation by their very capable administration of their 
duties. First, we have the honorable John Marburger, Director 
of the Office of Science and Technology Policy, affectionately 
referred to as the President's Science Advisor, Dr. Marburger, 
and secondly, our good friend, and so are you, Dr. Marburger--
our good friend, Sean O'Keefe, the very able Administrator of 
the National Aeronautics and Space Administration. And 
gentlemen, you know the drill. We try to condense the opening 
statements to allow us ample time for thorough questioning, and 
there are more questions than can possibly be answered in this 
hearing. This is the first of several. But I am not going to 
run a clock on you, but at some time, if you get a little bit 
too loquacious, I will suggest that maybe you stop and permit 
us to get a word or two in.
    [The prepared statement of Dr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    I want to thank Chairman Boehlert for holding this hearing today. 
The President has outlined an ambitious new vision for the NASA. It is 
imperative that we fully understand this vision--its costs, benefits 
and risks--before we implement it. I am pleased that Mr. O'Keefe and 
Dr. Marburger are here this morning to provide us with a detailed 
accounting of the mission, how NASA intends to execute it, and how it 
fits into the current budget realities of NASA and of the Nation in 
general.
    The President's vision of robotic and manned missions to the Moon 
and Mars would provide NASA with a clear and compelling mission that 
the agency has lacked for far too long. As with all daring initiatives, 
the President's vision for NASA poses significant challenges. 
Enthusiasm for the President's proposal must be tempered by the 
realities that face us. Completing the International Space Station, 
developing a new unmanned space vehicle and mounting missions to the 
Moon and Mars will all take vast amounts of dedication, innovation, 
effort and money to accomplish.
    To be successful, numerous technical problems, including the 
development of new propulsion and energy sources and improved life-
support systems, will need to be solved. NASA will need an educated, 
dynamic, and vital workforce to overcome these obstacles. We will need 
to be serious about expanding our math and science education programs 
so that we have trained and talented scientists and engineers to do 
this work. I have championed this educational effort for many years, 
and Congress has been expanding it. However, the President's proposal 
dramatizes the need to accelerate our efforts to improve math and 
science education.
    In addition to the cost of creating the workforce NASA needs to 
carry out this mission, the costs of this journey into space in terms 
of money and human risk are significant hurdles that we must examine 
carefully before we agree to expand NASA and its mission. Going to the 
Moon, and especially Mars, is an expensive undertaking. Several 
estimates place the cost at many hundreds of billions of dollars. This 
mission is a very long-term commitment--if we are ``in for a penny'' 
then we will be ``in for a pound,'' or, if fact, many, many pounds. We 
need a realistic estimate of the overall price tag of the mission and 
what trade-offs in other programs will need to be made, to be certain 
that we can, and want to, assume the costs.
    In addition to the monetary risk, we must remember that sending 
humans into space is always perilous. Simply landing a probe on Mars 
has proven difficult--many of the probes have been lost. A human 
landing would be complicated by its size, life-support issues, 
radiation, and other health hazards, and the need to actually safely 
return the crew. We will need to decide if the scientific and 
exploration value of a human mission outweighs the risks to human 
health and consider whether robotic missions might be just as valuable, 
because they can be done at a fraction of the cost.
    As a scientist, I fully understand the desire to explore, to 
discover, and to learn the unknown. I applaud President Bush for his 
ability and willingness to provide NASA with a compelling and unifying 
mission that will satisfy our human desire to explore while inspiring 
our children to reach towards the heavens. I look forward to hearing 
Mr. O'Keefe's and Dr. Marburger's justification of the mission, its 
time-line and technical implementation, and its budget.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank Administrator O'Keefe and Director 
Marburger for appearing before our committee to discuss the President's 
Vision for Space Exploration and the FY05 Budget for NASA. Today's 
hearing serves as an opportunity for oversight of certain departmental 
programs. The President recently announced his space exploration 
initiative which provides much needed long-term goals for our nation's 
human space flight program. The lack of clear direction has hampered 
NASA's effectiveness and has kept it from realizing its full potential 
as the Nation's space agency. That is why my colleagues on the Science 
Committee and I have been calling for the administration to establish a 
vision for the space program even before the Space Shuttle Columbia 
tragedy. In light of the President's new initiative, the budget for 
NASA leaves many significant questions unanswered and Congress needs 
more specifics as we consider the FY 05 budget request for NASA.
    NASA continues to be our gateway to the universe. It is through 
NASA's efforts that we will understand our planet, our solar system and 
beyond. NASA's budget should reflect a strong commitment to, and 
emphasis on, continuing to build the agency's core foundation of 
aeronautics and aerospace research and development as well as its 
missions of exploration and discovery to educate and inspire.
    While the President's initiative envisions human lunar landings by 
2020 and human missions to Mars at some point in the future, I am 
concerned that no cost estimate has been provided for this new 
initiative. Further, it is clear from NASA's budget plan that most of 
the expenses would be incurred after President Bush has left office.
    Finally, I am concerned that many important and promising programs, 
such as the education programs and space station research, would be 
eliminated or have their funding cut, deferred, or flattened in order 
to fund the space exploration initiative. While the Administration 
states this new initiative is affordable under the budgetary plan 
developed by NASA, NASA's track record on the credibility of its cost 
estimates over the last several years is at best mixed.
    The President's proposal will have a high price tag and it should 
not come at the cost of our commitment to our children, our veterans, 
our seniors, and our other important domestic priorities. We currently 
have over a half-trillion dollar deficit and the case is going to have 
to be made to this committee and the American people why this proposal 
should be supported in the face of that deficit.
    I welcome our witnesses and look forward to their testimony.

    [The prepared statement of Ms. Jackson Lee follows:]
        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for calling this hearing to discuss the future of NASA's 
mission in space, and to understand how the President's new budget fits 
in that picture. NASA is at a great turning point. Our work here today, 
and in the upcoming months, could determine if in a century, our kids' 
kids' kids will be exploring Mars, or if they will be walking through a 
museum, learning about how long, long ago Americans used to boldly 
explore the heavens.
    I would like to join you in welcoming Dr. Marburger and 
Administrator O'Keefe. I commend them for their work so far, in keeping 
us informed on the President's new initiative for human-space flight. 
Successfully crafting the new mission for NASA will take unprecedented 
cooperation between the Administration, and Congress, and the private 
sector, and the American people. I thank the gentlemen for coming 
today. We must keep this dialogue going.
    First, I would like to commend the President for articulating his 
bold new vision for NASA's future. We have much work to do to ensure 
that we fine tune that plan, to make sure it fits our goals 
scientifically, meets our responsibilities, and works within our means 
in a tough economy. Unfortunately, we are in a time of tight budget, 
due to horrible financial mismanagement by this Administration over the 
past three years. But space exploration is not about FY05, or even 
about five-year projections. It is about an ongoing quest that captures 
people's minds and hearts, drives our technology to the cutting edge, 
and pushes our economy forward. We cannot afford to abandon progress in 
space every time we fall on challenging times. If we allow NASA to 
follow a boom-bust cycle, it will never have a committed workforce with 
the expertise and experience necessary to do great things.
    So, I feel we must move forward boldly, but not so boldly that we 
allow the program to collapse under its own weight. We must be safe, 
and we must be prudent in making methodical steps, to the Moon, to 
Mars, and beyond.
    For example, it is exciting to think of building the next 
generation vehicle, and to retire the Space Shuttle. But if we are on 
schedule to decommission the Shuttle in 2010, and then fall behind on 
the schedule to replace it due to shifting budget priorities, we could 
be caught in a very tough place. We may lose access to the 
International Space Station that we have invested so much in. We could 
start losing quality NASA employees to the private sector or to 
retirement, and lose their institutional memory as well. That could 
make it very difficult to restart a viable program in the future.
    Of course, I am especially interested in how this new mission will 
affect Johnson Space Center near my district in Houston. As the hub of 
the manned space program over the years, Houston has so much to offer 
this new mission. However, instability as old program give way to new, 
could be detrimental to the space community and the city as a whole.
    And finally I am concerned about safety. Since the Columbia 
tragedy, we are all working together to re-focus on safety--improving 
the NASA safety ``culture'' as some call it. We still have much work to 
do on that. We need to make substantial improvement before we turn all 
of our thoughts to new things.
    I look forward to hearing more about the new U.S. vision for space 
exploration, and the budget to make it happen. Thank you.

    Chairman Boehlert. With that, I will open with Dr. 
Marburger.

 STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, OFFICE OF 
    SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE 
                           PRESIDENT

    Dr. Marburger. Thank you, Mr. Chairman and Committee 
Members, for inviting me to discuss the President's vision for 
space exploration. I believe the Nation's space enterprise will 
be strengthened by this vision, which will continue a brilliant 
record of NASA discoveries that have literally changed the way 
we view the universe. I have prepared a written testimony that 
is too long for oral presentation but that does contain 
detailed responses to the questions that you asked in your 
letter inviting me to testify. And of course, I will be glad to 
answer any questions about that detailed account, as well as 
others.
    The first issue is the rationale for the President's 
vision. The President describes this vision as a journey, not a 
race. And it differs profoundly from the Apollo paradigm of a 
single, massive project requiring a large budget spike and an 
aggressive schedule. In this new vision, milestones are 
established to guide planning on a series of discreet and 
mutually reinforcing projects whose aim at each step is to 
reduce the cost and the risk of all subsequent missions.
    There are certain technical facts about space exploration 
that seem to be ignored in much of the public commentary, and I 
describe these briefly in my written testimony, but the 
President's new paradigm takes these new facts seriously, 
balancing robotic and human roles in dealing with them and 
mandates a step-by-step approach to address risks and costs 
within a steady and realistic flow of resources. Regarding 
human exploration, the President's vision implies a fundamental 
change in ground rules. The idea, in his words, is to ``explore 
space and extend a human presence across our Solar System. . 
.[making] steady progress: one mission, one voyage, one landing 
at a time.'' The emphasis here is on sustained exploration and 
discovery through all appropriate means at a pace we can afford 
in terms of risk as well as cost.
    This new paradigm also acknowledges the obvious fact that 
the Moon is the nearest platform beyond low-Earth orbit that 
can sustain the entire range of activities needed in deep space 
exploration. It is not just a more remote version of the 
International Space Station. It has the potential of providing 
mass for numerous uses in further exploration missions, and 
therefore significantly reducing future costs. The long-term 
value of the Moon is not primarily in its direct value to 
science, but in its value to all future deep space operations.
    The second issue is the deliberative process leading up to 
the President's announcement. I have described this process in 
my written statement. It was a normal White House policy 
process in which my staff and I were involved from the 
beginning, as was NASA and Administrator O'Keefe. An extensive 
literature with many analyses and reports exists on space 
exploration. I would describe the process as taking place in an 
information-rich environment. And I would be glad to answer any 
further questions on process that--Sean and I have sat through 
a lot of meetings and we can talk about it, but it--there was 
nothing particularly unusual about this process.
    The third issue is the question of the science benefits of 
the vision. People have referred to that in the opening 
statements. The President's new paradigm will open up new 
opportunities to explore and understand the cosmos. Further 
major advances in understanding the Solar System and the 
universe, beyond what is now technically possible, will require 
much more complex operations in space or on the surface of 
Solar System objects: moons, and planets, and asteroids. These 
would involve high power instrumentation, large area and long-
duration investigation of multiple planetary bodies, and the 
possible assembly of sophisticated observatories in space or on 
the surface of other planets. Such complex missions are not 
possible today for several reasons that are detailed in my 
written testimony. These reasons are interrelated, and 
overcoming them systematically will build the backbone for a 
robust exploration agenda.
    Related to this issue is a sequence of enabling initiatives 
associated with the vision. Once again, there are several 
important enabling initiatives that are outlined in the 
President's vision, and I urge you to read the more detailed 
analysis in my written testimony for each one of these 
components. I will just name topics that are addressed in my 
written testimony: the International Space Station, what are we 
going to do with that; the Moon, why the Moon, what is it that 
we plan to get out of being on the Moon; the role of robotics; 
power; and communications capabilities. These are all--there is 
a technical basis for the choice of emphasis on these topics, 
and I will be glad to respond to questions about it.
    Let me take a little bit more time in my oral remarks to 
discuss the next issue, which is the impact on existing science 
activities. That is of immediate importance to many Committee 
Members. Much of the $11 billion that are reprioritized within 
the fiscal year 2005 to 2009 budgets comes from discontinuing 
the launch technology program and savings derived from Shuttle 
retirement and reprioritization of research on the 
International Space Station.
    In this budget, space science continues to be robust. The 
vision specifically calls for a new series of robotic 
exploration missions to the Moon and Mars. The outer planets 
continue to be a research priority with the Jupiter Icy Moons 
Orbiter, JIMO, and a mission to Pluto also included.
    The Sun-Earth Connection research also remains a priority. 
Despite the stretch-out of the Solar Terrestrial Probes awards, 
this program, and all others in NASA's Sun-Earth Connection 
theme, are scheduled to continue.
    A whole new generation of space observatories is being 
planned. The fiscal year 2005 budget maintains the Webb 
telescope's scheduled 2011 launch date. Other observatory 
missions are described in the written version of my testimony. 
I will say more, at the end of my remarks, about the Hubble 
telescope.
    NASA's Earth Science Enterprise has been, and will continue 
to be, the largest contributor to the interagency Climate 
Change Science Program.
    The President's fiscal year 2005 budget supports the NASA 
Aeronautics Blueprint with a request for $919 billion. This 
maintains the funding level for aeronautics that was in the 
President's 2004 budget plan. I will say, the presence of 
fiscal year 2004 earmarks in the budget numbers creates the 
impression that reductions have been made to content in this 
program, which is not the case. We are committed to 
aeronautics, and NASA has created a new enterprise specifically 
focused on aeronautics within its administrative structure.
    The technology development necessary to execute and 
implement the President's vision will accelerate advances in 
robotics, autonomous, and fault tolerant systems, human-machine 
interface, materials, life support systems, and spur novel 
applications of nanotechnology and micro-devices.
    And finally, a framework and a vision for a sustainable 
exploration, coupled with intellectually stimulating problems, 
is a powerful asset in our continuing campaign to spark 
interest in science and technology among young people.
    Mr. Chairman, this vision opens up a new era of space 
exploration. It articulates the purpose for humans in space, 
and it is good for science.
    Now I would like to take a few minutes in the remaining 
portion of my testimony to go into the technical issues related 
to the Hubble Space Telescope. You asked----
    Chairman Boehlert. By all means, do so and ignore the red 
light, but we are just keeping it on as a guide so that we can 
focus our attention.
    Dr. Marburger. Thank you.
    You did ask me some specific questions about the Hubble 
Space Telescope, and there is a longer version of these 
comments in my testimony.
    First of all, let me say that the decision to cancel the 
SM-4 servicing mission to the Hubble was based on NASA's safety 
assessment and recommendations made by the Columbia Accident 
Investigation Board. I fully support NASA's concerns about 
safety, and I support the Administrator's action in asking 
Admiral Gehman to review this matter and offer his unique 
perspective.
    Now as to the Hubble's importance, the authors of a 2001 
National Research Council report said, and I quote, ``The 
Hubble Space Telescope has arguably had a greater impact on 
astronomy than any instrument since the original astronomical 
telescope of Galileo.''
    In the 14 years since the Hubble was launched, however--and 
I go into many of the discoveries and the assets that Hubble 
brings in my written testimony. In the 14 years of its 15-year 
estimated lifetime it--when it was designed, tremendous 
progress has been made in improving the quality of ground-based 
telescopes. Using adaptive optics, ground-based telescopes are 
now capable of resolution competitive with, and in some cases, 
better than, the Hubble in its longer wavelengths at near-
infrared.
    In its assessment of space astronomy, the National Research 
Council report that I quoted did not recommend new missions in 
the Hubble wavelength regime for three reasons, and let me 
quote from their report, 2001 report. This report is known as 
the most recent decadal survey, a very excellent report the 
astronomy community compiles periodically to guide its future 
programs. ``First, many of the key science opportunities [in 
this wavelength regime] are predominately in the infrared.'' 
``Second, the IR region has been studied much less than the 
optical region, so the potential for discovery is much 
greater.'' And third, ``Much of the important optical astronomy 
can be done from the ground.'' The Hubble is an optical 
telescope, reaching into the near-infrared. The committee wrote 
its report assuming the SM-4 service mission would take place, 
but its statements regarding the evolving role of the Hubble 
relative to other priorities are important in the present 
discussion about risk versus benefits. I might add that the 
charter for this hearing incorrectly states that a National 
Academy panel called for yet another servicing mission beyond 
SM-4. The panel indicated that the benefits of such a mission 
would have to be assessed by a review similar to the one that 
led to the report that I quoted.
    If serviced, I have no doubt that the Hubble would continue 
to provide world-class scientific data and be used to further 
refine our understanding of the universe. But the safety issues 
can not be ignored, and they must be considered not only with 
respect to the Hubble capability, but also the ever-increasing 
capability of visible ground-based telescopes combined with the 
exciting next-generation space observatories now being built.
    Thank you, Mr. Chairman, for giving me time to make this 
statement.
    [The prepared statement of Dr. Marburger follows:]
              Prepared Statement of John H. Marburger, III

                  A New Paradigm for Space Exploration

    Thank you for inviting me to discuss the President's vision for 
space exploration. This committee has long supported strong federal 
science and technology. We believe the Nation's space enterprise will 
be strengthened by a new focus that only a long-term vision can 
provide. With a sustainable, long-term vision, NASA will continue a 
record of discovery that in recent decades has literally changed the 
way we view the universe. I look forward to your continued support and 
to working with this committee to realize this vision for space 
exploration.

Vision Background and Rationale

    Neil Armstrong's first footsteps on the Moon in 1969 inspired 
wonder and excitement throughout the world. In that moment it seemed 
the unimaginable had become reality, and a course established for an 
enterprise in space in which anything was possible. Those first 
footsteps continue to inspire new generations of young scientists and 
engineers.
    Today we know much more about the difficulties of space exploration 
by humans or machines, and our thinking about space has evolved with 
our growing awareness of its costs and hazards. Against the background 
of that experience, the President has provided a general plan for space 
exploration that is at once visionary and pragmatic. Described by the 
President as ``a journey, not a race,'' this plan differs profoundly 
from the Apollo paradigm of a single massive project requiring a large 
budget spike and an aggressive schedule. In this new vision, milestones 
are established to guide planning on a series of discrete and mutually 
reinforcing projects, whose aim at each step is to reduce the cost and 
risk of all subsequent missions.
    Costs and risks are inherent in space exploration. The costs begin 
with the need to use rockets with their inherent massive fuel 
requirements to lift even small payloads away from Earth. The risks 
come from the hostile space environment, weightlessness, and the need 
to execute complex operations at immense distances from Earth, with 
mission durations measured not in weeks or months, but years.
    The President's new paradigm takes these facts seriously, balances 
robotic and human roles in dealing with them, and mandates a step-by-
step approach to address the risks and costs within a steady and 
realistic flow of resources. With respect to human exploration, it 
implies a fundamental change in ground rules. The idea, in the 
President's words, is to ``explore space and extend a human presence 
across our solar system. . .[making] steady progress--one mission, one 
voyage, one landing at a time.'' The emphasis is on sustained 
exploration and discovery through all appropriate means, at a pace we 
can afford in terms of risk as well as cost.
    The new paradigm also acknowledges the stark fact that the Moon is 
the nearest platform beyond low Earth orbit that can sustain the entire 
range of activities one would like to conduct in space. It is not just 
a more remote version of the International Space Station. It has the 
potential of providing mass for a variety of uses for further 
exploration missions, and consequently significantly reducing future 
costs. Some lunar resources may be valuable for Earth satellite 
applications. The long-term value of the Moon is not primarily in its 
direct value to science, but in its value to all future deep space 
operations.

Deliberative Process

    My office has been involved from the outset in developing this 
vision. OSTP, NASA, and most segments of the space community recognized 
the need for a civilian space vision. This need took on a new sense of 
urgency on February 1, 2003, when the Shuttle Columbia was lost. 
Starting in spring 2003 a group from the White House, NASA, and other 
agencies began sorting out the relevant issues. Upon the release of the 
Columbia Accident Investigation Board report, which echoed the need for 
such a vision, the White House established a formal policy process co-
chaired by the National Security Council and the Domestic Policy 
Council. I was directly involved in providing technical support to the 
process and I was involved in each of the senior meetings, as was 
Administrator O'Keefe. My staff was engaged in the process on a daily 
basis. In this context, a consensus vision and implementation strategy 
emerged.
    This process occurred in an environment rich with information about 
space exploration. Numerous reports and analyses, produced over 
decades, have considered the future of civil space exploration in great 
detail. Tradeoffs between human and robotic capabilities have been 
debated, passionate discourses have been written about the ultimate 
destination--whether it should be the Moon, Mars, or a Lagrangian 
point, and the ultimate wisdom of committing the resources to set our 
sights beyond planet Earth. These analyses and inputs were used to 
inform the discussion and to frame the vision articulated by the 
President.

Exploration Opportunities

    The President's new paradigm will open up new opportunities to 
explore and understand the cosmos that are not technically possible 
today. During the first 40 years of NASA's exploration, of the solar 
system, the available technology and resources have allowed for flyby 
missions of numerous moons, asteroids, comets, and every planet except 
Pluto. In a few cases, orbital missions were executed (the Moon, Venus, 
Mars, Jupiter, and the asteroid Eros) and in even fewer cases, landings 
were made (the Moon, Venus, and Mars).
    During the same period, space observatories have become 
increasingly more sophisticated, opening up windows of observation that 
are impossible from the ground. Data from these facilities have 
transformed our understanding of the formation and evolution of the 
Universe.
    Further major advances in understanding the Solar System and the 
universe will likely require even more complex operations in space or 
on the surface of solar system objects. These would involve high power 
instrumentation, large area and long-duration investigation of multiple 
planetary bodies, and the possible assembly of sophisticated 
observatories.
    Such complex missions are not possible today for several reasons 
including: the small payload mass we can affordably send into deep 
space; limitations in power due to decreasing solar flux at high 
latitudes on near planets or deeper into space; slow communications 
data rates to Earth; and the challenge of programming autonomous 
missions and controlling operations from Earth given the large time 
delays imposed by the finite speed of light.
    These ``infrastructure'' issues are inter-related and their 
resolution will provide the backbone for a robust exploration agenda--
an agenda that allows for close-in examination, the ability to touch 
the item under scrutiny, and the evaluation of large area and long-term 
trends. The President's vision also establishes a balance between 
robots and humans, using the strengths of each to optimize the complex 
missions.
    The President's vision and its budget call for the deliberate 
development of the capabilities needed to open up the Universe to 
increased scrutiny. It will create new transportation options for both 
robots and humans, harness the natural resources found in space to 
foster sustainability, develop robust high power systems, improve 
communications, and build vastly more capable robots and improved 
robotic-human interfaces.

Near-Term Science and Technology Enablers

    There are several important enabling initiatives outlined in the 
vision:
    International Space Station (ISS): The ISS provides an important 
laboratory for understanding the effects of the hostile space 
environment on human health and well being. The emphasis of the U.S. 
research on the Station will be refocused to support space exploration 
goals, including counteracting the impact of the space environment on 
human health and advanced life support systems. The U.S. research on 
the ISS will leverage terrestrial laboratory work to develop a more 
complete understanding of the effects of the space environment on human 
physiology and to develop countermeasures.
    Moon: We will return to the Moon as a first step to opening the 
Solar System to further human exploration, including Mars missions. The 
first missions will be robotic and will provide a more detailed 
assessment of the material composition and variability across the lunar 
surface and will help to resolve uncertainty in our understanding of 
the formation and early geological history and subsequent evolution of 
the Earth and the other inner planets. Furthermore, the lunar missions 
will demonstrate our ability to live and work on another world. Apollo 
demonstrated that we could transport humans to the Moon, land, and 
return safely. The six Apollo flights that landed on the Moon spent a 
sum total of less than 300 hours on the lunar surface (less than 13 
days). While we have demonstrated in the past that we can land on the 
Moon and return safely to Earth, we must now demonstrate that we can 
build and operate an infrastructure capable of supporting life for many 
months in an alien, inhospitable environment far from home. 
Furthermore, as previously described, the Moon is potentially a rich 
source of materials. Previous space commissions and studies have 
emphasized that extracted resources from the lunar surface can greatly 
enhance our ability to explore the solar system by refueling rockets; 
providing metals, ceramics, and other materials; and sustaining more 
cost-effective access to Mars and other worlds by launching materials 
from the Moon rather than from the Earth's surface.
    Robotics: The vision specifically calls for robotic missions to 
serve as the trailblazers. As amply demonstrated by the Mars 
Exploration Rovers ``Spirit'' and ``Opportunity'' and the armada of 
space observatories and planetary probes, robots serve us well and 
provide excellent science returns. But the President's vision 
recognizes the need for human oversight of a next phase of much more 
complicated missions than is achievable with today's remote sensing or 
limited rovers. Enabling this new paradigm of exploration will require 
more sophisticated robotic capabilities and an exquisite interface 
between robots and humans.
    Power and Communications: The next steps in exploration, which 
include in situ robotic operations, sample return missions, and human 
presence, will require much greater communication bandwidth and power 
systems. NASA is currently pushing optical communications for planetary 
missions that would in principle improve data transfer rates to Earth 
by orders of magnitude. Imagine the advantage, not to mention the 
excitement, of watching high resolution video--rather than today's 
still pictures--from a rover traveling through the Martian landscape. 
Also integral to the exploration vision is enabling much greater power 
to operate the instruments and tools. Advanced nuclear power systems 
being developed have the capability to operate at all latitudes on Mars 
and deeper in the Solar System where the solar flux is feeble.

Maintaining Strong Science

    The changes to the NASA budget reflect the new priorities derived 
from the vision as well as the fiscal realities. Much of the $11 
billion reprioritized within the FY 2005-FY 2009 budget comes from 
discontinuing the launch technology program, savings derived from the 
Shuttle retirement, and reprioritizing research on the International 
Space Station. The rest of the savings comes from slowing down a few 
missions and keeping the spending rate constant for other programs.
    In this budget, Space Science continues to be robust. The vision 
specifically calls for a new series of robotic exploration missions to 
the Moon and Mars. The outer planets will continue to be a research 
priority with the Jupiter Icy Moons Orbiter (JIMO)--designed for long-
duration, in-depth study of three Jovian moons that appear to contain 
significant water ice. And the budget includes a mission to Pluto--the 
only planet in our Solar System left to be visited by robotic probes.
    The Sun-Earth Connection research remains important to NASA and the 
Nation. Despite the stretch-out of the Solar Terrestrial Probes awards, 
this program--and all others in NASA's Sun-Earth Connection theme--is 
scheduled to continue. The Sun-Earth Connection research budget rises 
by $17 million in 2005 from the 2004 level and will remain at roughly 
the $200 million level for the next several years. The 2005 budget 
therefore enables NASA to continue to pursue its goals in solar 
science. In addition, Sun-Earth Connection funding is expected to grow 
from $746 million in 2005 to $1.05 billion in 2009, providing for the 
ability to begin new and exciting major solar and space physics 
missions.
    Observatories that probe the evolution of our universe and the 
matter within it are among the most important instruments in science. 
Building upon the success of missions like the Hubble, Spitzer, WMAP, 
and others, a whole new generation of space observatories is being 
planned, each pushing the frontiers of new wavelengths and resolutions 
to peer back in time toward the origins of the universe; observe 
potentially cataclysmic events; and to identify and study extra-solar 
planetary systems. The FY 2005 budget maintains the Webb telescope's 
scheduled 2011 launch date. Funding is provided to cover launch delays 
to the Gamma-ray Large Area Space Telescope (GLAST), the Gravity Probe 
B, Swift and Herschel-Planck. Pushing the frontier of space 
observations even further are Con-X and the Laser Interferometer Space 
Antenna (LISA) which are maintained in the budget but slowed down 
slightly, which will help NASA to retire some of the technical risk 
associated with these pioneering missions.
    NASA's Earth Science Enterprise has been, and will continue to be, 
the largest contributor to the interagency Climate Change Science 
Program (CCSP). The President's Budget requests nearly $1.5 billion for 
NASA's Earth Science programs. These funds support new missions to 
measure ocean salinity, assess carbon dioxide concentration, and 
monitor aerosol concentrations in-line with the Climate Change 
Strategic Plan released this past summer. In addition, funds are 
provided to ensure the continuity of Landsat data as well as test key 
sensors on the next-generation of operational Polar orbiting 
satellites, both of which are important components of our Earth 
observing infrastructure. In a few instances missions are deferred and/
or canceled where the absence of specific data sets would not cause 
undue harm to scientific progress.
    The President's FY 2005 budget supports the NASA Aeronautics 
Blueprint with a request for $919.2 M. This maintains the funding level 
for Aeronautics that was in the President's FY 2004 budget plan. The 
presence of FY 2004 earmarks in the budget numbers creates the 
impression that reductions have been made to content, which is not the 
case. The Blueprint identifies challenges facing aviation today and 
describes a vision of technology advances that will help solve these 
challenges. These advances will also create a whole new level of system 
performance and revolutionize civil and military aviation. The proposed 
FY 2005 budget request includes the development of the highest priority 
(safety/security, noise, and emissions) technologies and directly 
supports the vision espoused by the Blueprint. To further emphasize the 
priority of Aeronautics, a new NASA enterprise specifically focused on 
Aeronautics has been created.

Benefits to Science and Technology

    In addition to the programs described above, two additional 
benefits for science and technology are anticipated from the 
President's vision. First, the technology development necessary to 
carry out this vision will accelerate advances in robotics, autonomous 
and fault tolerant systems, human-machine interface, materials, life 
support systems, and spur novel applications of nanotechnology and 
micro-devices. All of these advances, while pushing the frontiers of 
space, are likely to spur new industries and applications that will 
improve life on Earth.
    Second, articulating the human journey into the cosmos, with clear 
and challenging milestones, will inspire future generations of young 
people to study math, science, and engineering. A framework and a 
vision for a sustainable exploration, coupled with intellectually 
stimulating problems, is a substantial asset in the continuing campaign 
to spark interest in science and technology in each new generation.

Conclusion

    This vision has consequences. It implies that we optimize not for a 
single mission but for the steady accumulation of technologies and 
capabilities that provide a base for multiple operations. It emphasizes 
the role of robotics, of ground-based research, and of system thinking. 
And it places the International Space Station in a larger context of 
preparation for the journey of exploration.
    The vision articulates the purpose for humans in space. We have a 
vigorous and highly productive program of non-human space operations 
for scientific, military, and commercial purposes. These ``robotic'' 
missions have their own strong justification, and will contribute to 
the achievement of the vision for humans. The philosophy of going step 
by step, preparing for the future on a broad front, introduces human 
capabilities only as appropriate, keeping in mind that the ultimate 
goal is to permit humans to operate routinely on missions where they 
are needed.
    The vision is good for science. Enabling this vision will lead to a 
greater understanding of our place in the universe, the history of the 
solar system, and push technology on many fronts that are important to 
the economic security of this Nation. It will also open up new 
possibilities for future science missions that have more aggressive 
goals. And it prioritizes and maintains a healthy portfolio of research 
in space and aeronautics.

Hubble Space Telescope

    In your invitation to testify at today's hearing you asked me to 
describe the contributions to science made by the Hubble Space 
Telescope and to assess what would be lost if the Hubble ceased to 
function earlier than had been planned. And you asked how to weigh 
these losses against the potential benefits of other activities under 
the new initiative.
    Let me start by stating clearly my understanding that the decision 
to cancel the SM-4 servicing mission to the Hubble Space Telescope was 
based upon NASA's assessment of the safety and recommendations made by 
the Columbia Accident Investigation Board. We fully support NASA's 
concerns about safety and we support the Administrator's action in 
asking Admiral Gehman to review this matter and offer his unique 
perspective.
    Since its launch in 1990 (and subsequent repair mission), ``the 
Hubble'' has provided spectacular data that has improved our 
understanding of the cosmos. As the authors of the 2001 National 
Research Council ``Astronomy and Astrophysics in the New Millennium'' 
put it ``The Hubble Space Telescope has arguably had a greater impact 
on astronomy than any instrument since the original astronomical 
telescope of Galileo.'' The Hubble was launched with a planned 15 year 
mission and assumed service missions approximately every three years. 
Over the past decade, servicing missions have made repairs, upgraded 
instruments, and re-boosted the telescope to ensure a continuing stream 
of valuable data. The SM-4 mission was designed to replace the gyros 
that stabilize the telescope, repair some thermal insulation, replace 
the Fine Guidance Sensor, replace the batteries, and to install two new 
instruments (Cosmic Origins Spectrograph and Wide Field Camera-3). It 
was estimated that the servicing mission would have added 4-5 years of 
life to the Hubble.
    In the 14 years since Hubble was launched, tremendous progress has 
been made in improving the quality of ground based telescopes. Using 
adaptive optics--that is compensating for atmospheric turbulence which 
degrades the resolution of the image--ground based telescopes are now 
capable of resolution competitive with, and in some instances better 
than, the Hubble in the longer wavelengths (near-infrared)--albeit for 
objects with good contrast and over smaller fields-of-view. Over the 
next few years, advanced adaptive optics techniques are being planned 
for the next generation of ground based observatories, improving both 
the resolution and fields of view.
    In its assessment of ultraviolet and optical astronomy from space, 
the National Research Council report did not recommend new missions in 
the Hubble wavelength regime for three reasons: ``First, many of the 
key science opportunities [in this regime] are predominantly in the 
infra-red'' (the wavelength region covered by the recently launched 
Spitzer telescope). ``Second, the IR region has been studied much less 
than the optical region, so the potential for discovery is much 
greater. [Third] much of the important optical astronomy can be done 
from the ground.'' The committee wrote its report assuming the SM-4 
service mission would take place, but its statements regarding the 
evolving role of the Hubble relative to other priorities are important 
in the present discussion about risk versus benefits.
    There are some things the Hubble can do that ground based 
telescopes cannot. It can stare at select regions of the sky for 
extremely long periods of time. It can return to anyplace in the sky 
over time and add up or `stack' exposures. Ground-based observatories 
can do this same `stacking,' but to a much more limited extent because 
of the variations introduced by the atmosphere. In the vast majority of 
cases ground-based imaging observations are limited to a single night's 
length. Where they overlap in wavelength coverage, larger ground-based 
telescopes collect light faster than Hubble so similar science can be 
done in less time.
    The next generation Webb Space Telescope--Hubble's replacement--is 
being designed with about six times the collecting area, which should 
allow for study of fainter objects. The Webb is also being designed to 
be optimized in wavelengths that are not accessible from the ground, 
providing data that can not be collected from a platform other than one 
in space.
    If it is serviced, I have no doubt that the Hubble would continue 
to provide world-class scientific data and be used to further refine 
our understanding of the Universe. But the safety issues can not be 
ignored, and they must be considered not only with respect to the 
Hubble capability, but also the ever increasing capability of visible 
ground-based telescopes combined with the exciting next-generation 
space observatories being built.
    As stated earlier, I commend the NASA Administrator for taking an 
objective look at this problem and for soliciting the review by Admiral 
Gehman.

                  Biography for John H. Marburger, III
    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington, D.C., and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D., Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

    Chairman Boehlert. Thank you very much, Dr. Marburger. And 
we have given you a little more than double the normal time for 
opening, and we would accord Administrator O'Keefe the same 
courtesy, because it is such an important aspect. But I would 
hope that we could all avoid what I refer to as the schmoozing 
aspect of these hearings. I don't want my colleagues in the 
Committee thanking me making this hearing possible. 
Circumstances make it necessary. And we know we have good 
working--solid working relationships, so we want to, as much 
as----
    Mr. Rohrabacher. Mr. Chairman, I would like to thank you 
for saying that. That is a----
    Chairman Boehlert. And with that, we don't have to remind 
everyone of the solid working relationship we have with 
Administrator O'Keefe and the agency and with Dr. Marburger and 
the White House crew. We are interested in as much factual 
content in this first of many hearings as we can possibly get.
    With that, let me introduce my good friend, Sean O'Keefe.

    STATEMENT OF MR. SEAN O'KEEFE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Thank you, Mr. Chairman and Members of the 
Committee. I appreciate the opportunity to be here. And to 
summarize, I think in a slightly different direction here than 
Dr. Marburger has done, I think he gave a very comprehensive 
review of the overall strategy, and I will just try to touch on 
a couple of highlights that augment that as well.
    First and foremost, last August 26, the Columbia Accident 
Investigation Board, I think very pointedly, observed the 
absence of strategy and national goals as being a contributing 
factor in the space policy drift, as they referred to it, over 
the past, what they call, three decades. It was an interagency 
process that Dr. Marburger described, and as we go into in some 
detail in the prepared statement, to address and accelerate 
those very questions and to examine this point very 
specifically.
    The Congress and certainly in multiple hearings, as well--
on both sides of the Hill, as well as countless editorial 
pages, call for the President to offer a vision. Well, on 
January 14, the President did just that. It is a journey, not a 
race. That was his primary phrase, and that was the function, I 
think, that he was really trying to drive home as a long-term 
objective. So this is not a program for which there can be 
discreet elements that you tote up and determine what the 
ultimate consequence is; this is something that over a longer 
period of time, we can assess, and must assess, progress as we 
approach this journey, not toward a singular objective.
    It is not a crash program. It is not something intended to 
be a take everything out and put everything you have got toward 
it in order to achieve single-point destination objectives. It 
is a long-term set of objectives that I think Dr. Marburger 
touched on very extensively.
    It is a deliberate focus on lunar, Mars, and beyond 
objectives. The exploration will be informed by the scientific 
objectives. That is a primary function of exploration informed 
by the science as we move forward. It is a deliberate, focused 
approach to knock down the technology obstacles and hurdles 
necessary to achieve each goal in turn. The strategy of a 
stepping-stone approach is to build on successes, as realized, 
not to anticipate inventions along the way for the success of 
each stage. Instead, as successes materialize, then you adapt 
the plans and you adjust them necessary to accomplish the 
longer-term goals that the President has laid out.
    It is fiscally responsible. The President's budget as $16.2 
billion, and rising in the five year plan, is well within the 
President's fiscal policy to contain discretionary spending 
below four percent growth and to cut the deficit in half within 
five years. All of that has been accommodated in the proposal 
that the President submitted on February 2.
    It is achievable, it is ambitious, it is focused, and it is 
affordable. The vision document that all of you have before you 
is the bridge, if you will, between the President's statement, 
his policy directive, and the budget that is in place. And we 
have put that together as a means to try to describe the entire 
approach on how this journey will play out in degrees and by 
chapter.
    There is no massive commitment today that will be expected 
to be paid for by a future Congress, and each step in every 
interval along the way, the President and the Congress, 
annually, will have an opportunity to evaluate that progress 
and consider proposals for how that next chapter will proceed. 
This is the overall game plan. It is the objectives of what has 
been articulated, but in terms of how it is successively taken 
on is an annual matter of review, and there is no commitment 
that is being requested today that commits to a large balloon 
note in the future. Each of it is progressively developed.
    As mentioned earlier, too, as well, the President developed 
a commission, appointed them, they had their first hearings in 
the last couple of days here. He appointed them just last week. 
Secretary Pete Aldridge is Chairman of that commission: nine 
distinguished members of the academic industry and former 
public service communities to help guide how that strategy will 
be carried out.
    And finally, Mr. Chairman, if I could offer the 
observation, I guess, that has been included in several 
editorial pages as well is the divergence or disparate views 
within the public condition right now. The public interest is 
there. I offer to you just an anecdote of the last 40 days; the 
NASA website has received six billion hits. Six billion hits. 
That involves 47 unique different visitors--47 million, excuse 
me. So as a consequence, it is not only--it is not 47 people 
hitting the same button at the same time to achieve six billion 
hits. It is 47 million people who are, in turn, then returning 
repetitively to the website in the course of that time. Over 
the span of this 40-day period, that is more than twice the 
total number of hits we have received all of last year. All of 
last year was four times that which we had ever received 
before. So as a consequence, the interest level with what is 
going on and what is involved is extremely high. It involves 
430 million page views that are involved in this. It is 
effectively the equivalent of distributing all of what is 
contained in the Library of Congress 71/2 times over the course 
of 40 days. That is what has been delivered through the website 
alone.
    It also includes a wide range if disparate kinds of 
interests involved. There are more than 1,000 schools in the 
United States and universities, which have accessed the web 
page over the span of this time. It includes not only K through 
12 programs, but also university efforts.
    The sections that are being hit, it is not isolated to one 
area. It includes not only the Mars rovers updates, but also 
the kids' section, which is up five times, students' section, 
which is up three times. Educators are going to this at a 
factor of three higher than they have ever gone to it before. 
And so as a prospect of this--or a consequence of it, the 
interest level across everything we are engaged in is pretty 
high.
    Just to give you a quick flavor of what it is they are 
looking at, let me ask--there are a couple of charts, I think, 
before you, but I will give it to you in a graphic as well, and 
they are very, very brief.
    [Slide.]
    Certainly, the immediate image or interests are on the 
success of the two Mars rovers. This first image is a color 
image taken by the panoramic camera aboard Spirit showing the 
Adirondack, which was, I think, appropriately named, given its 
formation.
    [Slide.]
    The next is a medium resolution version of a 360-degree 
view of the Martian surface taken aboard Spirit, in its camera.
    [Slide.]
    The next is a drag mark that was made by the Spirit as it 
moved off of the deflated area and moved on to the area 
referred to as ``Magic Carpet'' as it moved along.
    [Slide.]
    The next series is Opportunity. It is a picture taken soon 
after Opportunity landed, showing the interior of the crater, 
which it is now exploring.
    [Slide.]
    The next is an image by Opportunity's navigation camera 
showing an overhead perspective of the rover itself and how it 
initially landed at that point on the Challenger Memorial 
Station location.
    [Slide.]
    And finally, we have a Martian Coast Guard from the 
panoramic camera of Opportunity showing the Martian landscape 
southwest of the rover. This is the area they are really 
examining with great detail as it works across that.
    [Slide.]
    And a final image of what is also being struck several 
times is that of the Spitzer Space Telescope. This past 
December, two months ago, we--as Spitzer became operational and 
observes the cosmos in an infrared capacity with unprecedented 
sensitivity, exactly as Dr. Marburger described. And the 
comparative images you see here is one versus--in the smaller 
inset, is what visible light would otherwise provide. The one 
to the right, in the larger image, is what Spitzer has provided 
as a consequence of the infrared capability that is now 
operational and being accessed multi-million times as a 
consequence of availability on the website today.
    With that, Mr. Chairman, I thank you for the opportunity to 
testify, and I look forward to your questions, sir.
    [The prepared statement of Mr. O'Keefe follows:]
                   Prepared Statement of Sean O'Keefe
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's FY 2005 budget request. 
On January 14th, the President visited NASA Headquarters and announced 
his Vision for U.S. Space Exploration. In his address, the President 
presented a vision that is bold and forward-thinking, yet practical and 
responsible--one that explores answers to longstanding questions of 
importance to science and society and will develop revolutionary 
technologies and capabilities for the future, while maintaining good 
stewardship of taxpayer dollars.
    The vision forms the basis of the new U.S. space exploration 
policy, ``A Renewed Spirit of Discovery.'' (See charter, p. 7.) This 
policy is the product of months of extensive and careful deliberation. 
The importance of these deliberations increased with the findings of 
the Columbia Accident Investigation Board, which emphasized the 
importance of setting clear, long-term goals for the Nation's human 
space flight program. Inputs from Members of this committee and other 
Members of Congress informed the Administration's deliberations. Many 
others contributed ideas for the future of the space program. These 
deliberations were also the basis for formulating the President's FY 
2005 Budget request for NASA. A commission will advise NASA on specific 
issues for implementation of the policy's goals within four months.
    Today, I will summarize the President's FY 2005 budget request for 
NASA, discuss the goals set forth in the new U.S. space exploration 
policy, walk you through the major implementation elements and their 
associated budget details, explain the implications of this directive 
for NASA's organization, and describe what the Nation's future in 
exploration and discovery will look like in the coming years.

FY 2005 Budget Summary

    The President's FY 2005 Budget request for NASA is $16.244 billion, 
a 5.6 percent increase over FY 2004, as reflected in Enclosure 1. The 
NASA budget request is designed with four key goals in mind:
    Compelling--The budget fully supports the U.S. Vision for Space 
Exploration, and provides for ongoing NASA mission priorities such as 
Aeronautics and Earth Science.
    Affordable--The budget is fiscally responsible and consistent with 
the Administration's goal of cutting the federal deficit in half within 
the next five years. NASA's FY 2005 budget will increase by $1 billion 
over five years, when compared with the President's FY 2004 plan; that 
is an increase of approximately five percent per year over each of the 
next three years and approximately one percent for each of the 
following two years.
    Achievable--The budget strategy supporting the vision will not 
require large balloon payments by future Congresses and 
Administrations. Unlike previous major civil space initiatives, this 
approach is intentionally flexible, with investments in sustainable 
exploration approaches to maintain affordability. After FY 2009, the 
budget projects that the exploration vision can be implemented within a 
NASA budget that keeps pace with inflation.
    Focused--The budget begins the alignment of NASA's program 
structure with the exploration vision. We now have the needed compass 
from which to evaluate our programs and make the needed tough 
decisions.

Vision Goals

    The fundamental goal of this new policy is to advance U.S. 
scientific, security, and economic interests through a robust space 
exploration program. In support of this goal, NASA will:

        <bullet>  Implement a sustained and affordable human and 
        robotic program to explore the Solar System and beyond;

        <bullet>  Extend human presence across the Solar System, 
        starting with a human return to the Moon by the year 2020, in 
        preparation for human exploration of Mars and other 
        destinations;

        <bullet>  Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and to support decisions about 
        destinations for future human exploration; and

        <bullet>  Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.

Implementation Elements and Budget Highlights

    To achieve these goals, NASA will plan and implement an integrated, 
long-term robotic and human exploration program, structured with 
measurable milestones and executed on the basis of available resources, 
accumulated experience, and technology readiness. The policy envisions 
the following major implementation elements:

    Space Shuttle--NASA will return the Space Shuttle to flight as soon 
as practical, based on the recommendations of the Columbia Accident 
Investigation Board. The budget includes $4.3 billion for the Space 
Shuttle, a nine percent increase above FY 2004. Included in this total 
is an estimated $238 million for Return to Flight (RTF) activities in 
FY 2005. The RTF activities are under evaluation to confirm the 
estimated cost and associated out year phasing. The focus of the Space 
Shuttle will be finishing assembly of the International Space Station 
(ISS). With its job done, the Space Shuttle will be phased out when 
assembly of the ISS is complete, planned for the end of the decade. 
NASA will determine over the next year how best to address the issues 
associated with the safe retirement of the Space Shuttle fleet.

    International Space Station--NASA plans to complete assembly of the 
International Space Station (ISS) by the end of the decade, including 
those U.S. components that will ensure our capability to conduct 
research in support of the new U.S. space exploration goals and those 
planned and provided by foreign partners. The budget provides $1.9 
billion for ISS assembly and operations, a 24 percent increase above FY 
2004. This increase forward funds $100 million in reserves to partially 
restore planned near-term reserve levels following the $200 million 
Congressional cut to Space Station in FY 2004 and provides $140 million 
in new funding for transportation services to the Space Station. We 
will separate, to the maximum extent practical, crew and cargo 
transportation for both ISS and exploration missions. NASA will acquire 
ISS crew transport as required and cargo transportation as soon as 
practical and affordable. NASA envisions that commercial and/or foreign 
capabilities will provide these services.
    NASA anticipates that any adjustments in existing ISS Partner 
responsibilities as a result of the new U.S. space exploration policy 
can be accommodated within the existing ISS agreements. The ISS 
Multilateral Coordination Board is scheduled to meet today to begin the 
process of coordination within the Partnership on implications to the 
ISS resulting from the new policy. The Administration is also prepared 
to address issues associated with obtaining foreign transportation 
services to the Space Station, including provisions of the Iran 
Nonproliferation Act, but until the ISS Partnership adopts a specific 
implementation strategy, it is premature to identify specific issues.
    U.S. research activities aboard the ISS will be focused to support 
the new exploration goals, with an emphasis on understanding how the 
space environment affects astronaut health and capabilities, and on 
developing appropriate countermeasures to mitigate health concerns. ISS 
will also be vital to develop and demonstrate improved life support 
systems and medical care. Consistent with this focus, the budget 
provides $343 million, a 61 percent increase above FY 2004, for 
bioastronautics research to understand and mitigate risks to humans on 
exploration missions. Over the next year, the Biological and Physical 
Research Enterprise will conduct a thorough review of all research 
activities to ensure that they are fully aligned with and supportive of 
the new exploration vision.

    New Space Transportation Capabilities--The budget provides $428 
million to begin a new Crew Exploration Vehicle, named Project 
Constellation, that will provide crew transport for exploration 
missions beyond low-Earth orbit. The current budget planning is based 
on formulation concept studies to be conducted in FY 2004, preliminary 
design activities conducted in FY 2005 and FY 2006, a System Design 
Review in FY 2005, and a Preliminary Design Review in FY 2006. NASA 
plans to develop Project Constellation in a step-by-step approach, with 
an initial unpiloted test flight as early as 2008, followed by tests of 
progressively more capable designs that provide an operational human-
rated capability no later than 2014. Project Constellation may also 
provide transportation to the Space Station, but its design will be 
driven by exploration requirements.
    NASA does not plan to pursue new Earth-to-orbit transportation 
capabilities, except where necessary to support unique exploration 
needs, such as a heavy lift vehicle. The budget discontinues the Space 
Launch Initiative, although knowledge gained on the Orbital Space Plane 
will be transferred to Project Constellation.

    Lunar Exploration--NASA will undertake lunar exploration and 
demonstration activities to enable sustained human and robotic 
exploration of Mars and other destinations in the Solar System. 
Beginning no later than 2008, NASA plans to launch the first in a 
series of robotic missions to the Moon to prepare for and support human 
exploration activities. The budget provides $70 million for these 
robotic lunar test beds, increasing to $420 million by FY 2009. The 
policy envisions the first human expedition to the lunar surface as 
early as 2015, but no later than 2020. These robotic and human missions 
will further science and demonstrate new approaches, technologies, and 
systems--including the use of space resources--to support sustained 
human exploration to Mars and other destinations.

    Exploration of Mars--The stunning images we have received from Mars 
are just the beginning of future Mars exploration. NASA will enhance 
the ongoing search for water and evidence of life on Mars by pursuing 
technologies in this decade for advanced science missions to Mars in 
the next decade. Also starting in the next decade, NASA will launch a 
dedicated series of robotic missions to Mars that will demonstrate 
greatly enhanced robotic capabilities and enable future human 
exploration of the Red Planet. The budget provides $691 million for 
Mars Exploration, a 16 percent increase over FY 2004, and will double 
Mars Exploration funding by FY 2009. NASA will conduct human 
expeditions to Mars and other destinations beyond Earth orbit on the 
basis of available resources, accumulated experience, and technology 
readiness.

    Other Solar System Exploration--Over the next two decades, NASA 
will conduct an increasingly capable campaign of robotic exploration 
across the Solar System. The budget provides $1.2 billion for Solar 
System Exploration missions to Jupiter's icy moons, to Saturn and its 
moon Titan, to asteroids and comets, and to other Solar System bodies. 
These missions will search for evidence of life, help us to understand 
the history of the Solar System, and search for resources.

    Extrasolar Planets--NASA will launch advanced space telescopes that 
will search for Earth-like planets and habitable environments around 
other stars. The budget includes $1.1 billion for the Astronomical 
Search for Origins, a 19 percent increase over FY 2004, to support 
Hubble Space Telescope operations, the recently launched Spitzer Space 
Telescope, James Webb Space Telescope development, as well as three 
future observatories. This funding also supports investments to extend 
the lifetime of the Hubble Space Telescope to the maximum extent 
possible without a servicing mission.

    Enabling Capabilities--NASA will pursue a number of key 
capabilities to enable sustainable human and robotic exploration across 
the Solar System. Among the most important of these capabilities is 
advanced power and propulsion, and the budget provides $438 million for 
Project Prometheus to develop these technologies for future robotic and 
human exploration missions. The budget also includes $636 million in 
other Human and Robotic Technology funding to pursue sustainable 
approaches to Solar System exploration, such as reusable and modular 
systems, pre-positioned propellants, space resource utilization, 
automated systems and robotic networks, and in-space assembly. These 
technologies will be demonstrated on the ground, in orbit, and on the 
Moon beginning in this decade and extending into the next to help 
inform future exploration decisions. The budget projects that funding 
for these Human and Robotic Technology investments will grow to $1 
billion by FY 2009.
    The budget also includes innovative opportunities for U.S. 
industry, academia, and members of the public to help meet the 
technical challenges inherent in the new space exploration vision. The 
budget includes $20 million for the new Centennial Challenges program, 
which will establish competitions to stimulate innovation in space and 
aeronautical technologies that can advance the exploration vision and 
other NASA missions. The budget also provides $10 million for NASA to 
purchase launch services for its payloads from emerging launch vehicle 
providers. And as previously mentioned, the budget includes $140 
million for Space Station transportation services.

    Ongoing Priorities--The budget supports the vision for space 
exploration, while maintaining NASA commitments in other important 
roles and missions.
    NASA continues its commitment to helping understand our changing 
global climate. The budget makes NASA the largest contributor to the 
interagency Climate Change Science Program with $100 million for the 
Climate Change Research Initiative. The budget includes $560 million 
for Earth Science research, a seven percent increase above FY 2004, to 
support research on data from 80 sensors on 18 satellites currently in 
operation. Work also continues on Earth observation missions in 
development or formulation, including $141 million (a 36 percent 
increase from FY 2004) for the National Polar Orbiting Environmental 
Satellite System Preparatory Project, $42 million for the Landsat Data 
Continuity Mission, and $240 million (a 37 percent increase from FY 
2004) for missions in formulation, such as the Orbiting Carbon 
Observatory, Aquarius and Hydros.
    NASA maintains planned Aeronautics Technology investments to 
improve our nation's air system. The budget includes: $188 million, a 
four percent increase above FY 2004, for technology to reduce aircraft 
accidents and improve the security of our nation's aviation system 
against terrorist threats; $72 million, an 11 percent increase above FY 
2004, for technology to reduce aircraft noise and improve the quality 
of life for residents living near airports; $209 million for technology 
to reduce aircraft emissions and improve environmental quality; and 
$154 million for technologies to increase air system capacity and 
reduce delays in the Nation's airports.
    NASA will continue to make fundamental advances in our knowledge of 
the Sun and the Universe. The budget provides $746 million for Sun-
Earth Connection missions, including the Solar Dynamics Observatory and 
the Solar-Terrestrial Relations Observatory. The budget also provides 
$378 million for Structure and Evolution of the Universe missions, 
including the Chandra X-ray Observatory and three major missions 
currently under development.
    NASA also maintains its role in science, engineering and math 
education. The budget includes $10 million for the newly authorized 
Science and Technology Scholarship program, which will help attract the 
Nation's best college students to NASA science and engineering careers. 
The budget also provides $14 million for the NASA Explorer Schools, 
which seeks to attract students to mathematics and science during the 
critical middle school years. The Explorer Schools program is entering 
its third phase and will be selecting 50 new schools for a total of 150 
participating schools.

    Management of Human Capital Facilities and Institution--NASA has 
earned the distinction of being the only federal agency to earn top 
grades for the Human Capital and Budget and Performance Integration 
initiatives under the President's Management Agenda. Congress recently 
passed the NASA Workforce Flexibility Act. NASA is grateful for the 
hard work of this committee in shaping this legislation to provide 
necessary flexibilities to better manage the NASA workforce. These 
flexibilities will be critical to implementing the exploration vision. 
The budget includes $25 million in FY 2005 to begin to address critical 
workforce skill and aging issues. NASA ratings have also improved in 
the Competitive Sourcing and E-Government initiatives, resulting in 
more total improvements than any other agency. Although we received a 
disclaimed opinion on our recent audit statement, we are determined in 
pursuing the right path in Financial Management in bringing on a new 
financial system that will standardize accounting across the Agency and 
provide the necessary tools for improved program management. NASA 
remains committed to management excellence and believes it is essential 
to implementing the new exploration vision.
    The budget includes funding for critical institutional 
capabilities, including $77 million for the NASA Engineering Safety 
Center and $27 million for Independent Verification and Validation. The 
budget also provides $307 million, a $41 million increase versus FY 
2004, for facilities maintenance.

Organizing for Exploration

    To successfully execute the exploration vision, NASA will re-focus 
its organization, create new offices, align ongoing programs, 
experiment with new ways of doing business, and tap the great 
innovative and creative talents of our nation.
    The President has issued an Executive Order creating a commission 
of private and public sector experts to advise on these issues. Former 
Undersecretary of Defense and Secretary of the Air Force, Pete 
Aldridge, is Chair of the Commission. The President has named eight 
other commissioners to join Mr. Aldridge. The commission will issue its 
report within four months of its first meeting, which is scheduled for 
February 11, 2004.
    Immediately following the President's speech, we established an 
Exploration Systems Enterprise, which will have responsibility for 
developing the Crew Exploration Vehicle and other exploration systems 
and technologies. Retired U.S. Navy Rear Admiral Craig Steidle, former 
manager of the Defense Department's Joint Strike Fighter Program, is 
heading this new organization. Relevant programs of the Aerospace 
Technology, Space Science, and Space Flight enterprises are being 
transferred to the Exploration Systems Enterprise. The Aerospace 
Technology Enterprise has been renamed the Aeronautics Enterprise to 
reflect its new focus.
    As human explorers prepare to join their robotic counterparts, 
coordination and integration will increase. The Exploration Systems 
Enterprise will work closely with the Space Science Enterprise to use 
the Moon to demonstrate new approaches, technologies, and systems to 
support sustained human exploration. NASA's Space Science Enterprise 
will have responsibility for implementing early robotic testbeds on the 
Moon and Mars and will also demonstrate other key exploration 
technologies--such as advanced power, propulsion, and communications--
in missions to Mars and Jupiter's moons. NASA's Space Science 
Enterprise will eventually integrate human capabilities into 
exploration planning for Mars and other destinations.
    Many other elements of the NASA organization will be focused to 
support this new direction. NASA's Biological and Physical Research 
Enterprise will put much greater emphasis on bioastronautics research 
to enable the human exploration of other worlds. NASA's Office of the 
Space Architect will be responsible for integrating the exploration 
activities of NASA's different Enterprises and for maintaining 
exploration roadmaps and coordinating high-level requirements.
    As we move outward into the Solar System, NASA will look for 
innovative ideas from the private sector and academia to support 
activities in Earth orbit and future exploration activities beyond. 
Many of the technical challenges that NASA will face in the coming 
years will require innovative solutions. In addition to tapping 
creative thinking within the NASA organization, we will leverage the 
ideas and expertise resident in the Nation's universities and industry.
    In his speech, the President directed NASA to invite other nations 
to share in the challenges and opportunities of this new era of 
exploration and discovery, and he directed us to fulfill our standing 
international commitments. We are discussing the impact of our vision 
implementation plans on the ISS with our partners, and as I have 
already indicated we will complete the assembly of the ISS. The 
President called our future course of exploration ``a journey, not a 
race,'' and other nations have reacted positively to the President's 
guidance. Several have already contacted us about joining in this 
journey. Building on NASA's long history and extensive and close ties 
with the space and research agencies of other nations, we will actively 
seek international partners in executing future exploration activities.
    NASA will also invigorate its workforce, focus its facilities, and 
revitalize its field centers. As exploration activities get underway, 
NASA anticipates planning, reviews, and changes to align and improve 
its infrastructure. In order to achieve the exploration vision, we will 
be making decisions on how to best implement new programs. While some 
of these necessary actions will not be easy, they are essential to 
achieving the goals of the overall effort before us. I urge you to 
consider the full context of what we will be proposing rather than any 
isolated, specific action. Such a perspective will allow us to move 
forward in implementing the vision.

FY 2003 Accomplishments

    Much of the NASA's future ability to achieve the new space 
exploration vision is predicated on NASA's many previous 
accomplishments. The most visible NASA successes over the past year are 
the Spirit and Opportunity rovers currently on Mars. Already, the 
landscapes imaged by these twin rovers and their initial science 
returns are hinting at fundamental advances in our understanding of 
early environmental conditions on Mars and whether Mars was once 
capable of sustaining water and the development of life.
    However, Spirit and Opportunity are not the only recent NASA 
mission successes. NASA successfully launched four new Space Science 
missions (including the two Mars rovers), three new Earth Science 
missions, one new NASA communications relay satellite, and completed 
two Space Station deployment missions. Missions in operation have also 
achieved a number of notable successes, including the Stardust 
mission's successful flight through the tail of Comet Wild-2, initial 
images from the recently launched Spitzer Space Telescope, a ten- to 
100-fold improvement in Earth's gravity map from the GRACE satellite, 
the most accurate maps of Earth temperatures to date from the Aqua 
satellite, and new insights into space weather and solar activity from 
Sun-Earth Connection missions.
    NASA exceeded or met 83 percent of its annual performance goals for 
FY 2003. Among these accomplishments were demonstrations of new systems 
to improve air traffic control and to combat aircraft icing, 
improvements in battery, telescope sensor, and life support 
technologies, fundamental advances in understanding states of matter 
from Space Station research, and the implementation of new remote 
sensing tools for tracking diseases and wild fires.

The Nation's Future in Exploration and Discovery

    As the President stated in his speech, we are embarking on a 
journey, not a race. We begin this journey of exploration and discovery 
knowing that many years of hard work and sustained effort will be 
required, yet we can look forward to achieving concrete results in the 
near-term. The vision makes the needed decisions to secure long-term 
U.S. space leadership. It provides an exciting set of major milestones 
with human and robotic missions. It pursues compelling science and 
cutting-edge technologies. It invites new ideas and innovations for 
accomplishing this bold, new vision. And it will provide the 
opportunity for new generations of Americans to explore, innovate, 
discover and enrich our nation in ways unimaginable today. The 
President's challenging vision provides unique opportunities for 
engaging students across the country, ``as only NASA can,'' to enter 
careers in science, engineering, technology and math.
    I sincerely appreciate the forum that the Committee has provided 
today, and I look forward to responding to your questions.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

                  Budget Assumptions and Uncertainties

    Chairman Boehlert. Thank you very much. I would observe 
that probably most of us in this room are part of the 47 
million people who have been excited and have been responsible 
for those six billion hits on your website. I would also point 
out that it is the unmanned mission that is exciting the world. 
And we are here mainly to concentrate on the manned exploration 
portion of the President's initiative, and that is what we are 
going to be very specific in addressing.
    Mr. O'Keefe, is--a plan as long-range and far-reaching as 
the Exploration Initiative necessarily has to budget for many 
items whose costs can not be known with any certainty at this 
point, what items in the Exploration Initiative are most likely 
to cost significantly more or less than is currently budgeted? 
Presumably, the figures used to calculate the budget for the 
initiative are sort of in the middle range of possible costs. 
Can you give us the full range of the cost of the initiative? 
And how likely is it that the initiative can be accomplished 
for the amount budgeted? A comprehensive question.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    First of all, there is no way to put a price tag on a 
program that is in definition. Again, the objective is to lay 
out the longer-term objectives, and that is exactly what the 
President's Directive does. So at each successive stage, there 
will be a price tag attached to it. Along the way, too, a 
slight contrast, I think, to your opening comment, this is a 
combination of both human capacity as well as robotic capacity. 
That is what is included in the exploration objectives. And all 
of it is a set of precursor missions that require or demand 
robotic capabilities beforehand. So the definition of the price 
tag of those is going to get higher and easier to define as we 
move along in this particular approach.
    In the immediate term, what the plan calls for is an 
immediate cost of return to flight, of completion of the 
International Space Station. And on those two, I think we can 
give you a much greater definition of cost estimate for those 
accomplishments than on many other elements of it. And then the 
next stages from there are to develop a Project Constellation, 
the crew exploration vehicle, which will extend beyond the 
scope of this decade. And during the course in this time, $6.6 
billion has been budgeted and more to follow as we continue 
that development effort.
    Chairman Boehlert. But where--I would--so I am assuming 
middle-range of projections, those are the assumptions we are 
operating under. But where is the greatest uncertainty? Is it 
the CEV? Is it the Shuttle? Development? Where is the greatest 
uncertainty at this juncture?
    Mr. O'Keefe. I personally think that the greatest 
uncertainty will be the cost to develop power generation of 
propulsion capacities and over what span of time. Right now we 
have no means to generate powers or to propel anywhere. It is 
all based on solar power collection, and that is it. What we 
are trying to do with Project Prometheus is develop the 
capacity to propel anywhere, which will get you there faster as 
well as inform the science opportunities to generate more power 
for the science packages involved. That one is the one I think 
that has got the greatest prospect of uncertainty in terms of 
what its overall cost is, depending on how you want to size its 
use. Do you want to apply it just to robotic capabilities? Do 
you want to include downstream toward the--to power and 
generate power for and propel a crew exploration vehicle? Those 
are the--that would be the primary ones, I think, would be the 
limitations.
    Chairman Boehlert. Well, is propulsion for the CEV or for 
later?
    Mr. O'Keefe. Yes, sir; both.
    Chairman Boehlert. Both?
    Mr. O'Keefe. Yes, sir.

                   Program Management and Sunk Costs

    Chairman Boehlert. All right.
    The next question: in the past, Congress has often invested 
so heavily in NASA programs that it seems too late to cancel a 
program even after it proves to be troubled. We have seen an 
example of that. What milestones for assessment are built into 
the major aspects of the Exploration Initiative? At what point 
should NASA and the Congress re-examine the initiative, 
particularly CEV development, to determine whether it is 
appropriate to proceed to completion?
    Mr. O'Keefe. Yes, sir. Thank you for the question. It is an 
exactly critical one in the sense that the approach we have 
taken here is a strategy that gives multiple opportunities to 
assess progress. The approach with the crew exploration 
vehicle, under Project Constellation, is specifically to 
develop and use a spiral development technique, which will 
require the deployment of unmanned capacity on at least a 
couple of occasions, probably more, between now and the time 
that we develop a human-rated capability. So what you do is 
each component, in turn, is launched to demonstrate that 
success and then build on it.
    As that success is evaluated, then you make the decision to 
move to the next phase thereafter. Along the way, concurrently 
with that, is also a range of robotic capabilities for lunar 
exploration as well as potential power generation capability 
there as well that again will be assessed each, in turn, by 
mission. And to the extent that there is an adjustment 
necessary in acceleration or a slow-down of those activities 
based on the relative success of each of those steps, that is 
when you make the decision to move off. So there isn't a one-
time commitment that will in turn create a balloon note down 
the road. At each step, you make a judgment about how you 
progress ahead.
    Chairman Boehlert. Thank you.
    Mr. Gordon.

                             Cost Estimates

    Mr. Gordon. Thank you, Mr. Chairman, and I am taking your 
cue to get down to business.
    Let me repeat Mr. Augustine's comments yesterday: ``It 
would be a grave mistake to undertake a major new space 
objective on the cheap. To do so, in my opinion, would be an 
invitation to disaster.'' Certainly nobody here wants a human 
disaster or a financial disaster. And I think a financial 
disaster is getting a quarter of the way down, 20 percent of 
the way down, 50 percent of the way down the line and saying, 
``We can't afford this. We are going to do something else.'' 
Maybe, you know, there will be some benefits, but we don't want 
to do that.
    And so Mr. O'Keefe, I--this--dollar cost is something that 
we are all concerned about. I had written you and asked you 
specifically about that. Your response was, in terms of the 
cost, it depends, which was pretty much what you said here 
today. It depends. But we need a benchmark, and I know you can 
do various things. So if we gave you a benchmark, like going to 
the Moon by the year 2020, what would be your estimation of 
that cost?
    Mr. O'Keefe. Well, sir, first and foremost, let me suggest 
that Augustine's comment yesterday--Mr. Augustine's comment 
yesterday was also that he had not read any of the details 
involved in the plan. So I think he quoted that point as well. 
The second point of exactly how we would return to the Moon by 
2020 depends on which components you want to have back into it.
    Mr. Gordon. You take any--that is what I am saying. You 
take any set of components you want. You just take one, get us 
there, and tell me what it is going to cost.
    Mr. O'Keefe. Okay. Yes, sir. The robotic capability to 
return to the Moon within this decade should not cost more than 
$500 to $600 million.
    Mr. Gordon. $500 to $600 million?
    Mr. O'Keefe. $500 to $600 million for that robotic 
capacity----
    Mr. Gordon. Just robotic? Okay.
    Mr. O'Keefe [continuing]. To follow through. Then after 
that, you make a judgment of whether you want to go back with 
what capabilities.
    Mr. Gordon. You go ahead. You just go ahead and lay a 
benchmark out of what you think would be reasonable, and tell 
me what it would cost.
    Mr. O'Keefe. I wouldn't want to presume success at any 
stage. I want to make sure each step along the way----
    Mr. Gordon. Well, no, go ahead.
    Mr. O'Keefe [continuing]. And we do this properly.
    Mr. Gordon. Just go ahead, you know, and let--go ahead and 
presume a reasonable course, and tell me what it would cost.
    Mr. O'Keefe. Over the course of this past year, and since 
February 1, 2003, I have made it a point not to anticipate 
success beyond the next stage.
    Mr. Gordon. Okay. Well, let me put it this way. Dr. 
Marburger said that you went through a very extensive program, 
lots of meetings, that it was an environment, as he said, that 
was information-rich. And you told me that the President was 
very engaged in this. Now surely the President wouldn't have a 
pig and a poke. Did the President never ask you what this was 
going to cost?
    Dr. Marburger. I think it is important to realize that this 
is----
    Mr. Gordon. Well, that is what I----
    Dr. Marburger [continuing]. Not a mission----
    Mr. Gordon. I have got a limited amount of time. I----
    Dr. Marburger. This is not a single mission, Apollo-like--
--
    Mr. Gordon. Right.
    Dr. Marburger [continuing]. Program. And the----
    Mr. Gordon. I will take any--again----
    Dr. Marburger. The fiscal year 2005----
    Mr. Gordon. If I could, please----
    Dr. Marburger. Yes, sir.
    Mr. Gordon [continuing]. Because we--I am going to lose 
time. You know, you take anything you want. You know, just tell 
me, did the President, in this discussion, at any time, say, 
``What is this going to cost?''
    Dr. Marburger. Absolutely.
    Mr. Gordon. Okay. And what was your----
    Dr. Marburger. And the fiscal year 2005----
    Mr. Gordon. And what was your answer?
    Dr. Marburger. The President's budget request has multi-
year budget commitments that he is prepared to support that go 
beyond----
    Mr. Gordon. But only five years, isn't it? Does it give 
anything beyond the five years?
    Dr. Marburger. Yes, it goes out through 2020----
    Mr. Gordon. And are there budget----
    Dr. Marburger [continuing]. As a matter of fact.
    Mr. Gordon [continuing]. Numbers that go with that?
    Dr. Marburger. And there is a budget profile that goes with 
that. It is calibrated in, I presume, 2004 dollars.
    Mr. Gordon. Okay. So what is it----
    Dr. Marburger. It goes up----
    Mr. Gordon. So what is it going to cost? So--I didn't see--
--
    Dr. Marburger. Okay.
    Mr. Gordon. So what is the cost by 2020 to go to the Moon?
    Dr. Marburger. If--you would have to integrate under that 
curve to find the total cost, but the curve goes up on a line 
that is quite consistent with the fiscal year 2004 approved 
budget profile----
    Mr. Gordon. Okay. So what does that cost?
    Dr. Marburger [continuing]. Up to about--the NASA budget in 
the year 2020, according to this, would be about, what is that, 
$22 billion.
    Mr. Gordon. But what is that cumulative cost, then, to get 
to the Moon by 2020?
    Dr. Marburger. The--I mean this includes the entire NASA 
budget and their components. It looks like only about----
    Mr. Gordon. Well, again----
    Dr. Marburger.--2/3 of that----
    Mr. Gordon [continuing]. If I could, did the President 
never ask you what the cost of this program was going to be?
    Dr. Marburger. The President understands that we are 
enabling all future space exploration by putting into place----
    Mr. Gordon. Okay. Please, you know, please just--you know, 
we have a short amount of time.
    Dr. Marburger. And the----
    Mr. Gordon. Let me ask you--just if I could ask you this. 
Did the President ever ask you what this was going to cost? Yes 
or no, please, sir.
    Dr. Marburger. Yes, of course.
    Mr. Gordon. All right. And what did you tell him?
    Dr. Marburger. And we showed him this chart.
    Mr. Gordon. Okay. And--all right. And what does that--could 
you tell me? Could you add that up and tell me what that means 
then?
    Dr. Marburger. The--I mean I can't--I would have to do some 
calculations on this chart. The----
    Mr. Gordon. So you didn't--you haven't done calculations--
--
    Dr. Marburger. It clearly----
    Mr. Gordon [continuing]. Before?
    Dr. Marburger. Yes, I am sorry. This--these precise numbers 
that you are asking me here are not part of what I carry in my 
head.
    Mr. Gordon. I am--just a general number of what is it going 
to--you know, did the President ever ask you, ``What is it 
going to cost to go to the Moon?''
    Dr. Marburger. Actually, the question of going to the Moon 
is part of the program that would be accomplished according to 
the timetables----
    Mr. Gordon. Okay. Well, get--please----
    Dr. Marburger [continuing]. In this----
    Mr. Gordon [continuing]. I am not trying to be 
argumentative.
    Dr. Marburger. Well, they are right in there. They are----
    Mr. Gordon. Okay.
    Dr. Marburger. I am looking at the same pictures that you 
are.
    Mr. Gordon. All right. So when the President asked you what 
it is going to cost, you didn't tell him? You just gave him 
this chart?
    Dr. Marburger. No, there were tables of numbers associated 
with this that do appear in the fiscal year 2005----
    Mr. Gordon. All right. Did the President ever----
    Dr. Marburger [continuing]. Presidential----
    Mr. Gordon [continuing]. Ask you what anything was going to 
cost?
    Dr. Marburger. Yes, of course.
    Mr. Gordon. Okay. What----
    Dr. Marburger. Yes.
    Mr. Gordon [continuing]. Did he ask you, and what did you 
tell him?
    Dr. Marburger. I would like to respond to that in writing 
so that I can be sure of my response.
    Mr. Gordon. Okay. So you----
    Dr. Marburger. I would prefer not to try to calculate it 
from this graph.
    Mr. Gordon. All right. So--but you don't have to calculate 
it, but if you were there in this environment rich--you don't 
remember him asking you what anything was going to cost and 
what you told him?
    Dr. Marburger. No, I am sorry, Mr. Congressman, that I am 
unable to answer these questions that you are asking in 
precisely this form. The emphasis is--the emphasis in this 
vision is on----
    Mr. Gordon. Okay. Well--and I have got to----
    Dr. Marburger [continuing]. Affordable----
    Mr. Gordon [continuing]. Go on. I will stop.
    Dr. Marburger [continuing]. Sustainable, affordable----
    Mr. Gordon. Okay. I got it. Stop.
    Dr. Marburger [continuing]. Budget. And so we----
    Mr. Gordon. You said you were going to----
    Dr. Marburger [continuing]. Do not want to devote more of 
our discretionary budget than we can afford----
    Mr. Gordon. Okay.
    Dr. Marburger [continuing]. In any one year, and we will 
adjust the timetables----
    Mr. Gordon. I understand. It all depends. All right. Again, 
you said you would respond to me. My question to you was did 
the President ever ask you what anything was going to cost?
    Dr. Marburger. Yes.
    Mr. Gordon. What were those various things, and what did 
you respond?
    Dr. Marburger. And----
    Mr. Gordon. Okay. And you don't have to do it now. That is 
fine.
    Dr. Marburger [continuing]. I would be glad to respond.
    Chairman Boehlert. Thank you, Dr. Marburger, and submit it 
for the record. I would observe that the 2005 budget projects 
out to 2009, not beyond. So those are the figures we have----
    Dr. Marburger. The initial one in the budget, but this 
entire graph, up through 2020, is an important part of the 
vision. It shows how the funds available for exploration, for a 
credible exploration program, can be made available within an 
affordable envelope. This is a very important part. We--the 
reason we are having this problem is that we are looking at 
this from different perspectives. This is not an Apollo-like 
project. This is a--the key word is to enable future space 
exploration. We are going to become a space faring Nation to 
take advantage of the assets and the resources that exist----
    Chairman Boehlert. Thank you, Dr. Marburger.
    Dr. Marburger [continuing]. And the opportunities for 
discovery.
    Chairman Boehlert. Thank you, Dr. Marburger. I just want 
you to know that it is evident, in that we have just had two of 
us who have had the opportunity to ask some questions, that we 
are very interested in getting as precise information as we 
possibly can get. And we understand fully, and some instances 
are going to have to be ranges. And we fully understand that 
there are assumptions, and we are assuming, and we want this 
verified, that you can give us the ranges and further assume 
that we are probably looking at the midpoint in the ranges. And 
some things go well and the costs are reduced. Other things 
don't go as well as anticipated, and costs are increased. So we 
are dealing with ranges, but we want as much specificity as we 
can possibly get. For example, we have been told by the NASA 
Comptroller that a development to full completion of the CEV 
could cost as much as $15 billion. True, Mr.----
    Mr. O'Keefe. Oh, absolutely. And that is a fair range, and 
to that very specific point, of what is the development of that 
capability, that unique asset. The answer is in that range of 
$15 billion. Everything we did on the orbital space plane, 75 
percent of that effort is certainly transferable to the same 
kinds of activities we would pursue with crew exploration 
vehicle under Project Constellation. And that is in the range 
of about that. $6.5 billion of it is what is in the budget 
before you between fiscal year 2005 and 2009.
    Chairman Boehlert. Um-hum.
    Mr. O'Keefe. And as we move through those spiral 
development phases, the definition of that particular estimate 
will become much better understood. The first spiral 
development product that you have to deploy that will be 
unmanned, certainly by the end of this decade, is a capability 
that is well within the range of the amounts that we have 
budgeted so far. And depending on what the outcome of that is 
as to whether you commit future resources to it. But the 
overall cost of that asset to go anywhere is in that range of 
cost.
    By program, by mission objective, that is a different 
question. It depends on how you employ it, where you go, when 
you do it, how many times. Those are all factors that need to 
be resolved.
    Chairman Boehlert. Thank you very much. I do appreciate 
that.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    Chairman Boehlert. With that, the Chair recognizes the 
distinguished Chairman of the Committee on Space and 
Astronautics--Aeronautics, Mr. Rohrabacher.

                               Heavy Lift

    Mr. Rohrabacher. As long as you don't say the extinguished 
Chairman, that is all right.
    I am just trying to--and I think that the question Bart is 
asking, Mr. Gordon is asking, is a very relevant question, and 
I think that we do need specifics. And I believe--Mr. Gordon, I 
am complimenting you on your questions, Bart. Let me just note 
that I believe the question--line of questioning that you had 
is very justified, and we do need specifics.
    But let me--if I could go through some of the general 
areas, and maybe you could come back to us with as much 
specifics as you can. In order to handle this first phase that 
we are talking about in terms of the President's vision, our 
first step toward the Moon, we have a CEV, which is a crew 
exploration vehicle, that we will have to develop. Will we be 
developing a heavy-lift capability, a new rocket that would 
have heavy-lift? Is that necessary as well?
    Mr. O'Keefe. No, sir, I don't think so, but it could evolve 
that way, but that would involve a back to the future approach, 
if you will, of saying, ``Let us do this just like we did 
Apollo. Let us put everything on one asset.''
    Mr. Rohrabacher. Okay.
    Mr. O'Keefe. ``And just brute force it right off of this 
rock.'' Okay. That is the approach we used with Apollo. The 
approach we have defined here is a spiral development approach 
in which you develop each component and launch them separately, 
so as a consequence, the available assets that are in inventory 
today at the initial phases of deployment, the expendable 
launch vehicles, Atlas and Titan, as well as the potential 
combination of a Shuttle stack----
    Mr. Rohrabacher. Um-hum.
    Mr. O'Keefe [continuing]. There are a number of different 
alternatives that you could pursue, when given the chance.
    Mr. Rohrabacher. When do we know--when do you think we will 
know if a new heavy-lift rocket is necessary to actually 
fulfill the requirements?
    Mr. O'Keefe. I think certain definition of that would be 
reasonable within this next six months to a year.
    Mr. Rohrabacher. Okay.
    Mr. O'Keefe. Because if it calls for something larger, in 
terms of mass----
    Mr. Rohrabacher. Right.
    Mr. O'Keefe [continuing]. Then you have got to go beyond 
the scope of Atlas and Titan or Shuttle stack or something 
else.
    Mr. Rohrabacher. But there may be ways of doing this, 
having a certain amount of support equipment being on another 
rocket that----
    Mr. O'Keefe. Exactly.
    Mr. Rohrabacher [continuing]. Doesn't need to go up with 
the other----
    Mr. O'Keefe. Exactly.
    Mr. Rohrabacher [continuing]. With the crew.
    Mr. O'Keefe. And at each component, you could potentially 
do a launch and assembly thereafter, as opposed to a one-size-
fits-all, let us get the static displays of the Saturn Vs out 
and stand them straight up and try to use them again. I mean, 
that is just not--that is not part of the cards here.

                          Robotic Exploration

    Mr. Rohrabacher. Okay. The--and also another element of 
this is, of course, an expenditure that we are going to need to 
know the specifics on is how much it is going to cost for the 
robotics. Seeing that we don't--the President just outlined the 
vision. We don't know exactly what robotics capabilities will 
be necessary right now, but how long will it take before we 
know exactly what those capabilities----
    Mr. O'Keefe. Sure.
    Mr. Rohrabacher [continuing]. Will require and how much 
that will cost?
    Mr. O'Keefe. Yes, sir. With precision, I can give you the 
numbers, and we will submit it for the record here, on the 
future Mars exploration missions we have that are all robotic.
    Mr. Rohrabacher. Right.
    Mr. O'Keefe. And they are in--they are scheduled for 2007 
and 2009. And there are some very specific missions that go 
with that that we can give you a price tag of what that out 
term--out year projection is. The lunar missions are, as Mr. 
Gordon was inquiring a little earlier, will require the 
development here over the next six months. But again, I am 
looking at something in the range of $500 to $600 million worth 
of initial lunar robotic exploration capacity that will be----
    Mr. Rohrabacher. Right. But what we----
    Mr. O'Keefe [continuing]. Laid out on the table as well.
    Mr. Rohrabacher. But we actually have not determined--I 
mean the President, you know, has just set down this goal. We 
have not determined exactly to what extent the robotics' cost 
development will be, because we don't know how much robotics 
capability we will need, at this point, in terms of the Moon--
--
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher [continuing]. Part of the goal.
    Mr. O'Keefe. That is correct.
    Mr. Rohrabacher. Because we may need robotic--robots that, 
for example, might do extensive work with soil analysis or----
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher [continuing]. Other type of exploration, 
and we may not, but that will be determined within the next six 
months.
    Mr. O'Keefe. Yes, sir. And as a reserve in the five year 
projection of the kind of resources that could--would be 
available for, specifically, those robotic objectives.

                               CEV Costs

    Mr. Rohrabacher. Okay. So this--the crew exploration 
vehicle--let me note that I think that $15 billion for the 
development of a crew exploration vehicle is a pretty big 
ticket item, and that sounds a little out of line to me, and I 
am really going to look at that as it goes--moves forward.
    Also, I would suggest--there are rumors running around that 
people might be thinking that they are going to design this 
crew exploration vehicle that is going to be used both on the 
Moon as well as on the Mars part of this Presidential 
challenge. Just an admonition from this Congressman, just as 
you--it is hard to plan budgets 20 years out, I think that the 
idea of trying to have a vehicle that we are planning right now 
that is going to be accomplishing both of those goals even 
though those goals will be about 10 years differential and when 
you achieve those goals is not really a rational way to plan 
that stepped approach that you are talking about.
    Mr. O'Keefe. Indeed. And that is the precise reason why 
answering the question of exactly how much it--will it cost to 
do the following thing is, right now, an imponderable point, 
because, depending on how you array the components necessary 
and develop them in each of the stages of the spiral 
development for the crew exploration vehicle, gives you a 
different configuration.
    Mr. Rohrabacher. Yes, sir.
    Mr. O'Keefe. And again, the answer on Project Constellation 
right now is finite of $6.5 billion in the budget right there 
by line item, 2005 through 2009, and then the additional costs 
thereafter to develop all of the following spirals for a human 
rating capacity is what would occur in the next phase----
    Mr. Rohrabacher. Well, we do expect--and as I say, Mr. 
Gordon is absolutely right in asking for specifics, but at--but 
I think that the question is more appropriate to say that we 
expect specifics as we move forward.
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher. And we don't expect to have just, you 
know, a general plan in the future.
    Mr. O'Keefe. Exactly. No, at each stage, you get a real--
you know, greater definition.
    Mr. Rohrabacher. All right. Now let me note this. The Space 
Launch Initiative, which is something that I put a lot of time 
and effort in getting into the budget and finally I got it 
accepted the idea that we were going to actually have some part 
of the budget committed to developing new launch systems. That 
is the--seems to be the line item in the budget that has been 
most cannibalized by this effort. I am not upset about that. I 
would expect that. Let me just say that even though this has 
been my baby, I would expect that that--those funds would be 
used in a priority fashion to help fulfill the President's 
goal. So--and I would hope that all of the rest of us, as we 
move forward, we all have things that we pay special attention 
to in the budget and things we have pride in that we are--don't 
let our ego get in the way of letting that--those funds be used 
to help us prioritize and achieve the goals the President has 
outlined.
    Chairman Boehlert. Thank you very much, Mr. Rohrabacher.
    Mr. Rohrabacher. Yes, sir.
    Mr. O'Keefe. And if I could, Congressman, very quickly, 
there is--the Space Launch Initiative did its job. You did 
exactly what I think it was intended to do, which is it served 
up the options and we made the selection of the options. It 
worked exactly right, and it is--it gave--it provided us the 
capacity to be where we are right now. So I thank you, sir.
    Chairman Boehlert. Thank you very much.
    And I think it is very evident from what has been said to 
date that all of us are looking at this, not in isolation, not 
as just one piece to the overall puzzle, we want to see the big 
picture and how this impacts on every other piece so that we 
can make rational judgments and develop responsible policy.
    Speaking about responsible policy, Mr. Lampson?
    Mr. Lampson. Thank you, Mr. Chairman.

                             The End of ISS

    And speaking of what you were saying, I think you led right 
in to what I wanted to ask. I have a couple of questions. I 
always--there are many things that we want clarification on. 
Let me try to focus on two of them in my very short five 
minutes here.
    Mr. O'Keefe, NASA's budget charts indicate that there won't 
be U.S. funding for the International Space Station beyond 
2016. We need to know what you intend to do with the U.S. 
portion of the Space Station beyond that time. When you 
responded to Mr. Gordon's written question on that topic, you 
said then, ``NASA will continue the operation and maintenance 
of the ISS consistent with the U.S. space exploration goals.'' 
However, that statement is contradicted by the budget plan that 
accompanies the President's initiative. So which is it? Is NASA 
going to continue to fund the U.S. participation in the Space 
Station after 2016? If so, about how much will it cost and for 
how long? And if not, what did you mean by Mr. Gordon's 
question and your response to Mr. Gordon's question?
    And let me say one other thing before you answer that. Your 
response to Mr. Gordon also stated: ``Any final decision about 
the U.S. Government's role in the ISS, once this research is 
complete, will not need to be made until the middle of the next 
decade.'' Are you seriously saying that the U.S. can wait until 
the middle of the next decade to let its international partners 
in the Space Station program know what the U.S. intends to do? 
That sounds pretty unbelievable to me, and I want to know if 
that is really what you are saying.
    Mr. O'Keefe. Yes, sir. I appreciate that, and thank you for 
the question.
    First of all, the objective of the next dozen years between 
now, 2004, and 2016 is the targeted span that we are looking at 
to really refocus all of the research effort that the U.S. 
modules will be conducting, focused on human physiology and 
long-duration space flight consequence. So all of the other 
priorities that were outlined in the remap effort, you may 
recall a year and a half ago that we went through, of looking 
at what science prioritization, the answer now is there is one 
priority. We are focusing on life sciences. We are focusing on 
what the challenge is of understanding the research necessary 
to inform long-duration space flight.
    Mr. Lampson. Is there an expectation, then----
    Mr. O'Keefe. Yes, sir.
    Mr. Lampson [continuing]. That we can end that by 2016?
    Mr. O'Keefe. Yes, sir. That is the expectation is that that 
research will take us through the middle of the next decade of 
10 to 12 years to achieve that. If it doesn't, we will have to 
continue that activity beyond that point.
    Mr. Lampson. Okay. At what point do we have to notify our 
international partners of what we are going to do, because it 
impacts them as well?
    Mr. O'Keefe. Yes, sir, absolutely. And we discuss with our 
international partners on a regular basis. They are in--they 
are meeting and convening today. We will continue to do so on a 
regular basis, and we will constantly update them as we move 
through this. They do not feel as though there is an 
abandonment that is occurring here. Their view is that as we 
step through this, we have got to determine what the components 
and modules look like, what the laboratory segments look like, 
when they deploy, and how long we want to all deploy them--or 
operate them.
    Mr. Lampson. In 2016, if this ends, is there a plan, then, 
to bring it back?
    Mr. O'Keefe. No, sir. Again, there is no presumption here 
that upon the completion of our research endeavor to examine 
the human physiology effects on long-duration space flight that 
we turn out the lights on Station. Our partners intend to 
continue operating----
    Mr. Lampson. But we may give it----
    Mr. O'Keefe [continuing]. And we may, too.
    Mr. Lampson. So our part----
    Mr. O'Keefe. And we may, too. So as a consequence, it is 
designed, through the next decade, to continue on. And there is 
no presumption here of turning off the lights on Station by the 
middle of the next decade.
    Mr. Lampson. Okay. Are--okay. Well, let me go to my next 
one, because I am running out of time.
    Mr. O'Keefe. No, sir, the budget only goes through 2009. 
The budget only goes through 2009, so the longer-term 
projection is we are trying to give you visibility over what 
the research plan is. We are trying to lay out goals to the 
research community to say within the next 10 to 12 years, we 
have to conquer these particular challenges of long-duration 
space flight.
    Mr. Lampson. Doesn't that end, on your chart, at 2017?
    Mr. O'Keefe. Yes, sir. That is the specific cost on--in the 
activities related to long-duration space flight, human 
physiology, life sciences research. How that may be adapted 
beyond that point to build a capacity on what Station could--
can still afford is something that we have got an opportunity 
to examine.
    Mr. Lampson. We have--we may have some more questions on 
that.
    Mr. O'Keefe. Yes, sir.

                                  INA

    Mr. Lampson. But right now, let me switch quickly to the 
issue of the Russian Soyuz. It is clear that we will have some 
dependence on the Russians for Soyuz crew transfers to and from 
the Space Station after 2010 when the Shuttle fleet is 
abandoned. It is also clear that we will need to acquire Soyuz 
vehicles for the Space Station starting in 2006, which is less 
than two years from now. We know that it takes about 18 months 
or so, 16 or 18 months to build a Soyuz. I wanted to make a 
comment about outsourcing our jobs and talent to Russia, but I 
won't. And in fact, in 2005, NASA's budget plan now includes a 
multi-year funding stream for ISS cargo and crew services that 
NASA concedes may include payments for Soyuz services. Yet, as 
we have discussed in the past, the Iran Nonproliferation Act 
prohibits such payments to Russia in the absence of a 
presidential certification on nonproliferation, and that has 
not been forthcoming.
    And the State Department has made it clear in writing, in 
written testimony to this committee, that payments to U.S. 
companies purchasing Soyuz vehicles or services from Russian 
companies ``would raise questions under Section 6 of the Iran 
Nonproliferation Act and would likely be viewed as an evasion 
of the law.'' Similarly, the State Department has made it clear 
to the Committee that having our other international partners 
purchase Soyuz vehicles or services from the Russians in 
exchange for compensation from the United States would also 
``raise legal questions under Section 6 and would likely be 
viewed by many as an evasion of the law.''
    So here we are. Your Administration is saying that you 
can't acquire Soyuz from the Russians without violating the 
INA, and yet your approach to the Space Station is critically 
dependent on a continuing supply of Soyuz vehicles. Do you plan 
to seek a legislative repeal or modification of the INA to 
permit you to acquire Soyuz? If so, when will you notify 
Congress of that intent? And if not, what specifically is your 
plan?
    Chairman Boehlert. And that is a very important question. 
The gentleman's time has expired, but we are allowing 
additional time, because this is a--he has hit to the heart of 
a very important issue.
    Mr. O'Keefe.
    Mr. O'Keefe. Yes, sir. Thank you, Mr. Chairman.
    We are not seeking exemption to the law at this time. We 
are a--negotiating with all of our international partners on 
what our continuing challenges to operate Station will entail. 
Right now, the only means to achieve access to Station is by 
the Soyuz craft. There is clearly an intent on the part of all 
of our partners to expand the crew size aboard the 
International Space Station once Shuttle returns to flight and 
we continue to build out the capacity of International Space 
Station. So all of that will require a modification to our 
current agreements, which expire in 2006, among all of us as 
partners, all 16 nations. And we are enjoining in that question 
now, beginning today. All of the partners are in town, and 
there will be continuing activities through the end of March, 
early April with the heads of agencies to discuss exactly these 
points.
    Our intent at this moment, at this time, is not to seek a--
either an amendment to or repeal of the Iran Nonproliferation 
Act.
    Mr. Lampson. Okay. And there is really not a plan yet. 
Thank you for your indulgence, but----
    Chairman Boehlert. Yeah, you just said that. Your intent 
now is not to seek.
    Mr. O'Keefe. At this moment, on this date, no. We are 
beginning negotiations starting today with all of our partners 
on what the way ahead is for both cargo as well as crew 
transfer and building in the proposition of when we return to 
flight and how we continue to build the Station out and what 
all of those implications more--may portend. So we are 
beginning, among the 16 nations, to have that discussion, 
starting today.
    Chairman Boehlert. I am sure, Administrator O'Keefe, you 
recognize as much as we do, the importance of this very issue?
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. Thank you very much.
    Mr. Rohrabacher. Mr. Chairman? Mr. Chairman?
    Chairman Boehlert. Who seeks recognition? Mr. Rohrabacher.
    Mr. Rohrabacher. Just to point a personal privilege for one 
moment.
    Chairman Boehlert. Yes, sir.
    Mr. Rohrabacher. Being in--being one of the co-authors of 
the Iran Nonproliferation Act and----
    Chairman Boehlert. Mr. Rohrabacher, you are recognized 
for----
    Mr. Rohrabacher. For 10--for 15 seconds just to note that 
there are exceptions in that act, especially when the lives of 
American astronauts are at stake that could be, you know, 
analyzed in a way that are determined----
    Chairman Boehlert. Interpreted.
    Mr. Rohrabacher [continuing]. Interpreted in a way that 
would not create the barriers that we are talking about. So it 
is possible that it is not the barrier that we think it is, but 
it has to be looked at very closely.
    Chairman Boehlert. Thank you very much for that 
intervention.
    Mr. Smith.

                 International Participation in the ISS

    Mr. Smith. Thank you, Mr. Chairman.
    Is it worth it--at this time of record-high deficit 
spending, is it worth it to borrow this money from our kids and 
our grandkids for this kind of venture at this time? As 
Chairman, the--as Chairman of the Research Subcommittee, and 
with the understanding that the main purpose of the Space 
Station is scientific research and as a place for the shuttles 
to travel to, I have often questioned witnesses on the 
justification for manned space flight as well as the Space 
Station. Some witnesses have expressed concern that the costs 
are too high and the benefits too few compared to the results 
that we could get by investing this money in other research 
that can better help us in our future, with research efforts as 
well as our economy. With $500 billion-plus deficits, limited 
dollars for research are there, and as we make this balance 
between our efforts, especially in manned space, versus 
unmanned space flight and the achievements that you 
demonstrated with the pictures with unmanned space flight. Part 
of the decision of this committee, and of the Appropriations 
Committee, has got to be the priorities on where we can best 
spend this money. It is going to--it seems to me that the 
question I have is with the growing reluctance of other 
countries to contribute. Is there a possibility that we should 
or we could put the Space Station expenditures on hold for the 
time being? Mr. O'Keefe, earlier you have stated before this 
committee that you thought it was possible to maintain the 
Space Station with unmanned flight. And I am just very 
concerned with borrowing with the tremendous pressure on the 
budget. And I would just suggest that we are going to reduce 
the budget below what the President has suggested overall. And 
so setting those priorities is even more important. And I am 
afraid that I am tempted with the comments that we have had 
from other countries of their reluctance to contribute more and 
more to the Space Station. With the cap that we set a few years 
ago of $25 billion, number one, should we consider delaying 
this project for the time being? And number two, are other 
countries more and more reluctant to contribute more and more 
dollars to their cooperative effort in the Space Station?
    Mr. O'Keefe. Well, thank you, Congressman, for that very 
important question.
    If anything, what we have seen demonstrated in this past 
year is exactly the contrary. Our partners have stepped up in a 
way that is absolutely unbelievable. We have paid not one dime 
more for the continuing activities of access to the 
International Space Station during this time, which we have 
grounded the Shuttle, over this past year. So all of the 
activities, all of the logistics support, everything, has been 
contributed to by our partners and in participating in that, it 
has not cost us one dime more as a consequence of it.
    So as a result, if anything, the depth and strength of this 
partnership has been demonstrated----
    Mr. Smith. Yeah, but you say not one dime more, but what--
over the next five years, what we are looking at is about a 
$12.6 billion increase because of this new suggested venture.
    Mr. O'Keefe. Yes, sir. You have asked two different 
questions, so I will try to focus on the first part, which was 
your questions about International Space Station, and then we 
will get to the exploration discussion, if you would like.
    But the first part is what we have done during the course 
of this time, and your assertion that reluctance of partners to 
contribute. No, to the contrary. They have been contributing 
more in this span of the last year than what, frankly, I would 
have ever anticipated and what we may have otherwise thought 
was possible. And the continuing operations of Station are 
occurring today as a consequence of the partnership and the 
strength thereof.
    The second point would be that our whole focus now on the 
research on International Space Station, once we return to 
flight and we have continued building the--and complete the 
assembly of Station, is to focus on life sciences research, 
human physiology. One of the biggest problems we have to 
conquer is the degradation of muscle mass and bone mass. If 
from that we can also understand how to arrest the consequences 
of osteoporosis----
    Mr. Smith. Or radiation, but this is within----
    Mr. O'Keefe [continuing]. Or radiation----
    Mr. Smith. This is within the Van Allen Belts, so I have 
been told that the simulation can be done just as adequately on 
the ground in terms of the radiation consequences.
    Do we want to send a man in space? Do we want to occupy 
Mars or the Moon at this time when the economic pressures are 
so great on this country? And is it something that we can put 
off, or is it something that we should consider abandoning 
altogether?
    Chairman Boehlert. The gentleman's time has expired, but--
--
    Mr. Smith. I mean, we are cutting down on the budget----
    Chairman Boehlert [continuing]. Dr. Marburger----
    Mr. Smith [continuing]. For NSF.

         The Exploration Vision and Current Budget Constraints

    Chairman Boehlert [continuing]. I think, as the Science 
Advisor to the President, is in a good position to get a 
broader view on that question.
    Dr. Marburger. We must not abandon the vision of space 
exploration. I believe that the vision of space exploration is 
an inspiring vision. There is a reason for humans to be in 
space. We must overcome the technical difficulties and 
obstacles in the way, and as we make the investments to do so, 
we will also energize our economy. There is no question that 
the technologies that are necessary to embark on this venture, 
on this new vision for space exploration, will have a very 
positive effect on the--on our economic competitiveness and on 
the basic technologies that form the infrastructure of our 
society.
    Chairman Boehlert. Thank you very much, Dr. Marburger.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Boehlert. Ms. Lofgren.

          ARC Accounting and Field Center Closures and ``The 
                       Militarization of Space''

    Ms. Lofgren. Thank you, Mr. Chairman, and thank you, 
witnesses, for being here today.
    I have a bunch of questions, and we don't have a lot of 
time, so I may follow up in writing with some of the questions 
that I have. But one of the things that I am puzzling over is 
your new accounting system and how to figure out, really, what 
is happening on the ground in the proposed budget. And taking a 
look at Ames Research Center, which I know that you value and 
you have visited on many occasions for the nanotechnology work 
that they are doing in robotics and the like, I see a $90 
million reduction in the proposed budget, and it is in 
something call service pools. Now I think $55 million of that 
is the wind tunnel that is going away, but I am not clear how 
the other $35 million--is that a programmatic cut or exactly 
what is that? That is question number one.
    I have another question, which relates to the analysis that 
is apparently going on by a guy that you have brought on from 
the Navy who used to do the base closings, and I understand 
that this Mr. Casey is going to do real property mission 
analysis for NASA. And I have a concern about that, because 
certainly we have land that are assets to the agency, but the 
land is really not the sum total of the asset. I mean, it is 
the human power. I mean, it is so much more than just taking a 
look at real estate and how the science will be integrated in 
the analysis. I am interested in hearing from you and obviously 
all of the Science Committee Members will want to be involved 
in this process, and I am wondering if it is your intention to 
close one or more centers, and if so, you know, what the time 
frame is and the parameters are and the like.
    And finally, I have an interest and a concern over the 
future of space as a demilitarized zone. I--you know, in past 
years, in past Administrations, we have talked about space 
exploration, but I see the word security popping up in the 
discussion of space at this point in a way that is relatively 
new. And I am interested in whether the Administration has a 
design or an interest in arming space in a way that humankind 
has not done in the past.
    So those are my three questions for now, and I will follow 
up with you in writing on the others, if I may, Administrator 
O'Keefe.
    Mr. O'Keefe. Yes, indeed, there is a transfer that has 
occurred between 2003 and 2004 and now continued in 2005 of now 
capturing all of the costs associated with an activity in what 
is called a full-cost----
    Ms. Lofgren. Right.
    Mr. O'Keefe [continuing]. Accounting method. So now when 
you look at a program, you see the total cost of what it takes 
to carry that out as opposed to fractions of it or incremental 
pieces that are buried in lots of other locations. You can now 
make an informed decision each year on what you think the value 
of the program is and what--one of the advantages of the 
discussion we had earlier here is we will be able to add, with 
precision, each year exactly what the cost of that next 
increment of achieving these next exploration goals we will 
encounter.
    Let me give you a table, for the record, if you would, of 
the comparison year-to-year as it pertains to the Ames Research 
Center budget, but there is a specific effort that needs to go 
on in the next few months, it will probably be completed by 
summer, to really transfer all of the data to be comparable 
apples to oranges so you can see what the differences are. 
Because in the one case, you had to assemble it all based on 
all of the disparate pieces. Now you get the assemblage all in 
one place. And we will provide that for the record (see chart 
below), so I couldn't speak to the specific----
    Ms. Lofgren. All right.


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. O'Keefe [continuing]. Differences between that dollar 
versus the other dollar at this moment.
    Ms. Lofgren. So the reduction from $172 million to $74 
million is just little bits and pieces? It is not a particular 
program that is being----
    Mr. O'Keefe. Indeed.
    Ms. Lofgren [continuing]. Proposed?
    Mr. O'Keefe. Indeed. And again, I will give you more 
specificity on that.
    Ms. Lofgren. I would very much value that.
    Mr. O'Keefe. Yes, ma'am.
    On the second point, the gentleman we have recruited in is 
a fellow named Cassidy----
    Ms. Lofgren. Right.
    Mr. O'Keefe [continuing]. And he has been--was--in the last 
Administration, was at the Defense Department during the base 
realignment effort----
    Ms. Lofgren. Right.
    Mr. O'Keefe [continuing]. In 1993 and 1995. He has been 
brought in a month ago, following a comprehensive effort that 
we conducted last year to look at real property assessments, 
what do we have out there, just in terms of inventorying what 
we have. The approach that we asked for and have developed now, 
developing a strategy is how do we use those facilities in the 
most cost-effective way? There is no specific intention to look 
at a realignment or closure activity. It is more just to 
inventory what we have. His expertise was primarily in the 
realignment phase, working with individual communities to 
assure transition from one mission to another. And so given 
that expertise and his capacity in that regard, we have asked 
that rather than reinventing the wheel ourselves, we bring him 
in for his understanding of how that activity occurs as we move 
ahead from this point.
    There will be several different steps in this: a strategy, 
a business plan, and ultimately a mission analysis effort that 
we will work with you to define exactly what each of those 
steps are as we proceed ahead.
    And finally, on the national security objectives, there is 
no implied or specifically stated objective to expand this to a 
national security mission. That is not an intention here. It is 
a broader definition of security of the Nation, economic and 
otherwise. That is what we intend to proceed with this 
exploration agenda.
    Ms. Lofgren. If I may, just a quick follow up on getting 
back to the real estate analysis as well. One of the issues, as 
you know, Ames is co-located at a spot that used to be the 
Moffett Naval Air Station, and there are huge toxic issues 
that, unfortunately, the Navy never dealt with, and I--that has 
unfortunately been the case all across the country. So the 
local communities have--it is not in my District, but the local 
communities have pushed for a long time for clean up of the--
that base, and I am hopeful that if we are doing an analysis, 
we can make sure that--I mean the massive clean up costs are, 
once again, raised to the attention of the Navy. Maybe we can 
get them to do something about that.
    And thank you very much for----
    Mr. O'Keefe. Yes, ma'am. Now this is an interesting irony. 
Having served as Secretary of the Navy at the time the Moffett 
Air Field was part of the Naval establishment----
    Ms. Lofgren. Right.
    Mr. O'Keefe [continuing]. And then coming back to NASA and 
finding we now have it, it seems to be a deed that I carry with 
me wherever I go, but it is one that we are evaluating and 
trying to assess exactly what the environmental impact would 
be.
    Ms. Lofgren. Finally, I would like to, not at this point, 
because other Members have questions and time is running short, 
but I do have some concerns about how full-cost accounting is 
working. I certainly don't have an objection to understanding 
overhead and how it works and the like, but I do have a concern 
when you have, I think, Ames and I think this is--would be also 
true at Langley where you have a multiplicity of science 
projects that are not huge projects and yet essential to the 
mission in robotics or whatever allocating the overhead, there 
is no consistent, one project, to do it, and so we may have the 
unintended consequence of really starving science projects that 
are going to end up to be essential for the broader mission 
later. And I know that you don't want that and I don't want 
that, but I am interested in how we might avoid that 
consequence.
    Mr. O'Keefe. You know, that is a very, very important 
question, and again, it is really--you want to make sure that 
the process you develop in this particular case doesn't serve, 
you know, an unintended----
    Ms. Lofgren. Right.
    Mr. O'Keefe [continuing]. Consequence like that. I mean, 
what we have tried to put together here is in full concert in 
compliance with the Government Performance Results Act. How do 
you develop a full-cost visibility in what is involved, we have 
introduced that, and that is the primary focus and objective we 
are after here, and a budget and program integration effort so 
you can see, with total visibility, what that will entail.
    Chairman Boehlert. Thank you very much, Mr. O'Keefe.
    Mr. O'Keefe. I am sorry.
    Chairman Boehlert. You are putting--you are bringing 
several of your hats back in now: former Secretary of the Navy, 
the OMB. We are getting you on all sides.
    The Chair now recognizes Dr. Bartlett.

                     The Vision's Focus on Science

    Mr. Bartlett. Thank you very much.
    Mr. O'Keefe, I was pleased that you mentioned an emphasis 
on human physiology. In a former life, I was a human 
physiologist. I was involved with the very earliest space 
exploration. I was at the School of Aviation Medicine at 
Pensacola, Florida in the first sub-orbital primary flight, the 
monkey you may remember that the Army lost their monkey, Abel, 
when they were taking the implanted electrodes out and they 
gave him a general anesthetic. I then went on to Johns Hopkins 
University Applied Physics Laboratory where I was involved--you 
mentioned Ames. I was involved with a--we built a satellite to 
launch an experiment for Dr. Tourgal Tiarotti where he had 
developed the technique for putting an electrode in a single 
fiber of the otolith, which is the only organ in the body that 
specifically directly responds to gravity, so I have had a long 
familiarity with the space program and appreciate the 
importance you place on human physiology.
    You know, I think that perhaps the best justification for 
going back to the Moon and on to Mars has yet to be 
articulated. Let me explain. This is a challenge that we face 
that has been building for more than three decades. Three 
decades ago, I was at IBM--by the way, one of the major reasons 
for this challenge is the tyranny of the urgent. The urgent 
always takes precedence over the important, and so here we are 
because we always--we let that tyranny exist. Three decades 
ago, I was at IBM, and we were concerned that we, at IBM, and 
we, the United States, were going to lose our superiority in 
computers to Japan. That just about happened for one simple 
reason: every year, Japan was turning out more and at least as 
good, maybe better in some respects, scientists, 
mathematicians, and engineers, than we were, and we knew, at 
IBM, that if that continued, we were not, at IBM, going to 
remain--be able to remain the world's premier company in 
computers.
    As a country, we now face that challenge. It has been going 
on and increasing for three decades now. For the short-term, it 
is a threat to our economic superiority. All you have to do is 
go to one of our major--any of our major universities and look 
who the students are in the technical areas. Fewer and fewer of 
them are from this country. I have a son, who--our tenth child, 
who just got his Ph.D. two years ago from Carnegie Mellon. He 
was so fervently courted by our national labs that he felt 
compelled to go there. And the reason he was courted was that 
very few of those graduates were American citizens and you 
can't get a security clearance to a foreign national, so he now 
is at--out in Sandia labs in New Mexico.
    For the short-term, this is a threat to our economic 
superiority. We will not continue to be the world's superior--
supreme economic power unless we turn out more scientists, 
mathematicians, and engineers. And for the longer-term, it is a 
threat to our national security. We will not continue to be the 
world's premier military power unless we turn out adequate 
numbers of well-trained scientists, mathematicians, and 
engineers. Our country desperately needs something that 
captures the imagination of our people and inspires our young 
people to go into careers in science, math, and engineering. 
Right now, the best and brightest of our young people are 
increasingly going into destructive pursuits. We have more and 
more lawyers and more and more political scientists. Mr. 
Chairman, we need a few of each of those, but we have gone 
beyond that few of each that we need, and we now really need 
something that entices our young people to go into careers of 
science, math, and engineering.
    Hopefully this program, rightly conducted, will do that. 
You know, this really has to do with our national survival, and 
we are making an investment here, sir, that is going to pay 
big, big dividends. This is not a cost. This is an investment. 
I don't think we can afford not to do it. And I hope that when 
you do it, you do it in such a fashion that you do capture the 
imagination of our people and inspire our young people.
    Because I am a physiologist, a scientist, and because this 
is the Science Committee, let me ask a question. It is not 
clear to me the extent that this initiative will be driven by 
science. In some of the documents, it talks increasingly about 
exploration. I would hope that in capturing the imagination of 
our people and inspiring our young people that you really do 
focus on science, because our people have a lot of curiosity, 
and this brings, you know--this really--science brings us there 
very well, I think.
    You put the plan together. Are you going to continue to 
focus on science? Is that going to be a high priority that 
drives what you do?
    Mr. O'Keefe. Absolutely, Congressman. Thank you very much 
for the question.
    It is an exploration agenda informed by the science 
objectives. There is a science objective behind each of the 
exploration activities that we would be pursuing. As we see 
playing out right now on Mars, on both of the Mars rovers, the 
objectives are very clearly--this is a good characteristic 
example of the precursor missions we are envisioning is they 
have very specific science agendas and objectives that are to 
be informed, and it is an exploration opportunity in addition 
to that.
    To your earlier part, the--and just anecdotally as--in 
terms of what the interest level is among folks who are 
accessing what we are into and what we are doing, the website 
statistics I offered earlier, what--based on everybody that has 
filled out the surveys here, roughly 20 percent of everyone who 
is coming to the NASA website, of the six billion hits, 20 
percent of them are K through 12 students. 15 percent are 
college and graduate students. I mean, the level of interest in 
the kind of activities we are involved with here is inspiring 
that next generation of explorers. We want to continue that. 
And it is unabated. This is not a spike that has occurred in 
interest and is dropping off. It is continuing.
    Dr. Marburger. I would just like to add that exploration is 
part of science. And as clever and fascinating as the Mars 
rovers are, their capabilities are very, very limited. Now we 
can imagine much more sophisticated and extensive robotic 
networks, but eventually, the complexity, and especially the 
need to do things at a distance where there are tremendous 
communication lags because of the distance of the destinations 
from Earth, they ultimately need human oversight. And the more 
sophisticated and complex the exploration and science missions 
become, the greater need there will be for human presence, not 
just to go out and plant flags, but actually to do something 
that is important in reaping the assets and the resources of 
space.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much.
    Mr. Udall.

                                 Hubble

    Mr. Udall. Thank you, Mr. Chairman. I, too, want to welcome 
the panel and thank you for your testimony.
    I am going to take my time to focus on the Hubble. And I 
feel moved to make a series of statements. I hope I will give 
you a chance to reply, but hang tight here.
    I share the concern of a lot of people across the country 
about the decision that was made in regards to the Hubble, and 
I wanted to share a couple of perspectives that have been 
presented to me, if I might.
    Dr. Marburger, you mentioned adaptive optics in your 
earlier statement, and I found that interesting and important, 
but I have since found out from some folks at the Association 
of Universities of Research and Astronomy that adaptive optics 
will be important, but they won't be competitive with Hubble 
until 2015, and that is because adaptive optics require guide 
stars to fix the telescope. And with that sort of an approach, 
adaptive optics will allow us to see one percent of the whole 
sky. The Hubble gives us 100 percent across the spectrum of 
wavelengths. Adaptive optics only work in the infrared 
wavelength, and Hubble works both in the visible and infrared.
    There are two instruments that have been built in my 
District. I should offer that disclaimer that this is important 
to the 2nd Congressional District, the costs and the wide field 
three. And if we were to deliver those instruments on Service 
Mission 4, we would further enhance Hubble's advantages over 
land-based capabilities. The COS adds ultraviolet wavelength 
capability and the wide field three improves infrared and 
visible wavelength capability. So I want to just put that into 
the record.
    If I might, let me move on and talk a little bit about the 
arguments that I think have been made to cancel the Hubble. The 
one has been cost, and I think if you really step back and look 
at the cost, I don't think that that argument really can be 
justified. An extra mission is about $100 million. If we were 
to cancel the entire Shuttle program, and I think that is a 
legitimate reason on a cost basis, but to do a fifth mission, 
say, in a year to service the Hubble, from what I understand, 
it is in the order of $100 million, and it is a small cost 
relative to the cost it takes to maintain the army of engineers 
and technicians.
    The second argument is the safety argument. And I share 
your concerns about safety, but I think you can make the 
argument--I don't really think, I believe you can make the 
argument, if it is safe enough to fly to the ISS, then it is 
safe enough to fly to Hubble. So we have asked, as Congress, 
manufacturers to make $167 million worth of instruments that I 
mentioned, the wide field and the COS, only to be told that we 
are not going to fly those instruments to the Hubble because of 
safety concerns. But if that is the behavior we are going to 
accept, if we are going to work off that approach, then what 
guarantee do we have that if we spend billions to prepare a 
manned Moon or Mars mission that in the future we are not going 
to get cold feet and cancel that mission?
    So in sum, it is difficult for me to understand, if we are 
too risk-adverse to send up a servicing mission to Hubble, 
where does that leave us if we are--when we are talking about 
going to a piloted mission to Mars or the Moon? When I look at 
the CAIB's recommendations, and I am going to quote their 
recommendation with regard to safety in on-orbit repair and 
inspection capability for the Shuttle. I want to quote: ``The 
ultimate objective should be a fully autonomous capability for 
all missions to address the possibility that an International 
Space Station mission fails to achieve the correct orbit, fails 
to dock successfully, or is damaged during or after 
undocking.''
    Now this is an unambiguous recommendation that applies to 
all flights, whether it is the Space Shuttle or for some other 
mission--I mean to the Space Station, excuse me. The initiative 
of the President calls for retiring the Shuttle in 2010, which 
means there would be another 25 to 30 flights. When does NASA 
intend to comply with the recommendation that I just read? In 
the first three flights? The first five? The first ten? Because 
at that point, if you are flying--if you are complying in the 
first 10 flights, even the first 15 flights, that still 
provides a window to do that servicing mission to Hubble and 
keep it up and running for another seven to ten years before 
the Webb is fully operational? I guess I have left you a little 
bit of time to answer my question.
    Dr. Marburger. Good. Let me respond briefly to the science 
issue. No one is disputing that the Hubble is a very valuable 
instrument. It is an extremely useful and productive 
instrument, and the--I am not suggesting that adaptive optics 
is a killer argument here. But it is also true that the 
Hubble's uniqueness is diminishing and that it has, 
essentially, approached the end of its design life. Yes, we 
could continue to keep it alive by servicing it in this way, 
but there are alternative ways of getting the same or similar 
scientific data so that the risk-benefit equation has been 
altered as a result of technical progress. It is--that is a 
point that hasn't been made very strongly in this discussion. 
And I just thought it was important to make it. I am not 
suggesting that the decision is easy or that there aren't still 
some unique qualities that the Hubble has. But I think the 
deliberations of the National Research Council group on the 
decadal surveyor are quite interesting in its context, which is 
why I quoted them.
    As far as risk is concerned, risk is also, to some extent, 
a technical issue. And I believe that the CAIB and Admiral 
Gehman are among the experts on the issue of risk, and I do 
think that it was a very wise decision by the Administrator to 
call upon them to assess this aspect of the Hubble equation.

                              Shuttle RTF

    Mr. Udall. If I might, I would ask the Administrator, yeah, 
his thoughts on when we would have that capability to repair 
the Shuttle, the autonomous capability. And then if I could, 
since the Chairman has been indulging all of us, if you would 
give us a sense of where are we with the review, Admiral 
Gehman's role, and how do you intend to respond to his 
recommendation or his comments?
    Mr. O'Keefe. Yes, sir----
    Mr. Udall. And Administrator O'Keefe, if I might just 
interrupt. Dr. Marburger, I just was passed a note. Somebody 
reminded me that the B-52 also had long past design life, but 
it is still useful, so I think that is important to acknowledge 
that there are technologies that have long-time applications 
for us.
    Mr. O'Keefe. This was among the most painful decisions I 
have ever had to confront. It is a remarkable piece of 
scientific achievement and its capacity to continue to operate 
is just amazing. That said, my concern was not generated by a 
risk-aversion, Congressman; it was more generated by a capacity 
to honestly tell you that we intend to embrace the 
recommendations of the Columbia Accident Investigation Board 
report, and that facing the prospect that the point in which 
that mission, singularly the only mission that would go to 
other--any other location than Station, would not be able to 
achieve, I believe, at the time of that launch, compliance with 
all of those recommendations in the manner in which we said we 
would.
    The issues you identified are among many that are involved 
in this particular question. The autonomous repair capacity has 
to be demonstrated on the first two flights. That is our 
objective. That is our approach in what we want to do. I have 
no idea whether that is going to be successful or not. So here 
we are making a decision about its success before we have ever 
demonstrated it. That is point one.
    The second one is it requires the development of tools and 
capabilities we currently do not have in the inventory and 
would have to develop in order to do this, and yes, that is 
right, we would have to use it for Station as well as Hubble. 
But nonetheless, they have not been developed at this time, and 
won't be demonstrated until those first two flights. And so as 
a consequence, we would be assuming success at a time we are 
planning on a servicing mission when we could be diverting that 
attention toward how to maintain and operate this capacity for 
a longer period of time than we are currently expecting. There 
are a number of different ways we could do that, short of a 
servicing mission. So those are the kinds of things we are 
trying to examine as well.
    The third factor that comes to play is the question of 
contingency planning, of what do you do in the event of a 
challenge, a problem, much like we saw on the Columbia mission. 
To the extent that were to occur, the objective on Station is 
you have multiple means to examine the Shuttle as it approaches 
the International Space Station on a number of maneuvers we 
have designed. And then in turn, as it docks, you have the 
capacity to examine it thoroughly. There is no comparable means 
on Hubble. So as a result, the only way that you can 
accommodate this is to literally stack two Shuttles, two 
orbiters on two pads, the second one being available in the 
event of a contingency, and the only means by which you can 
achieve a safe haven maneuver for the damaged Shuttle would be 
to literally tether the entire crew across during a mid-orbit 
maneuver where you bring everybody outside and you put what 
would amount to about 10 people on one Shuttle flight to bring 
them home. We have never tried it, we have never performed it, 
it is strictly on paper, and a full analysis of that was 
contained in the Columbia Accident Investigation Board's 
recommendations in the appendix.

                            The Role of CEV

    Mr. Ehlers. [Presiding.] The gentleman's time has expired. 
I thank you for the explanation.
    I happen to be next on the list.
    Unfortunately, I have approximately two hours worth of 
questions. I thought, perhaps, I could arrange a private 
briefing, but now that I have the Chair, perhaps I can just do 
it all here. But to--let me reassure my colleagues I will not 
do that.
    Several observations, since time is limited, and then a few 
specific questions on the crew exploration vehicle.
    I may sound like a naysayer, but I don't intend to be. I am 
supportive of the President's proposal. At the same time, I am 
very skeptical about many of the details of it. I am concerned 
about the assumptions that I see underlying that chart up 
there. Time doesn't allow me to go into the details, but with a 
history of cost overruns on major projects at NASA, I think I 
have good reason to be concerned. And that is not meant to be a 
derogatory statement. I know, as a scientist, you don't know 
what problems you are going to encounter until you get into 
when you do something brand new. But I am concerned about the 
impact on other science, both within NASA and outside of NASA. 
The effects on continuing our efforts on space science, I think 
we have to continue that unabated. Our Earth science that NASA 
does is incredibly valuable to our nation and to, in fact, our 
planet, and we must continue that.
    I am concerned about the Mars mission, the purpose, the 
cost, the scientific value. I believe it must be an 
international effort. We simply can not afford that as a nation 
alone. I think, personally, it would be a foolish waste of 
money for us to go to Mars, given our present state of 
technology. We simply--we have to have better energy sources. 
We have to have better propulsion systems to even think about 
going to Mars.
    Dr. Marburger, you mentioned the limited nature of the 
robots, and that is very true, and we all recognize that. At 
the same time, we can send approximately 1,000 robots to Mars 
for the cost of sending one human and bringing that human back. 
And so we have to compare what we can do with 1,000 robotic 
flights compared to one human flight.
    The--I am concerned about the Space Station, its cost, its 
value, the science that is going to be done. If that is simply 
going to be to determine the long-duration effects of flight in 
space flight, that is a mighty expensive way to do it, and that 
is something else I would like to explore with you at some 
time.
    Let me down get down to a specific question on the crew 
exploration vehicle. And I am, first of all, very concerned, 
Mr. O'Keefe, with the idea that this is going to be the vehicle 
for the Space Station, for the Moon, and for Mars. And I need 
clarification in that. What are you envisioning this vehicle to 
do? Is it--I mean, that seems to me too much to expect from a 
single vehicle. Isn't that likely to lead to the same problems 
we have with the Space Shuttle, that we expected too much of 
it, and it ended up being very, very expensive? I would hope 
that you would not even think about developing a Mars vehicle 
until we are much further down the pike.
    The--well, let me have you answer that, first, before we 
get into other questions on it.
    Mr. O'Keefe. Yes, thank you, sir.
    The approach is not to devise or to develop a one-size-
fits-all answer to this. No question. Instead, the spiral 
development approach that we are trying to lay out is to test 
each component individually, and then you size and derive 
variance, depending on mission requirements. You need a 
substantially less volume requirement to get from here to the 
International Space Station. You certainly need more volume in 
order to get to the Moon. You need even more to get beyond 
that. So at each successive stage, you are looking at a 
different assemblage of modules and components in order to 
achieve that task, but at its core are a handful of fundamental 
aspects that you want to develop. And that is what the spiral 
development approach is designed to do.
    The initial approach in these next few years is--certainly 
by the end of the decade, is to demonstrate those spiral 
developments and launch, unmanned, those capacities to see how 
each of those components then, in turn, can be lashed together. 
But it is not an intent to have a one-size-fits-all approach. 
We are not going that direction.
    Mr. Ehlers. Are you envisioning this to be a reusable 
vehicle, or are you leaving that as an open question?
    Mr. O'Keefe. Yeah, I don't know yet. I--there is a spirited 
argument on this one way--on both sides. But I--there is 
certainly no predisposition either way at this juncture.
    Mr. Ehlers. These first specs that you are developing in 
four months, is that related to the Mars mission at all or is 
that strictly development of the crew of a CEV?
    Mr. O'Keefe. Yes, sir, strictly to the Project 
Constellation crew exploration vehicle to develop the initial 
requirements to go beyond low-Earth orbit, and that will be a 
very short list of things here what we have to build into that 
as a requirement set.
    Mr. Ehlers. And when you talk about assembling components 
in space, are you talking about actual assemblage or simply 
docking and proceeding on from there?
    Mr. O'Keefe. Yes and yes. You could be looking at both 
combinations, it depends. I mean, what we have learned from the 
International Space Station is we can do this. It is an 
astonishing engineering effort to pull together components in 
the manner that we have. So it demonstrates that yes, this can 
be achieved, and it all is within the realm of doing it with a 
launch capacity that does not need to exceed what we presently 
have at--in the current inventory.
    Mr. Ehlers. But it is also very expensive to assemble in 
space.
    Mr. O'Keefe. Yes and no. I mean, it is--once there, the 
cost to actually do so is an awful lot easier than trying to 
assemble it in space from scratch. If you have got components 
that are launched, as we are doing on Station, you literally 
are doing it with a very minimal set of requirements. The 
actual cost to get there, yes, is expensive, but that is mostly 
ground costs.
    Mr. Ehlers. Well, do you envision also using these vehicles 
to carry fuel up there for additional missions to Mars or to 
the--even to the Moon?
    Mr. O'Keefe. It really--it depends on what we find. On the 
Moon, if there is a capacity, as I think Dr. Marburger has 
opined, of developing a means for renewable energy sources, 
that may be an option. Another approach from Project 
Prometheus, to the extent we are able to develop the propulsion 
and power generation capacities that we are anticipating to 
demonstrate on the deeper space exploration missions to 
Jupiter, there may be a capacity and a means to use that kind 
of capability for power generation on surfaces. So there are a 
number of options that could be explored in every one of these 
avenues, the answer of which will be found as we succeed at 
each of those steps.

                            Hubble and Risk

    Mr. Ehlers. All right. Let me comment on the Hubble for 
just a moment, too. I share the concerns expressed by Mr. 
Udall, and I am really surprised at the safety concerns. We 
have Shuttles that are flown 100 missions, and I assume you 
will take care of the problem that brought down the Columbia. I 
am not sure I agree with the need to visually inspect every 
Shuttle, or any space vehicle. You are going to have the same 
problem on the CEV. You can not visually expect--inspect every 
vehicle that you send into space. And this is a hazardous 
enterprise. The astronauts are test pilots. They have risked 
their lives before to test vehicles. We can't encumber a 
program with such absolute requirements for safety that we 
literally price ourselves out of doing it. And I don't expect 
you to respond to that, unless you wish, but I think we have to 
use a little common sense here and say we can't make these as 
safe as our family car.
    Mr. O'Keefe. Yeah.
    Mr. Ehlers. In fact, they really exceed the safety of the 
family car. And let us recognize, there is risk to space 
exploration.
    Mr. O'Keefe. Um-hum. Well, thank you, Congressman. I 
couldn't agree more. It is--we are doing our level best to 
reduce the risk to the level of what is humanly possible. That 
said, you are exactly right: there will always be an inherent 
risk in this operation, particularly with Shuttle. I think what 
the Columbia Accident Investigation Board demonstrated is there 
is a lot more inherent risk in this asset than what we had 
thought. And so as a consequence--and it is the things you 
don't know that are lurking out there as well that really worry 
you.
    And in the case of the servicing mission, though, it is the 
common mission of each and every one of the variables. And when 
you add them up, it is a higher risk than the risk involved in 
going to Station. And so as a consequence, when you evaluate it 
on that basis, it is a higher margin of risk, and so therefore, 
it becomes--it turns on the question of is that acceptable. And 
my greatest concern, again, was finding ourselves in the 
position of having a Shuttle ready to go and not being in 
compliance with the Columbia Accident Investigation Board's 
recommendations as thoroughly as we need to, and in turn, then, 
making the choice about whether to launch the mission 
prematurely or watch the Hubble dissipate at that point.
    So it really became a case of now is the time to make that 
kind of a call up front in order to make sure we redirect our 
energies toward getting the longest service life we can out of 
Hubble.
    Mr. Ehlers. My time has expired. I don't totally agree with 
you on that, but we can discuss that later.
    Mr. O'Keefe. Thank you, sir.
    Mr. Ehlers. Next we have--Mr. Feeney is next.

                  NASA's Budget and National Security

    Mr. Feeney. Thank you, Mr. Chairman, and thank you, Dr. 
Marburger and Administrator O'Keefe. I really appreciate you 
being here today. And you know, with space at this critical 
juncture in American policy, we really only have one of two 
choices, in my view, and that is that America can continue to 
lead space exploration in the future or we can remain in the 
status quo and we can atrophy and we can let somebody else fill 
the potential void. And for 30 years or so, as the Gehman 
Commission reported, NASA, in many ways, has been an agency 
adrift, largely because of a lack of a focused vision. And what 
we have needed is a President and an Administration that has 
provided a responsible but bold vision. And that is exactly 
what the President has now down.
    We can pick it apart with 535 different views of what the 
optimal role of America ought to be in space, but if that is 
the way Congress is going to behave, then everybody will know 
who dropped the ball. I do believe that this vision, while I 
might have designed it slightly different myself, is focused. I 
think it is bold. It is affordable, $200 million a year, based 
on the way we spend money around here, is a relatively 
inexpensive, first-stage start. Much of the costs come out of 
programs that will become unnecessary, superfluous, or 
obsolete, and I congratulate you, because this is a lot more 
affordable. I heard figures like, not $1 billion, but $1 
trillion floating around as--leading up to the President's 
announcement. It is an incremental approach. It is flexible. We 
can change as we get better with respect to the technologies we 
are developing. I want to congratulate you heartily.
    I do want to suggest that there is a lot of talk about how 
we can best spend an additional billion dollars or so in the 
next five years on research. And it does become difficult, for 
example, to argue that finding a cure for Alzheimer's or 
finding a cure for cancer isn't just as important as exploring 
outer space. And that is a difficult argument to make. We have 
got a great record in our manned and unmanned NASA division in 
terms of providing some wonderful technologies that often are 
not well explained to the American people, but it has been--it 
has returned our investment, I think, many times over and will 
continue to do so.
    But I want to focus on part of this potential that has not 
been talked a lot about today. One of the Congresswomen earlier 
expressed her concerns that security was suddenly being talked 
about as part of the President's vision. In fact, she is 
correct that a renewed spirit of discovery, the President's 
vision for U.S. space exploration that was just released in 
January, this is the President's proposal. It talks about the 
fundamental goal of this vision is to advance U.S. scientific 
security and economic interests. And I will tell you, I think 
it is important that America has to maintain and help maintain, 
with other peace-loving nations, the integrity of commercial 
travel, of exploration, both manned and unmanned, and I also 
think that we need to absolutely be prepared to help develop 
the technologies that will protect our space capabilities, 
which are absolutely integral to everything that our military 
does. Probably 99 percent of their sophisticated weaponry, 
planes, ships could not deport without their total reliance on 
the GPS and the other satellite capabilities.
    And we are not necessarily talking about arming space 
through NASA. We know that is not your vision. What we are 
talking about is the absolute unknowable advancements that you 
can make through your technologies. The Wright Brothers weren't 
thinking about making sure that the United States Air Force had 
air superiority in the last 50 years as we won, not only World 
War II, but also the Cold War, in large part because of that 
capability. I am sure Mr. Ford, as he developed his assembly 
line, was not thinking about also having the best tank 
armaments and armored personnel carriers, for example. But the 
types of technologies that we are able to develop here, Dr. 
Marburger and Mr. O'Keefe, are absolutely essential for a lot 
of reasons, not the least of which is security. I am glad we 
have had this open discussion, because I will tell you this, if 
some other hostile nation is able to develop dominance in space 
technology, the consequences for American security are 
unimaginably horrible.
    And I invite you to comment or not, as you like.
    Dr. Marburger. Well, as Administrator O'Keefe said that 
national security was not a driver for this mission, but there 
is no question that the kinds of technologies whose development 
would be accelerated under this program would have security--
national security relevance. And I can do no more than to agree 
that this--that there certainly would be consequences that 
would make us a stronger nation.
    Mr. O'Keefe. Well, I fully agree. There is no question. The 
spin-offs that occur here, and again, your analogies are 
exactly right, I want to associate myself precisely with your 
commentary, are the kinds of things that we can develop through 
this technology advance and in turn can have applications 
there.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired.
    Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. O'Keefe, I represent the State of Alabama in the 1st 
Congressional District, and although Huntsville is not in my 
District, it is an important part of NASA's history and 
certainly an important part of the state's contribution toward 
the space program. Could you, since some of my colleagues have 
already raised the question about the President's proposal to--
for the orbital space plane to be replaced with the crew 
exploration vehicle, could you tell me what some of the efforts 
of Marshall might be with regard to developing the orbital 
space plane that would be channeled into this new crew 
exploration vehicle program?

                          Efforts at Marshall

    Mr. O'Keefe. Yes, sir. The effort that Marshall Space 
Flight Center and, indeed many of the contributors throughout 
the NASA community involved in the orbital space plane, is the 
foundation which we are building on with crew exploration 
vehicle. The efforts we undertook last year were absolutely 
imperative to understanding the scope of the task that we are 
about to undertake, which is looking at a beyond low-Earth 
orbit capacity. It is 75 percent common with an awful lot of 
the work we have already done. So much of that is resident 
there. And I can--I fully expect that our exploration systems 
enterprise, led by Craig Sterdle, will be examination all of 
those alternatives and bringing to bear the best of that talent 
that is resident within--at--certainly at Marshall for the 
purposes of expanding that particular effort and going forward 
within the next few months.

                        INA and Soyuz Purchases

    Mr. Bonner. Let me shift gears now. If the Russian 
agreement to provide the Soyuz crew support ends in 2006 and it 
takes one or one and a half years to build a Soyuz module on 
the Russian production line, don't the Russians need the money 
flowing to them soon? And when will we know who is going to pay 
for these Soyuz flights starting in 2006?
    Mr. O'Keefe. Thank you, sir. Again, as I mentioned with Mr. 
Lampson and his commentary on this point, we are beginning 
negotiations and discussions with our 16--our 15 other partners 
in the International Space Station partnership today. And they 
are here in Washington. And in the weeks ahead, as we lead up 
to a head of agency meeting here at the end of March, beginning 
of April, likely in Montreal, the discussions will be over 
exactly this kind of question. How do we go forward beyond 2006 
for the continued transfer and return vehicle capacity that our 
Russian partners provide? We are also intending on returning 
the Shuttle to flight and completing the Station activities. So 
as a consequence, all of those contributions will be discussed. 
And how do we expand expedition crew size, how many more 
vehicles will be needed.
    The Europeans are bringing to bear the ATV logistics 
capability here in the next several months. It is going to be 
substantially greater than the Progress vehicles that we are 
currently using, so there are any number of variables that will 
go into those negotiations, so I expect in the next couple of 
months we will have clearer answers on the more specific 
definition of the questions you have asked.
    Mr. Bonner. As a follow up to that question, if I might, 
why haven't we, at this juncture, had a crew vehicle for the 
Space Shuttle?
    Mr. O'Keefe. A crew vehicle for the Space Shuttle? I am 
sorry. I don't understand the----
    Mr. Bonner. A--to model after the Soyuz, the Russian 
vehicle.
    Mr. O'Keefe. Oh, I see. Again, the Space Shuttle is, and 
was, designed to be not only a crew but also a cargo-carrying 
asset. The Soyuz is of no similar or comparable capability. It 
is strictly a crew complement. The recommendations of the 
Columbia Accident Investigation Board are that we design a 
capability that separates the crew from the cargo. So until 
this--until the time of the, I think, Columbia Accident 
Investigation Board's recommendations, we had looked to 
maintain Shuttle in a singular capacity only in low-Earth orbit 
in this mode. So now to look at evolving that out into a crew 
separated from cargo approach, as the Columbia Accident 
Investigation Board recommended, is where we are proceeding. 
Why we haven't done it before, I could only offer speculation. 
Why we are doing it in the future, I could tell you 
definitively, it is because of our recommendations and the 
President's direction.
    Mr. Bonner. Let me shift gears one more time, please, sir.
    Mr. O'Keefe. Yes, sir.

                         Centennial Challenges

    Mr. Bonner. Could you elaborate on the centennial challenge 
prizes that NASA wants to start for space entrepreneurs?
    Mr. O'Keefe. This is an opportunity, and really very much 
in concert with the President's direction, of looking at new, 
creative ways to accomplish these tasks and, in turn, encourage 
the entrepreneurial approaches that are out there and let us 
figure out how we achieve those kinds of objectives by creating 
spirited competitions for their continued development. So we 
are intent on pursuing that direction.
    Mr. Bonner. Just one final comment, not a question. All of 
us who remember growing up watching the Apollo space program 
takeoff and man land on the Moon taking the first steps and 
then we watched with pride in the Shuttle program and the 
tragedy of Challenger and Columbia, I think all of us, 
especially in this room and on this committee and really, as 
evidenced by the tremendous crowd that is here today on a day 
when the House is not in session, we support what you are 
doing. We are proud of the work you are doing. With that said, 
I think the American people, as we face these tough budget 
decisions, deserve a renewal of explanation of what space 
exploration has meant to them in terms of their daily lives, in 
terms of the advancements of medicine, miracles of medicine, 
and some of the other technological breakthroughs that have a 
direct link so that when we go home to our Districts, when we 
go home and visit with the people that sent us here, we can 
give them an updated answer to the questions of why now, why 
this much money, why this bold a vision. And I would certainly 
encourage NASA to help us sell the story of NASA, and I think 
you will find willing partners here.
    Thank you so much, Mr. Chairman, for giving me an 
opportunity to question----
    Chairman Boehlert. Thank you, Mr. Bonner.
    Mr. O'Keefe. Mr. Chairman, if I could, very quickly, 10 
seconds. I will get you a piece of paper that will give you the 
specific derivatives of all of the things we have developed 
over the course of the last few years that can be available 
for----
    Chairman Boehlert. Mr. O'Keefe, I wish we had six billion 
hits on that. And let me suggest to you that it is critically 
important, in that part of your communications program, that 
you explain to the American people all of the benefits that 
have come from our investments in the space program.
    Mr. Bonner. Mr. Chairman?
    Chairman Boehlert. Yes, sir.
    Mr. Bonner. Especially those investments made in Alabama 
would be very helpful.
    Chairman Boehlert. Understandable.
    The Chair recognizes Mr. Gordon.

                         The Cost of the Vision

    Mr. Gordon. Thank you.
    At the risk of being a broken record, I want to go back to 
the issue of cost, and I do so because I think I would be 
negligent in my job if I didn't. Now I don't want to overstate, 
but I think it is fair to say that most everyone, if not 
everyone on this committee, is, at a minimum, disappointed, 
potentially disillusioned, with the cost estimates that we have 
been given up until recently even on the Space Station and the 
benefits that we were going to achieve. So we need to go out in 
front of this.
    And so, Mr. O'Keefe, you know, I had written you and asked 
you for some cost estimates. And in your response, if I--as I 
stated earlier, you said it depends on timing, scope, 
technology, and research. Here is what I would like to do and 
what I really think is important for us. Let us set up just a 
benchmark and then we can--knowing that we can move beyond 
that. And I will help--you can--you know, I want you to set up 
that benchmark. So we are going to say, okay, the first thing 
you said, you can't--we can't give a cost unless we know the 
timing. It could be from 2015 to 2020. Well, around here, 
things usually take longer rather than sooner, so let us say we 
will give you the time. We will fill in the blank: 2020. Then 
you say the scope, the specific--and that specific 
demonstration is carried out on the Moon as well as the number, 
duration, type, size of missions to support these 
demonstrations. Why don't you just take what you think would be 
the reasonable scope? Then the technology, the same thing, and 
the research. Just--let us set a definitive benchmark of--
within these four areas, of what you think would be reasonable 
things to achieve. And then, can you cost that out for us?
    Mr. O'Keefe. For what objective?
    Mr. Gordon. So that we know what we are getting into and so 
that--we don't want to get into a situation where later on we 
decide we can't afford this and we wish we hadn't spent all of 
this money because there might have been a better approach.
    Mr. O'Keefe. Yes, sir.
    Mr. Gordon. That is the reason. And I think if--when you 
were at OMB, and if someone came before you, surely to 
goodness, you would have asked those questions.
    Mr. O'Keefe. This is the functional equivalent of making 
assumptions on what, 16 years from now, the cost of my mortgage 
payment will be, what the light bill will be, any number of 
different----
    Mr. Gordon. Well, isn't that what you did with that chart 
up there?
    Mr. O'Keefe. No, what this projects here, sir, is the--
between 2005 and 2009 is the specific amounts that the 
President has proposed in the budget.
    Mr. Gordon. Oh, okay. So we don't know what we are going to 
get for it, but that is just what the proposal----
    Mr. O'Keefe. Yes, sir, we do. I am sorry. I apologize for 
interrupting you. Let me let you finish.
    Mr. Gordon. Okay. Well, anyway, let us just--you know, 
again, surely, you know, I don't know what the interest rates 
are going to be in 10 years, but there are those folks that can 
make an estimate, and that is all I am asking you to do is to 
take the best information that you have and it can be prefaced 
by those estimates as to what you think those costs will be. I 
don't really think that is too much to ask.
    Mr. O'Keefe. Yes, sir, I appreciate that.
    In the period of time of 2005 to 2009, as the budget is 
presented before you to----
    Mr. Gordon. Yeah.
    Mr. O'Keefe [continuing]. From the President to the 
Congress, the total amount is $86 billion. That is the total 
amount we are requesting, proposing, projecting, forecasting to 
be spent on NASA activities. In this coming year, it is 16.2. 
That is the part that you have the most amount of control, in 
terms of redirection to, as well as those out-year forecasts.
    Mr. Gordon. I just want to--I want to get your best--your--
you know, once you plug in the blanks as the timing, scope, 
technology, and research what you think it is going to cost to 
do that particular job.
    Mr. O'Keefe. Yes, sir.
    Mr. Gordon. And again, let me ask you, did the President 
ever ask you, at any time in these information-rich hearings, 
what the cost would be to go to the Moon?
    Mr. O'Keefe. What he asked specifically is what do we plan 
to spend in this five year span of time and does it create a 
balloon note. What this chart creates--or----
    Mr. Gordon. But he never asked you what it is going to 
cost?
    Mr. O'Keefe. Yes, sir, he did, and I am trying to answer 
that. I apologize, sir.
    Mr. Gordon. Okay.
    Mr. O'Keefe. $86 billion is the amount that we specifically 
identified in the span of time from 2005 to 2009. And what this 
chart attempts to demonstrate is in the out-years beyond that, 
not within the scope of the President's budget proposal to you, 
were we creating a set of commitments that would be larger than 
the annual rate of inflation increase that would be reasonably 
anticipated for a budget proposal. And the answer is no. The 
amount that is included here is a rearrangement, specifically, 
of the assets necessary to continue to pursue this exploration 
agenda informed by the scientific objectives, and as a result, 
what you see is a wind-down of the Shuttle program, a wind-
down, ultimately, of the----
    Mr. Gordon. So if we add up that top--I am color-blind, but 
I guess it is blue, that--you know, that blue chart on your 
chart. If we were to add that up, you are saying that would be 
the cost of getting us to the Moon, in your opinion?
    Mr. O'Keefe. I think it is the combination of robotic 
missions, manned human space flight missions, a whole range of 
things to go to Mars, the Moon, any other destination you like.
    Mr. Gordon. Okay. So then you could tell us, then, you--and 
I will ask you then, if you would add up those amounts and tell 
us what you expect that we are going to get from that by the 
year 2020.
    Mr. O'Keefe. 2020.
    Mr. Gordon. Yes, sir.
    Mr. O'Keefe. Yes, sir. Let me provide that for the record. 
It gives you a specific breakdown of what those little sliced 
segments mean. I can't--I have forgotten off the top of my head 
exactly what those individual pieces are, but I will provide 
that for the record, because that is a projection of what this 
might entail, beyond 2009, to demonstrate that we are not 
trying to pass on----
    Mr. Gordon. Right.
    Mr. O'Keefe [continuing]. Additional costs beyond the scope 
and visibility of what Congress has before you right now.

                               RTF Costs

    Chairman Boehlert. Thank you very much, Mr. Gordon. Thank 
you, Administrator O'Keefe. We look forward to that written 
submission, because it is information we all wish to become 
more familiar with.
    In dealing with cost, let me go on to something that is in 
the 2005 to 2009 time frame. NASA continues to refine its cost 
estimates to implement the Columbia Accident Investigation 
Board recommendations for Shuttle return to flight. We 
appreciate your efforts in keeping the Committee informed of 
the actions NASA is taking and the costs associated with the 
return to flight program. In November of last year, NASA 
estimated cost for return to flight at $456 million over the 
next five years. Two weeks ago, we received from NASA a letter 
with another cost estimate of more than $1 billion. The 
estimates have doubled in three months. We understand that this 
is a work--as work progresses, you are refining your estimates, 
and there is a lot of work left to complete. My question is do 
you expect cost to continue to grow, or do you think you have a 
pretty solid estimate right now? What areas of the return to 
flight activity entail the greatest risk for increased cost? 
What areas entail the greatest risk of slipping the schedule?
    Mr. O'Keefe. To my knowledge, sir, the last update that we 
released about a week ago for return to flight and the 
continuing implementation plan, so in other words monthly we 
update that, still hovers in that neighborhood of about $450 to 
$500 million, is my recollection. If another piece of paper was 
sent to you, I am not familiar with exactly what the 
differences of those numbers are at this juncture. But----
    Chairman Boehlert. Well, I have the document here. Let me 
tell you where the document is. Oh, it is from you, from NASA. 
And the projections are one billion and 79 million in the 
document. I will share this with you----
    Mr. O'Keefe. Yes, sir. No, I----
    Chairman Boehlert [continuing]. If you are not familiar 
with it.
    Mr. O'Keefe. I suspect that what that also covers--I am not 
familiar with exactly the document you are looking at----
    Chairman Boehlert. It starts with 2003, 2004, 2005, 2006, 
2007, 2008, 2009.
    Mr. O'Keefe. Right. Let me reconcile that for the record 
for you.
    Chairman Boehlert. Okay.
    Mr. O'Keefe. And because, again, the exact direct cost on 
return to flight still is in that range of 450. The out-year 
cost to--for example, the longer-term implications of creating 
the NASA Engineering and Safety Center and so forth, that is 
all additive to it, and I suspect that that is what--but let me 
reconcile those two numbers for you.
    Chairman Boehlert. That would be helpful, because----
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert [continuing]. You can see, obviously, you 
know where we are coming from.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. We want to get it as precise as we can.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. All right.
    Mr. O'Keefe. No question.

                           Schedule Pressure

    Chairman Boehlert. And there is another question that is 
always on the minds of all of us and that is schedule 
pressures. As you know, the Columbia Accident Investigation 
Board cited schedule pressure as a contributing cause of the 
Columbia accident. Members of CAIB said the schedule pressure 
would likely become excessive if the Shuttle were flown more 
than four times a year. But the exploration initiative assumes 
five flights a year for each of the next five years, starting 
this fall, and we are beginning to appreciate that it might be 
some slippage with that. Isn't that guaranteed to create undue 
schedule pressure? And how will you prevent undue pressure from 
developing? Will NASA be hiring more personnel to accomplish 
five missions a year?
    Mr. O'Keefe. Yes, sir. No, thank you for the question. The 
objective is to complete assembly of the International Space 
Station by the end of the decade. The President was very 
specific in the Directive in, you know, determining it as the 
objective, the milestone is to complete assembly of the 
Station. We project that that is going to run four to five 
flights per year and are anticipating as many as five. The 
approach we have got to look to now is two things, the two 
drivers on the schedule that I have seen. Number one is not 
only the systems integration challenge of when do you send the 
components and the modules, but also how do you have a spacing 
in between them that is sufficient to provide for a launch of 
the next vehicle in time to assure safe haven requirements 
while folks have been aboard Station, should there be any 
problem on the prior mission. So the combination of both of 
those is going to give us that answer rather than what the 
current schedule says. And we are still working that through to 
figure out precisely what that will entail.
    Chairman Boehlert. Let me ask you this. It--is it still the 
operating assumption that you will be able to return to flight 
by September or are--is there some cause to pause and rethink 
that very ambitious schedule?
    Mr. O'Keefe. Yeah, based on the information I have seen 
just in the last 10 days and reviewed now a couple of times, 
there are two items that now make that prospect very low. The 
first one is the external tank. The determination by an 
external panel, a group of folks and the Stafford Covey Task 
Force, was to expand the coverage of the insulation area from 
67 degrees off centerline to 80 degrees. What that means is you 
are now looking at a wider area that needs certification from 
debris coming off of the insulation from the external tank. The 
second one is the actual development of the imaging capacity on 
the boom that we are developing and have never tested is 
continuing to have issues that are not insurmountable, but they 
may take longer. So I have my doubts, and I do not believe that 
the September/October time frame will be met. I think it is 
more likely we are going to push that to the right, and we 
determine that conclusively next week on how we would revise 
that schedule.
    Chairman Boehlert. Well, that is a good news and bad news 
response. I mean, the bad news is, obviously, we can't do 
something we hoped to be able to do by a certain time period, 
but the good news, from my perspective, is that you are not so 
arbitrarily committed to a specific date that you will let the 
pressure of meeting that date overturn good judgment. And you 
are going to--that is good news.

             OSTP Efforts in the Interagency Deliberations

    Now let--the final question I have, and then Mr. 
Rohrabacher will have one more and maybe Mr. Lampson and--
because we have to get out of here. The final question I have 
is for Dr. Marburger. When you participated in the interagency 
deliberations that led to the development of this new 
initiative and the vision by the President and the 
Administration, you were, I hope, representing all science and 
not just the interest of science within NASA. In other words, I 
hope you were operating from the perspective of the bigger 
picture, focusing, obviously of necessity, because of the 
assignment, on the program within the agency. But there are all 
of us up here who are concerned about the impact on science 
overall. That is a concern that I know you share. And so would 
you address that question, please?
    Dr. Marburger. Yes. First of all, it is my responsibility 
to be concerned about all of science. The vision that the 
President set forth is a vision that extends long into the 
future. And I believe that the way this vision is structured is 
good for science. It establishes a framework that is 
independent of a specific scenario or a single project that has 
to be accomplished in a certain time frame that actually 
reduces the risk of invading science budgets in the future. 
This is a--this provides more predictability. It provides a 
better framework for planning for all of science. And I 
particularly like the aspect of this vision that joins robotics 
and human exploration in a rational, balanced approach so that 
the scientific goals associated with this vision, in my 
opinion, are stronger than they have ever been in NASA. 
Integration of science with human exploration is a very 
important feature of this. So in--I think that in the long run, 
to embark on this course is actually better for science than 
what we had before.
    Mr. Lampson. Mr. Chairman?
    Chairman Boehlert. Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman.
    I am still concerned about the Iran Nonproliferation Act. 
And knowing that----
    Chairman Boehlert. We were honoring the--alternating back 
and forth. Come on. You have a question, if you have an 
opportunity.
    Mr. Rohrabacher. I am sorry. I have got a plane in Dulles 
that I have got to run out for, and--yeah, I--thank you very 
much, Mr. Chairman.

               RTF Delays and Their Effect on the Budget

    First and foremost, how will the Shuttle delays that you 
just mentioned affect the rising cost in--for your budgets for 
fiscal year 2005 through 2009?
    Mr. O'Keefe. I can't make an assessment right now, but I 
don't think this is going to be a cost-driver. It is more a 
technical driver on the two--the external tank as well as the 
imaging boom, neither of which appear to be cost-drivers, and 
they are more just technical development questions. So I don't 
anticipate a big cost differential here.
    Mr. Rohrabacher. But just the time will cost money, will it 
not?
    Mr. O'Keefe. Sure, by definition, but, you know, we are not 
talking about--we are not--it is single-digit months, not 
years.
    Mr. Rohrabacher. Okay. So number one--number two, let me 
just note, for the record, that as far as I am concerned, and I 
think a large number of people are concerned, because we are on 
budget constraint, we are worried about science programs being 
cut, anything that can be done commercially that will be--that 
will make it cheaper to achieve our goals in space, especially 
those concerning Station, should be done, because that leaves 
more money available for science projects and other projects. 
And also--and that includes the servicing of the Space Station, 
which there are alternatives--private sector alternatives that 
have been offered, and if they can be--if they are cheaper, 
they should be done.
    And finally, I guess we have talked about the pursuing of 
commercial interests, so that is just about it.
    Mr. O'Keefe. Thank you, sir. Yes, sir. I understand----
    Chairman Boehlert. And have a great flight, Mr. 
Rohrabacher----
    Mr. Rohrabacher. Thank you.
    Chairman Boehlert [continuing]. The very distinguished 
Ranking Member of the Committee on Space and Aeronautics.
    Mr. Lampson.

                                  INA

    Mr. Lampson. Thanks, Mr. Chairman.
    Just a quick statement about the INA that I still concern 
myself with. Mr. Rohrabacher made the comment earlier on his 
first time around about the exception for imminent danger that 
we can, indeed, deal with the Russians under those 
circumstances. There presently is not an imminent danger. And 
the concern is that we only have Soyuz that are going to be 
built, I think, two under construction, and soon we will not 
have anything there if--and even though we are involved with 
discussions with our ISS partners, current law tells us we 
can't do it with the Russians. And there is pending legislation 
that would allow us to solve that problem, give the President 
the flexibility necessary, NASA the flexibility necessary to do 
these negotiations. It just doesn't make sense that we are not 
looking at those opportunities, and it seems to me that we are 
going forward without a good plan with a major initiative here. 
And I yield my time to Mr. Gordon.

                              Vision Cost

    Mr. Gordon. Excuse me. A quick, final clarification. The 
post-2009, that period for the lunar/Mars, that looks to me 
like about $150 billion. Does that sound about right to you?
    Mr. O'Keefe. Well, sir, I would have to go back and take a 
look at the numbers. I really can't offer it off of the top of 
my head. I am sorry.
    Mr. Gordon. Okay. But you are going to do that, though, 
right?
    Mr. O'Keefe. Yes, sir. Yes, sir.
    Mr. Gordon. And I--and the final thing is, that is what you 
are allocating. And I assume that what you are allocating and 
what you think is necessary to complete the mission is the same 
thing?
    Mr. O'Keefe. No, sir. What is occurring in 2009 and out is 
a projection of what the transition, the transformation of the 
approach that we are taking here would import if you compare it 
to the annual cost of an inflation level increase to the annual 
top line. That is all that this attempts to do, but I will try 
to parse that----
    Mr. Gordon. Okay. So is that--and again, just for me, so 
that--does that budget, then, get us to the Moon or not?
    Mr. O'Keefe. It is not a budget. It is a projection.
    Mr. Gordon. Okay.
    Mr. O'Keefe. The only budget before you is 2005 through 
2009.
    Mr. Gordon. Okay. Does that projection try--is that 
projecting what it is going to cost to get us to the Moon?
    Mr. O'Keefe. No, sir, it does not.
    Mr. Gordon. Then why are you doing it, then? What is the 
benefit of it?
    Mr. O'Keefe. To demonstrate, as we continue this particular 
approach of, again, building on the successes at each 
successive stage, is there some balloon note beyond 2009. And 
the answer is no, based on this approach. At the concurrent 
time in which you are seeing at retirement of Shuttle, you will 
see an acceleration of the development on the Project 
Constellation crew exploration vehicle, the development of the 
human and robotic technologies----
    Mr. Gordon. Okay.
    Mr. O'Keefe [continuing]. All of that----
    Mr. Gordon. But you don't know what you get, though?
    Mr. O'Keefe. Yes, sir, we could walk through that, but 
there is----
    Mr. Gordon. Okay.
    Mr. O'Keefe [continuing]. No pretense of precision of 
program numbers out through 2020 that would give you that level 
of granularity to say this is the cost of that----
    Mr. Gordon. Okay.
    Mr. O'Keefe [continuing]. Broader set of mission 
objectives. It is going to be a combination of all of them and 
depending on which sequence you pursue.
    Mr. Gordon. Okay. Thank you.
    Mr. O'Keefe. Thank you, sir.
    Chairman Boehlert. I thank you. And now, as Martin Agronski 
used to say for the final word, Dr. Ehlers.

                               Centrifuge

    Mr. Ehlers. If I were to find a word, I think everyone in 
the room would be overjoyed.
    I do want to thank both of you for being here and to 
sympathize with--yesterday, I sympathized with the panel who 
was being asked tough questions here, including Dr. Marburger. 
Today, I sympathize with you in a deeper sense, because you 
have a very, very tough job ahead of you. As science is always 
difficult, but when you are doing it to this extent, it is also 
very expensive and a lot of dollars riding on the decisions you 
make everyday. So I express my appreciation for you, but also 
my sympathy.
    All right. I want to ask a specific question about what I 
understand as a problem on the Space Station of a very crucial 
component. Mr. O'Keefe, you mentioned the purpose--primary 
scientific purpose at this point is the study of the human 
effects of long-term space flight. And I understand a very 
important part of that is the Japanese centrifuge portion of 
the Space Station. I also understand that that is in trouble 
and that you have been giving them some help, but that it is 
behind schedule, it may not be ready to launch. The first 
question is, will it be ready to launch before you discontinue 
the current Shuttle? And secondly, what is the problem? Is it 
serious? Can it be remedied? And will they meet their 
timetable?
    Mr. O'Keefe. Yes, sir. Our Japanese partners have been 
examining a cost challenge that they are having with 
development of the centrifuge. It was due to be delivered and 
launched, I believe, in 2008, and we are going to be examining 
that again, beginning today through these next several weeks, 
to look at what the sequence of that may mean on the schedule 
itself. But what the cost is to them and what they may be 
experiencing in terms of overrun are their responsibility, but 
in terms of the actual delivery date of the module, that is the 
point we will need to continue to work through.
    Mr. Ehlers. Are you confident it will be ready to fly 
before you discontinue the Shuttle?
    Mr. O'Keefe. It appears that way, but again, there may be 
tradeoffs of what we may come to based on the ultimate 
configuration of Station, which may call for other modules or 
components to be considered. But that is part of what we are 
going through here in this current set of meetings that are 
convening today and going through the next several weeks and 
will continue on.
    Mr. Ehlers. Is--am I correct that that is a very crucial 
component if you really want to examine the effects of low 
gravity?
    Mr. O'Keefe. Let--I am going to let Dr. Marburger comment 
here in just a second, but I am told that the approach that is 
taken depends really on the kind of experimentation you are 
looking for. And the--it essentially simulates a gravitational 
condition.
    Mr. Ehlers. Yes.
    Mr. O'Keefe. So it therefore reverses the effects of what--
--
    Mr. Ehlers. Right.
    Mr. O'Keefe [continuing]. We are trying to understand about 
living in micro-gravity conditions.
    Dr. Marburger. I will just say a technical word. The point 
of the centrifuge is to be able to tune the gravity from----
    Mr. Ehlers. Right.
    Dr. Marburger [continuing]. Zero up to some value that the 
centrifuge is capable of. The unique thing about the Space 
Station environment is it has zero gravity. We can not achieve 
that on Earth for long periods of time, so the availability of 
zero in that parameter is--already suggests a lot of 
experiments you can do, even if you can't tune all of the way 
through the spectrum of values that gravity could have.
    Mr. Ehlers. Yeah, but I assume that we already knew a great 
deal about the effects of zero gravity on humans, because we 
had the Mir Space Station and Skylab. People have been up there 
for many----
    Dr. Marburger. Not all of those experiments were designed 
to get the kind of biomedical information that you can have, 
and many of them were done in an era where we knew much less 
about how the body works. We are in a much better position 
today to understand these problems scientifically than we were 
even a few years ago. So the--I believe that one of the values 
of focusing research is, in fact, to have a much more 
deliberate progress toward understanding these effects.
    Mr. Ehlers. Can you give me an example of something that we 
can do now that we had no idea we needed to do before? I am 
just surprised we couldn't do better before.
    Dr. Marburger. Well, the way the systems of the human body 
work have benefited from these very large investments we have 
made in biomedical research for the last 10 years. And we 
understand them much better now. I might add that NASA works 
very closely with NIH in developing strategies for doing this 
work, and it would be surprising if there weren't important 
developments that we can take advantage of. But the--you know, 
the objectives of many of these past missions were not only 
focused on weightlessness issues.
    Chairman Boehlert. Thank you very much.
    And that was the final----
    Mr. O'Keefe. I am sorry, Mr. Chairman, just very short.
    Chairman Boehlert. Ten seconds.
    Mr. O'Keefe. There is the National Academy of Sciences 
study just released here on medical effects on astronauts 
that--and cosmonauts, based on the limited information we have 
there. We are only three years into continuous presence. Our 
longest duration space flight, on Station, is 196 days. That is 
it. So the cohort is pretty small in trying to make 
determinations here.
    Chairman Boehlert. Thank you very much. And I think, as we 
conclude, it should be evident to all concerned in this very 
substantive probing analysis and exchange that costs are a 
major consideration, and there is a lot of uncertainty about 
the cost. And the chart, while attractive, leaves some 
questions for all of us.
    This is not the beginning of the end, this is the end of 
the beginning, and we will have more substantive hearings, like 
this one, as we move forward together and try to identify with 
shaping of the best possible responsible policy, not just for 
NASA, but for the Nation.
    Thank you very much. Hearing adjourned.
    [Whereupon, at 12:46 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John H. Marburger, III, Director, Office of Science and 
        Technology Policy, Executive Office of the President

Questions submitted by Chairman Sherwood Boehlert

Q1.  Through its Earth Science programs NASA funds a significant share 
of the federal global change research budget. But to help pay for the 
President's exploration proposal, the NASA budget proposes to cut Earth 
Science by about three percent below the amount appropriated for the 
current year. This would mean canceling a number of projects, such as 
the Ocean Winds mission, an Ozone measuring mission, and deferring 
other projects, such as the Global Precipitation Monitor. How will 
these cuts and delays affect the implementation of the global change 
program's newly developed plan? To what extent did you consult with 
other partners in the global change research program before proposing 
these cuts?

A1. There is nearly $1.5 billion requested for NASA's Earth Science 
programs in the FY 2005 President's Budget. NASA's Earth science 
program will continue to provide key data sets and building blocks 
required for climate science and a comprehensive Earth observing 
system. Funds support new research-oriented missions to measure ocean 
salinity, carbon dioxide concentration, and aerosol concentrations in 
line with the Climate Change Strategic Plan. In addition, funds are 
provided to ensure the continuity of Landsat data, as well as test 
critical sensors on the next-generation of operational Polar orbiting 
satellites, both of which are key components of our Earth observing 
infrastructure. In the few instances where missions were deferred and/
or canceled, the decision was made that delaying the availability of 
specific data sets would not unduly impede scientific progress.
    The Global Precipitation Mission (GPM) will be deferred two years. 
This is a new data set, so there are no data continuity issues, 
although it does build on the data established from NASA's Tropical 
Rainfall Measuring Mission launched in 1997. The GPM data is expected 
to advance our understanding of the water cycle, which is why the 
Administration remains committed to the mission, as well as to 
continuing our partnership with the Japanese.
    Ocean Vector Winds, a canceled mission, was designed to ensure data 
continuity in wind surface measurement during the anticipated gap 
between the Japanese Midori II Spacecraft and the National Polar-
orbiting Operational Environmental Satellite System (NPOESS). However, 
the Midori II recently failed, and due to previous ocean wind mission 
failures, the historical data record has numerous gaps. While such 
missions provide an important variable for understanding patterns in 
weather and climate, the Administration believes that ensuring the 
near-term continuity of other parameters is of greater scientific 
importance. Systematic collection of the ocean winds data set will 
become an operational endeavor with the first flight of the NPOESS 
program in 2010.

Q2.  Much of the President's vision for space exploration begins in 
earnest after 2010, when we finish the Space Station and retire the 
Shuttle. How significant a factor were the agreements we have with our 
international partners in the Administration's decision to continue the 
Space Station even until then?

A2. Consideration of the interests of our international partners was a 
significant factor in the discussions on ISS. Several other important 
factors were considered, including the ISS's unique capabilities to 
support research on understanding and countering the impact of the 
space environment on astronaut health. The commitment to the 
international partners was acknowledged as important in the President's 
speech on January 14, 2004, when he stated, ``We will finish what we 
have started, we will meet our obligations to our 15 international 
partners on the project.''

Q2a.  If we did not have these international agreements, would the 
President have proposed completing the Space Station?

A2a. As mentioned above, the commitment to the international partners 
was an important consideration--but not the only one.

Q3.  The President's ``Vision'' document lists ``advanc[ing] security'' 
as a fundamental goal of the exploration initiative. In what ways will 
the initiative advance security? Are there any projects that will be 
designed in a particular way to further security goals? Does the goal 
of ``advancing security'' conflict in any way with the stated intention 
to make the exploration initiative an international effort?

A3. Enhanced security will be an indirect consequence of the 
implementation of the President's vision. For example, the vision 
provides focus to the civilian aerospace sector which should lead to a 
more coherent investment strategy. The vision should also stimulate 
more citizens to maintain an interest in science, math, and 
engineering. And some of the technologies developed (e.g., enhanced 
human-machine interface and robotics) should have ``spin-off'' 
applications to the national security sector. In addition, some 
development programs to support the vision may directly benefit both 
the civil and national security space sector. Such programs could 
include new heavy lift launch capability or the ability to deploy large 
arrays in space. There should be no conflict with the intention of 
making the exploration initiative an international effort. Export 
control issues will, of course, need to be addressed as they arise.

Q4.  Does it adversely affect the U.S. if other nations have humans in 
space and we don't? In what way? What advantages are the Chinese likely 
to gain from their human program other than proving they can do 
something the U.S. has already done?

A4. In the short-term, not having a human space flight program would 
have an intangible impact that would likely affect many people. That 
impact could include a sense that the U.S. had lost its technological 
leadership. The average person still views the Apollo landing as one of 
the crowning achievements of our society and an accomplishment that 
will long be identified with the U.S. In the longer-term, the loss of 
human capability in space will limit our ability to conduct more 
ambitious and complex exploration activities. Leveraging human 
cognitive ability on site with robotic and tele-operated systems is 
likely to offer the greatest reward in discovery. In terms of the 
Chinese space flight program, it's premature to predict advantages the 
Chinese are likely to gain.

Q5.  You were quoted in Science magazine as saying ``The vision has 
greater scientific significance than past missions--and science will be 
more productive with it than in its absence.'' Can you give us some 
specific examples of how the initiative will increase the productivity 
of science?

A5. The President's new paradigm will open up opportunities to explore 
and understand the cosmos that are not technically possible today. 
During the first 40 years of NASA's exploration of the solar system, 
the available technology and resources have allowed for flyby missions 
of numerous moons, asteroids, comets, and every planet except Pluto. In 
a few cases, orbital missions were executed (the Moon, Venus, Mars, 
Jupiter, and the asteroid Eros) and in even fewer cases, landings were 
made (the Moon, Venus, and Mars)--and only the Moon has had a sample 
return to date.
    During the same period, space observatories have become 
increasingly more sophisticated, opening up windows of observation that 
are impossible from the ground. Data from these facilities have 
transformed our understanding of the formation and evolution of the 
Universe.
    Further major advances in understanding the Solar System and the 
universe will likely require even more complex operations in space or 
on the surface of solar system objects. These would involve high power 
instrumentation, large area and long-duration investigation of multiple 
planetary bodies, and the possible assembly of sophisticated 
observatories.
    Such complex missions are not possible today for several reasons, 
including: the small payload mass we can affordably send into deep 
space; limitations in power due to decreasing solar flux at high 
latitudes on near planets or deeper into space; slow communications 
data rates to Earth; and the challenge of programming autonomous 
missions and controlling operations from Earth, given the large time 
delays imposed by the speed of light.
    These ``infrastructure'' issues are inter-related and their 
resolution will provide the backbone for a robust exploration agenda--
an agenda that allows for close-in examination, the ability to touch 
the item under scrutiny, and the evaluation of large area and long-term 
trends.
    The President's vision and its budget call for the deliberate 
development of the capabilities needed to open up the Universe to 
increased scrutiny. It will create new transportation options for both 
robots and humans, harness the natural resources found in space to 
foster sustainability, develop robust high power systems, improve 
communications, and build vastly more capable robots and improved 
robotic-human interfaces.

Q6.  Are there any scientific objectives related to the Moon that 
require a human presence? If not for the proposed human landing, how 
high a priority would a lunar robotic mission be? How many of these 
missions would be launched? Why have lunar missions rarely appeared as 
a top scientific goal in National Academy of Science studies or NASA's 
own plans?

A6. The President's vision calls for undertaking lunar exploration 
activities to further science, to test out new technologies and 
techniques, and to develop key capabilities to support more distant, 
more capable, and/or longer duration human and robotic missions. It may 
also be necessary to have humans on the Moon to ``oversee'' robotic 
systems involved in the construction of complex devices--whether for in 
situ resource utilization or a deep space observatory. The presence of 
humans should also enhance scientific missions as noted by the National 
Academy of Sciences over the years. For example, the Apollo rovers 
(man-piloted) typically traveled 30 km in a three-day period (average 
of 10 km per day). That was accomplished 30 years ago. Today, the Mars 
Rovers (tele-operated) travel tens of meters per day. So mobility is 
enhanced with direct human oversight. Humans are also better able to 
quickly identify anomalies in the background and focus on areas of high 
interest.
    In terms of science and exploration, the Moon has roughly the same 
surface area as the continent of Africa--yet remains largely 
unexplored. The total time that humans have spent on the surface of the 
Moon is about 300 hours--or about 12 days. Going back to the Moon will 
help to resolve open issues about the formation of the Moon, its 
cratering history (used to date events throughout the solar system), 
and the lunar bulk composition across the surface and at depth. Since 
the lunar surface has remained relatively unchanged for billions of 
years, it is also hoped that the Moon can supply important information 
on how the inner planets formed and evolved. For example, we only have 
accurate crater dates of the areas where samples were collected. These 
indicate that those regions were formed within a narrow time interval 
about 3.8 billion years ago. Extending this result to other regions of 
the Moon has important implications as to the history of these 
cataclysmic events and, by extrapolation, how it affected the Earth's 
history.
    The National Academy of Sciences Space Studies Board's recent 
report, ``New Frontiers in the Solar System: An Integrated Exploration 
Strategy,'' recommended that NASA initiate a sample return mission from 
the Moon. Specifically it advocated studying the Aitken Basin region of 
the lunar south pole which is the largest known impact crater in the 
solar system and may also represent one of the oldest and deepest 
craters on the Moon.

Questions submitted by Representative Bart Gordon

Q1.  What did the President ask you about the costs of the President's 
space initiative, and how did you respond?

A1. The President considered cost parameters; however, as you know, it 
would be inappropriate to provide details of discussions held during 
the deliberative process. The budget ``sandchart'' was considered and 
background data supporting it were developed during this process. The 
``sandchart'' delineates the distribution of the $87 billion that makes 
up the President's FY 2005-FY 2009 budget submission. It further shows 
a notional distribution of funding within NASA for FY 2010-FY 2020, 
assuming an increase to the NASA budget roughly consistent with 
inflation. The total notional budgetary estimate for NASA during FY 
2010-FY 2020 is shown on the chart as $228 billion. Of this total, 
approximately $143 billion is estimated for human and robotic 
exploration (including the CEV) and approximately $85 billion is 
estimated for the ISS, ISS transport, Shuttle, and non-exploration 
portions of NASA budget (such as aeronautics).

Q2.  In 1989, President George H.W. Bush proposed an initiative similar 
to that being proposed by his son, President Bush--returning humans to 
the Moon and eventually going on to Mars. To quote from a 1992 
Congressional Research Service report: ``At the time of President 
Bush's original speech, however, Richard Darman, Director of OMB, 
estimated that it would cost $400 billion over 30 years.'' That works 
out to about $590 billion in today's dollars.

Q2a.  Is there any reason to believe that wouldn't be a reasonable 
estimate for the cost of the President's proposed initiative?

A2a. The President's proposal presents an appropriate approach to our 
nation maintaining its leadership role in space, and the cost you 
mention is not a reasonable estimate. The budget estimate for the Space 
Exploration Initiative (SEI) assumed a particular approach to Mars 
exploration that is no longer being considered. The SEI reference 
architectures assumed extensive infrastructure and are described in the 
1989 ``Report of the 90-Day Study on Human Exploration of the Moon and 
Mars.'' In this report, NASA estimated the cost of two of the 
architectures as approximately $470 billion and $540 billion over a 35-
year time horizon. The estimated cost to establish a lunar outpost was 
about $100 billion and about $158 billion for establishing the Mars 
outpost. The rest of the budget was for further base extension and 
operations. Thus, achieving a permanent presence on the Moon and an 
outpost on Mars, without the long-term operational costs, was estimated 
at $258 billion.
    The SEI architectures assumed significantly more extensive and 
complex infrastructure than is assumed today. As two examples of major 
differences in the architectures between SEI and the President's 
proposal, consider the reference space transport infrastructure and the 
role of the Space Station. The SEI assumed that the Space Shuttle would 
continue to fly indefinitely and would be used to transport crew from 
Earth to the Space Station. In addition, a separate heavy launch 
vehicle (about 60 metric tons) would be developed to support the lunar 
missions. Yet another, even larger, heavy launch vehicle (about 140 
metric tons) would be developed to support the Mars missions. Given the 
tight time lines on the SEI, the development cost for both of these 
heavy launch systems plus the operational costs of continuing the Space 
Shuttle were concurrent expenses. Furthermore, both new launch vehicles 
required enhancement to the ground launch and production facilities. As 
a second example, consider the role of the Space Station. SEI assumed 
an evolvable space station that would be the location for on-orbit 
assembly of vehicles, serve as the transportation node, and allow for 
refurbishment of the vehicles upon their return. This envisioned space 
station would evolve through four configurations beyond assembly 
complete that would ultimately accommodate 12 permanent crew members 
plus an additional transient crew of four. It would also contain 
enclosed vehicle hangers and an assembly facility. This role for the 
Space Station is well beyond that planned in the current vision, which 
calls for focusing the Space Station on research relevant to the 
exploration initiative.
    The cost of the space initiative will be strongly dependent upon 
the architecture. To demonstrate how much the cost is dependent upon 
the specific architecture, consider the Lawrence Livermore concept 
``The Great Exploration,'' that was proposed around 1990 as an 
alternative to the SEI. The Great Exploration program provided for 
permanent bases on the Moon and Mars within ten years of initiating the 
program and with an estimated cost of $40 billion. Greater than a 
factor of ten difference in cost estimate between SEI and The Great 
Exploration was due to the assumed development, risk, and 
infrastructure.

Q2b.  Do you have a better estimate that you can share with this 
committee?

A2b. As illustrated in the answer above, cost estimates for human 
missions to the Moon and Mars are very sensitive to the architecture. 
The cost estimates are also sensitive to the timeframe chosen, since 
the initial costs of establishing a human presence on the Moon or Mars 
is only one component of the cost if along-term human presence is 
desired. For the SEI architectures described above, roughly 50 percent 
of the cost was for establishing an initial capability on the Moon and 
Mars and the remaining 50 percent was for expansion and operational 
costs. We do not yet have a defined architecture. Nor do we have a 
detailed timetable for getting to Mars. Thus estimating the cost of 
establishing a presence on the Moon and Mars (to compare with SEI) 
would involve a great deal of speculation. Much of the large range in 
costs between the estimates for SEI and The Great Exploration 
(described in the answer above) can be attributed to the very different 
mass estimates assumed. Some of the technical challenges for NASA are 
therefore to decrease the mass required to support humans (such as 
developing high efficiency life support systems), to utilize in-space 
resources to decrease mass launched from the Earth, and to lower the 
effective transportation costs (such as prepositioning cargo utilizing 
lower cost launches).
    The goal of the President's vision is, however, about more than a 
mission to the Moon and Mars. Ultimately the vision is to advance U.S. 
scientific, security, and economic interests, to explore the solar 
system and beyond, and to extend human presence across the solar 
system. The vision does not have an end date--as the President stated 
on January 14, we will continue to make progress ``one mission, one 
voyage, one landing at a time.'' As such, it is not possible to assign 
an ``overall cost'' to the vision. The strategy, instead, is to 
maintain a stable budget for NASA to enable long-term planning and to 
be responsive to both challenges and opportunities not yet understood. 
The emphasis shifts from budgeting to reach a specific destination, and 
instead, seeks to maximize the progress and opportunities given a 
specific budget. Unlike previous major civil space initiatives, the 
approach is intentionally flexible, with adjustable exploration 
milestones to maintain affordability. This approach places a premium on 
avoiding balloon payments for future Congresses, Administrations, and 
taxpayers.

Q3.  How much do you estimate it will cost to achieve a human lunar 
landing by 2020, and what assumptions are included in that estimate?

A3. The human lunar landing is only one element of the new vision, so 
it is difficult to try to extract the costs of that one milestone from 
the overall cost of the vision. Should the development of a new heavy-
lift launch vehicle--one that would also be useful for a Mars mission 
and potentially for future commercial or defense missions--be included 
in the cost estimate for a first human lunar landing? Should the lunar 
robotic missions that conduct science and explore as they set the stage 
for human landings be included? What about the technology development 
that enhances the capabilities of those robots?
    In response to Congressional inquiries, NASA did attempt to 
determine what the cost of a human lunar mission would be, through 
2020, if conducted in a mode similar to the Apollo program. That 
estimate is $63 billion. However, that estimate does not reflect new 
architecture studies or design analysis. Nor does it include potential 
benefits from new technologies or innovative approaches yet to be 
undertaken. It also does not include the robotic precursor missions 
that will do science and perform risk reduction activities applicable 
to the broader exploration vision. The estimate assumes:

        <bullet>  Lunar lander ($12 billion)--based on similar Apollo 
        lunar lander.

        <bullet>  Launch vehicle ($15 billion)--assumes development and 
        production of a new 100-mT Saturn V-class vehicle. Estimate 
        based on scaling EELV parametrically is $13 billion. Similarly, 
        recent Marshall Spaceflight Center studies estimate $2-13 
        billion development depending on number of new engines, stages, 
        and facilities. Approximately $3-4 billion of total is for 
        production.

        <bullet>  Crew Exploration Vehicle development and operations 
        ($24 billion)--this includes $15 billion for development and $9 
        billion for operations.

        <bullet>  Operations ($10 billion)--first landing by 2020. 
        Costs comparable to Apollo.

        <bullet>  Other ($2 billion)--funding available for follow-on 
        mission hardware and reserves.

Questions submitted by Representative Nick Lampson

Q1.  In order to fund the President's initiative, cuts, deferrals, and 
cancellations will be made to a wide range of NASA programs.

Q1a.  Did you offer to make such cuts in order to fund the President's 
initiative, or were you directed to make such cuts? If the latter, who 
directed you to make them?

A1a. NASA, working with OMB, used the new vision to prioritize ongoing 
activities and to fit within a top-level agreed upon budget. Some near-
term decisions were readily apparent (e.g., canceling the Orbital Space 
Plane) while others are still being assessed (e.g., specific research 
projects within the Office of Biological and Physical Research). The 
new vision provides the needed context to assess the relative priority 
of projects and to make difficult, yet necessary, decisions. In most 
cases, the impact on the science missions was negligible. In the few 
cases (e.g., the proposed dark energy probe), OSTP is working directly 
with OMB and NASA to reduce the impact.

Q1b.  Why are the science and aeronautics programs that have been cut, 
deferred, or canceled considered a lower priority than the President's 
Initiative?

A1b. The space exploration vision provides the overarching focus for 
the civil space exploration program. Research efforts that do not 
directly support enabling the vision remain important and have been 
appropriately prioritized. In a fiscally constrained environment, hard 
choices need to be made to ensure that sufficient resources are 
available to execute the primary vision, as well as the important 
science projects. This is a hallmark of leadership. Furthermore, only a 
handful of current science programs have been cut, deferred, or 
canceled. No aeronautics programs were cut as a result of the new 
vision. The majority of the cuts have come from within the human space 
flight portfolio and much of the remainder is from slowing the rate of 
growth in the budgets.

Questions submitted by Representative Mark Udall

Q1.  In your written testimony, you cite the failure of the NRC's 2001 
Decadal Survey to recommend new missions in the Hubble wavelength 
regime as a scientific rationale for not pursuing the SM-4 HST 
servicing mission. However, isn't it true that the Decadal Survey 
assumed that the Hubble Space Telescope would continue to operate until 
the end of this decade and that it endorsed NASA's decision to continue 
HST operations through this decade? If this is true, why do you cite 
the Decadal Survey?

A1. The Decadal Survey did assume that Hubble would continue to operate 
until the end of this decade. This point was mentioned in my written 
testimony where I stated, ``The committee wrote its report assuming the 
SM-4 service mission would take place, but its statements regarding the 
evolving role of the Hubble relative to other priorities are important 
in the present discussion about risk versus benefits.'' My point in 
citing the National Research Council was to highlight that the future 
space science objectives were shifting to other wavelength regimes. 
This is relevant when objectively evaluating the benefit with the risk. 
I am pleased that the National Academy will specifically address the 
Hubble servicing issue, and I look forward to their assessment of 
options and recommendations.

Q2.  What countries have been approached about their willingness to 
participate in the new human space flight vision? What have their 
reactions been? What additional countries do you intend to approach? 
What is the U.S. government's current position on whether China is 
eligible to participate in significant human space flight activities 
with NASA? Would you in fact welcome China's participation in this 
initiative?

A2. In announcing the Space Exploration Vision, President Bush said: 
``The vision. . .is a journey, not a race, and I call on other nations 
to join us on this journey, in a spirit of cooperation and 
friendship.'' Following up on this invitation, NASA has initiated a 
dialogue with the current International Space Station partnership 
consisting of 15 foreign countries. While this dialogue is only 
beginning, many of the partners have indicated a great deal of 
enthusiasm and interest in participating in executing this long-term 
vision. Participation in executing the vision is not limited to the 
Space Station partners alone. The participation of each country, 
including China, will be evaluated on an individual basis, taking into 
account both the experience of the country and the bilateral 
relationship.

Q3.  What is the scientific rationale for the President's initiative? 
How much of that rationale will be satisfied by planned robotic 
missions, and how much will require human explorers? From a scientific 
standpoint, what objectives specifically require human explorers?

A3. The President's new paradigm will open up new opportunities to 
explore and understand the cosmos that are not technically possible 
today. During the first 40 years of NASA's exploration of the solar 
system, the available technology and resources have allowed for flyby 
missions of numerous moons, asteroids, comets, and every planet except 
Pluto. In a few cases, orbital missions were executed (the Moon, Venus, 
Mars, Jupiter, and the asteroid Eros) and in even fewer cases, landings 
were made (the Moon, Venus, and Mars)--and only the Moon has had a 
sample return to date.
    During the same period, space observatories have become 
increasingly more sophisticated, opening up windows of observation that 
are impossible from the ground. Data from these facilities have 
transformed our understanding of the formation and evolution of the 
Universe.
    Further major advances in understanding the Solar System and the 
universe will likely require even more complex operations in space or 
on the surface of solar system objects. These would involve high power 
instrumentation, large-area and long-duration investigation of multiple 
planetary bodies, and the possible assembly of sophisticated 
observatories.
    Such complex missions are not possible today for several reasons, 
including: the small payload mass we can affordably send into deep 
space; limitations in power due to decreasing solar flux at high 
latitudes on near planets or deeper into space; slow communications 
data rates to Earth; and the challenge of programming autonomous 
missions and controlling operations from Earth, given the large time 
delays imposed by the finite speed of light.
    These ``infrastructure'' issues are inter-related and their 
resolution will provide the backbone for a robust exploration agenda--
an agenda that allows for close-in examination, the ability to touch 
the item under scrutiny, and the evaluation of large-area and long-term 
trends.
    The President's vision and its budget call for the deliberate 
development of the capabilities needed to open up the Universe to 
increased scrutiny. It will create new transportation options for both 
robots and humans, harness the natural resources found in space to 
foster sustainability, develop robust high power systems, improve 
communications, and build vastly more capable robots and improved 
robotic-human interfaces.
    The vision does not artificially separate the role of humans and 
robots in enabling this new capability--but assumes that the strengths 
of each will be used to achieve the stated mission.

Questions submitted by Representative Zoe Lofgren

Q1.  In NASA's document ``The Vision for Space Exploration,'' the goal 
of the President's initiative is stated as follows: ``The fundamental 
goal of this vision is to advance U.S. scientific, security, and 
economic interests through a robust space exploration program.'' I am 
very confused by the wording of your statement. You do not refer to 
U.S. geo-political interests, which motivated President Kennedy and the 
Apollo program. You do not refer to U.S. diplomatic interests, which 
motivated President Clinton to reach out to Russia as a partner in the 
International Space Station. You refer--repeatedly--to U.S. security 
interests. For those of us committed to the peaceful explorations and 
uses of outer space, this language is troubling.

Q1a.  Please explain how this new space vision will contribute to the 
security interests of the United States. Please be specific and try to 
avoid general statements about how the initiative will have undefined 
economic spin-offs.

A1a. The Space Exploration Vision as outlined by President Bush is a 
civil initiative but has the potential to enhance U.S. national 
security also. The implementation of the vision will contribute to U.S. 
scientific and technological leadership; inspire more citizens to study 
science, math, and engineering; and will likely advance robotics, 
human-machine interface, applications of nanosystems, and other 
technologies that are likely to have ``spin-off' applications to 
national security and commercial enterprises.
    Meaningful cooperation with other countries in executing the vision 
also will contribute to advancing U.S. foreign policy interests. 
Further, the inspiration provided by space exploration has a profound 
positive impact on the hearts and minds of people around the world.

Q1b.  Will the Department of Defense be involved in the Moon-Mars 
initiative? If so, how?

A1b. The space exploration vision is an inherently peaceful scientific 
endeavor. In executing the vision, NASA will cooperate with the 
Department of Defense in the development and use of space 
transportation capabilities--particularly the Evolved Expendable Launch 
Vehicles--and will continue to rely on the Department of Defense's 
space tracking and surveillance capabilities.

Q1c.  Can you give me your commitment that this new initiative will not 
contribute in any way to the placement of weapons in space?

A1c. The space exploration vision is an inherently peaceful scientific 
endeavor.

Question submitted by Representative Brad Sherman

Q1.  According to NASA's budget plan, the President's exploration 
initiative is estimated to cost close to $200 billion over the next 15 
years, with more costs incurred after that time. Why is this investment 
better than investing the same amount of money in energy R&D, with the 
goal of making the U.S. energy independent? Which of the two 
alternative investments do you think would deliver a greater benefit to 
the American economy and to overall societal goals?

A1. Both space exploration and energy R&D are important issues and both 
will return different benefits to the American economy and to society 
in general. The President's FY 2005 budget includes the resources 
necessary to aggressively pursue both topics in a manner that is 
prudent and sustainable.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration

Questions submitted by Chairman Sherwood Boehlert

Q1a.  Please provide the key milestones (e.g., Systems Requirements 
Review, Preliminary Design Review, Critical Design Review, etc.) along 
with associated dates through the first launch for the following 
initiatives: the lunar robotic mission planned for 2008; and

A1a. The details of these missions are still being developed, but here 
is a preliminary schedule thus far:

Lunar Reconnaissance Orbiter (LRO)

    Release of AO for payload    06/04

    Receipt of Proposals for Peer Review    09/04

    Payload Selection    11/04

    Begin Phase A/mission definition    01/05

    Systems Requirements Review    03/05

    Preliminary Design Review    05/05

    Critical Design Review/Confirmation    04/06

    LRO Pre-Ship Review    07/08

    LRO Launch Readiness Review    09/08

    LRO Launch    10/08

    Arrival at Moon    10/08

    Nominal Measurement Mission    11/08-12/09

    (+ goal of up to five-year extension)

    The first human mission to the Moon is currently planned for the 
2015-2020 timeframe. This mission is highly dependent upon the outcomes 
of our robotic missions and the development of the Crew Exploration 
Vehicle; therefore, it is too early in the process to provide details. 
NASA will of course keep the Committee apprised of our progress toward 
this goal.

Q1b.  Please provide the key milestones (e.g., Systems Requirements 
Review, Preliminary Design Review, Critical Design Review, etc.) along 
with associated dates through the first launch for the following 
initiatives: the human mission to the Moon, including but not limited 
to the Crew Exploration Vehicle, planned for 2015.

A1b. The Office of Exploration Systems is formulating the acquisition 
plan for the elements of Project Constellation. The following 
milestones represent significant events in the next ten years towards a 
human Lunar mission as early as 2015. These milestones are for planning 
purposes only.

June 2004--Two Broad Area Announcements (BAA) for (1) Technology 
        Maturation and (2) Concept Exploration and Refinement of the 
        Lunar Architecture.
September 2004--Release first draft of Level I Requirements
January 2005--RFP for CEV Design, Development, and Flight 
        Demonstrations
2006--CEV Program Initiation
2008--CEV Risk Reduction Flight Demonstration
2008--CEV Design Review--Select CEV Prime Contractor
2011--CEV Unmanned Flight Demonstration
2014--CEV Manned Flight

Q2.  What alternatives exist or could be developed, if any, to the 
Soyuz capsule for crew-escape on the Space Station by 2006? If there 
are none, does the Administration believe a legislative change to the 
Iran Nonproliferation Act is necessary? If not, please explain the 
circumstances under which the Administration plans to acquire Soyuz 
capsules in 2006? If a legislative change is necessary, when does the 
Administration plan to propose such changes and what is the latest date 
by which Congress will need to act?

A2. At this time, NASA has not identified any alternatives to the Soyuz 
capsule for crew-escape on the Space Station by 2006. NASA and the 
Administration are aware of the provisions of the Iran Nonproliferation 
Act and will work with the Congress to ensure that our strategy for 
procuring additional Soyuz capsules anytime in the future is sound and 
meets all statutory requirements. The Administration is developing its 
approach at this time.

Q3.  If the Space Shuttle must be operated beyond 2010 for any reason, 
does NASA plan to abide by the recommendation of the Columbia Accident 
Investigation Board and re-certify that it is safe to fly?

     What does steps would recertification involve and how much would 
it cost?

     Does either of NASA's five-year or 20-year budget projection 
include funds to pay for re-certification?

A3. Yes, NASA intends to implement the recommendations of the Columbia 
Accident Investigation Board. NASA is currently reassessing the ISS 
assembly sequence to ensure that the Shuttle can be safely retired 
following assembly of the International Space Station, planned for the 
end of the decade. To prepare for the contingency that the Shuttle may 
need to operate beyond 2010, NASA is assessing the need to recertify 
Space Shuttle systems, subsystems, or components consistent with the 
Vision for Space Exploration and in line with the recommendations of 
the Columbia Accident Investigation Board. The technical work required 
to determine when and if recertification would be needed will continue 
into this summer. Once the technical definition of the recertification 
tasks is completed, cost estimates will be developed on the items we 
need to recertify and made available for discussion. NASA's budget does 
not include funds to pay for re-certification.
    The budget does, however, include some funding to address safety-
enhancing upgrades and maintenance-related component and/or subsystem 
recertification.

Q4.  How much does NASA estimate the first mission will cost and are 
funds for these subsequent missions included in the budget projection 
NASA provided through 2020? Ref. Robotic Mission to Moon, human 
missions to Moon. Does the projection include funds for a lunar descent 
stage and ascent stage on the first human mission to the Moon? Does the 
projection include funds for a base of any kind on the Moon or any 
other infrastructure?

A4. NASA is committed to realizing the Vision for Space Exploration 
without substantial augmentation of NASA's existing budget. More 
importantly, NASA will organize its exploration program so that it does 
not require major new commitments of funding in future administrations. 
By leveraging technologies that already exist, and emphasizing 
demonstrated performance, NASA will ensure that investments directly 
lead to mission success.
    Mission architecture assessments are currently in work to provide 
input to the development of Level I mission requirements that will be 
released in draft form in September 2004. These Level I Requirements 
and the acquisition plan for developing the element of Project 
Constellation are critical to the detailed assessment of cost. Budget 
estimates for planning purposes include multiple robotic and human 
missions as well as possible Lander, Descent, and Ascent Stages.
    NASA is adopting an approach to vehicle and systems development 
based on the Defense Department's ``spiral development'' model. This 
approach emphasizes the use of existing technologies and the 
incremental demonstration of performance. By focusing research and test 
programs on rapid deployment of technologies that can be evolved, NASA 
will ensure that it is focused on the capabilities that are most 
critical to exploration rather than the most comprehensive designs that 
are possible. NASA's exploration programs will also employ management 
techniques such as earned value management, which will ensure that 
costs are allocated based on strict planning geared towards national 
priorities. Through the combination of these techniques and a 
commitment to managing requirements within budget guidelines, NASA will 
make the hard choices needed to realize the Vision for Space 
Exploration.

Q5.  In response to questions from Congressman Bart Gordon, NASA said 
the Space Station research program is being re-focused on overcoming 
the limits to crew survivability in space due, for example, to 
radiation and bone loss. NASA said the budget for this program is 
roughly $550 million for fiscal year 2004 and will decline to $427 
million by 2009.

Q5a.  What is included in these estimates and how did NASA develop 
these estimates before developing the program's agenda?

A5a. The year-by-year ISS research funding through FY 2009 referenced 
in the question is an estimated projection of the ISS Research 
Capabilities (ISSRC) budget through FY 2009. On completion of our 
pending exploration replanning, we will realign the ISSRC budget to 
complement the replanning.
    Our replanning estimates include the following assumptions: (1) we 
will de-emphasize fundamental research, broadly targeted long-range 
research and commercially driven research that does not support the 
priorities. We recognize, however, that some broad-based fundamental 
research must continue to be a part of our research portfolio, albeit a 
significantly smaller portion than before, as it invariably results in 
unanticipated breakthroughs that can contribute to the Vision for Space 
Exploration; (2) our review of the existing portfolio and plans for 
changes to that portfolio has begun internally, but as we progress we 
will seek the advice of representatives from our research community, 
such as through our Biological and Physical Research Advisory Council, 
the Institute of Medicine, and the National Research Council.

Q5b.  Why does the amount of funding decline over time?

A5b. As outlined in NASA's letter to the Committee dated April 7, 2004, 
the Biological and Physical Research Enterprise (BPRE) is continuing to 
examine the Enterprise research portfolio and current plans for U.S. 
research on the International Space Station (ISS), with the intent to 
specifically emphasize research projects that most directly advance the 
Vision for Space Exploration.
    BPRE expects to make specific decisions regarding existing and 
future research areas, including each of the U.S. facilities planned 
for the ISS, in the coming weeks. The Enterprise expects to continue to 
manifest many planned facilities. BPRE also expects to terminate and/or 
stop work on some activities, including the development and/or 
manifesting of selected research facilities, if it is determined that 
the activities do not contribute significantly to the Vision for Space 
Exploration, especially given the limitations on access to ISS during 
remaining assembly. In some cases, decisions will affect rack-level 
facilities, in other cases; decisions will involve multi-user 
``inserts'' that are placed inside rack-level facilities, or 
experimental pieces within these inserts. In all cases, it is the 
intent of BPRE to provide a logical transition strategy and funding for 
the investigators and students who are impacted by these changes. At 
this time, this action is anticipated to conclude the flight hardware 
terminations derived from the BPRE reprioritization effort, and is 
expected to affect approximately three percent of planned FY 2004 BPRE 
funding. Following determination of relevant termination costs from 
these pending decisions, BPRE may propose changes in a future Operating 
Plan update that would redirect residual funds toward higher-priority 
research.

Q6.  Please provide the facts and analysis used in making the decision 
to cancel future servicing missions to the Hubble Space Telescope.

A6. The difficult decision to not proceed with an HST servicing mission 
using the Space Shuttle was made after careful review of risk issues 
following the tragic loss of the Columbia Space Shuttle and crew. The 
safety recommendations of the Columbia Accident Investigation Board 
were used as our guide, along with our progress in meeting the 
recommendations in our return-to-flight activities. NASA is now 
challenged by safety constraints that are more difficult to address at 
the orbit of the HST than at the orbit of the International Space 
Station. They include the ability to inspect and repair the thermal 
protection tiles of the Space Shuttle while on orbit, the ability to 
provide a place of refuge for the astronauts, and the ability to have a 
second Space Shuttle ready to launch should a rescue mission be needed. 
When all factors were considered, the combined risk was deemed to high. 
While space flight always carries risk, reasonable precautions must be 
taken to protect our astronauts.
    NASA is proud of the amazing accomplishments of the HST mission. 
The HST has met or exceeded all scientific expectations, and has 
provided the scientific community with a large archive of data that 
will continue to be maintained for many years, providing a rich source 
of new scientific discoveries and results. NASA is now working hard to 
find ways to extend the life of the space telescope for years beyond 
its planned minimum lifetime of 15 years, even without a Shuttle 
servicing mission. Furthermore, NASA is now eagerly studying and 
considering a robotic mission to service Hubble. Such a mission could 
extend Hubble's mission even beyond the end of the decade.

Q6a.  What plans does NASA have for the instruments developed for the 
next Hubble servicing mission?

A6a. If we are indeed able to do a robotic servicing mission, then some 
of the components of SM-4 might still be used.

Q7.  Some scientists have said that perhaps the most valuable research 
component of the Space Station is the Centrifuge, but it has 
experienced long delays and technical setbacks.

Q7a.  When does NASA expect to fly the Centrifuge to the Space Station?

A7a. Delivery of the CAM to Kennedy Space Center is currently planned 
to support a launch to the ISS no earlier than November 2008. We are 
planning to fly the Centrifuge well before the Space Shuttle is retired 
in 2010. On July 29, 2003, NASDA President Yamanouchi confirmed Japan's 
commitment to provide a fully capable Centrifuge on a mutually agreed 
schedule that takes into account Centrifuge launch delays as a result 
of the Columbia tragedy.

Q7b.  If it cannot be flown before the Space Shuttle is retired, does 
NASA have any backup plans to conduct the research it would have 
performed?

A7b. NASA has identified six alternatives to the CAM, in the event the 
Space Shuttle is retired prior to completion of the facility:

Proceed with animal studies on ISS at Microgravity only, as a worst 
        case and assuming fractional gravity will be less harmful

Rely on cellular/tissue studies in smaller scale centrifuges on ISS

Increase reliance on human test subjects on ISS

Design/build NASA centrifuge for ISS

Develop and utilize free flyers

Use the Moon as a research base or develop Moon-based CAM

    We are committed to studying these alternatives, although many of 
them may not be affordable to implement. The optimal combination in the 
absence of the CAM is currently under evaluation. Even with the pursuit 
of these alternatives, the CAM still provides unique capabilities:

Ability to simulate a full Mars mission, including (1) long duration 
        microgravity, followed by a period of time at 3/8 gravity; (2) 
        followed by more long duration microgravity during which we can 
        test bone loss, immunology, and other reactions to gravity 
        changes.

In situ dissections and detailed anatomy, physiology after exposure to 
        fractional gravity. This information is needed to determine the 
        mechanisms of the observed changes and guide the development of 
        new countermeasures.

Q7c.  Would it be possible to develop and fly a Centrifuge as a free 
flying platform to perform that research?

A7c. NASA is currently engaged in studying the free flyer option. Thus 
far our studies indicate that free flyers could be an early complement 
to ISS research using small diameter centrifuges with automated 
procedures for cells and small organisms to be studied at fractional 
gravity. However, on-orbit sampling and dissections are required to 
answer key questions regarding de-conditioning and adaptation effects, 
countermeasure efficacy and interactions. Without sampling and 
dissections we do not obtain insight into anatomy or biochemistry, and 
little physiology. Cost and time for full program will likely exceed 
that of the CAM.

Q8.  Without the Space Shuttle after 2010, NASA will have to find other 
ways of delivering cargo to the Space Station as well as bring back 
experiments to Earth.

Q8a.  What are NASA's plans for cargo delivery and cargo return after 
2010?

A8a. NASA is developing an integrated ISS cargo delivery and return 
strategy consistent with the Vision for Space Exploration and existing 
law and policy. NASA is refining ISS cargo and crew rotation 
requirements based on the Vision and considering a full range of 
domestic and International Partner transportation options including:

U.S. commercial capabilities;

ISS partner assets such as the European Automated Transfer Vehicle, 
        Japanese Transfer Vehicle, and Russian Progress and Soyuz 
        vehicles;

Capabilities under definition in the NASA Constellation Program when 
        available.

Q8b.  How much funding has NASA assumed it will need to develop or 
purchase this capability?

A8b. The FY 2005 budget establishes a new line item in the ISS Program 
for ISS to provide for launch, delivery and return to Earth services 
for ISS crew and cargo.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q8c.  When does NASA expect to make a decision on how to proceed?

A8c. There are unique challenges associated with each of these access 
options. NASA expects to have a preliminary strategy to discuss with 
Congress in June 2004.

Q9.  The proposed plan calls for the Space Shuttle to retire in 2010, 
yet the Crew Exploration Vehicles first flight with humans on-board 
won't occur until 2014. Therefore, between 2010 and 2014 the U.S. will 
have no way to fly humans to space. During the same period, we plan to 
have astronauts on the Space Station and we will have to provide a 
means both for crew transport and crew rescue in case of an emergency.

     How will crews be transported back and forth to the Space Station 
between 2010 and 2014? Will they have a crew rescue vehicle during this 
time?

A9. NASA is evaluating the manifest for all flights to the 
International Space Station. We are conducting the evaluation based on 
the Vision for Space Exploration, and on Station assembly, logistics, 
maintenance, and utilization requirements. We will complete the 
evaluation this summer. The evaluation will also include a review of 
available and proposed domestic and international vehicles for crew 
applications.
    The Space Shuttle and Soyuz spacecraft are currently the only 
vehicles safety rated to transport crews to and from the ISS. NASA will 
evaluate use of the new Crew Exploration Vehicle for this purpose when 
it becomes available and will continue to work with the private sector 
and our International Partners to safely meet crew and logistics 
requirements.
    There will always be a crew rescue vehicle docked to the ISS when 
the orbiting laboratory is occupied. The Soyuz spacecraft is currently 
the only vehicle capable and rated for crew rescue. NASA is working 
with our international partners to ensure adequate Soyuz spacecraft are 
available for safe ISS operations. The issue is being worked across the 
Partnership.

Q10.  How many Shuttle flights are necessary to complete the Space 
Station?

A10. NASA currently anticipates that it will take between 25-30 Shuttle 
flights to complete the ISS.

Q10a.  How much slack, if any, is there in the current Shuttle manifest 
to complete the Space Station by 2010?

Q10b.  If the Shuttle manifest through 2010 is not known, on what 
grounds did NASA conclude that the Space Station can be completed by 
2010?

A10a&b. NASA is evaluating the current manifest for flights to the ISS 
in light of the Vision for Space Exploration. The ISS assembly sequence 
and final configuration are being examined, as are the complement of 
currently available and proposed domestic and international vehicles 
that are capable of delivering crew and cargo to and from the ISS, and 
the predicted Shuttle return to flight date. This evaluation, which 
will factor in the historic turn-around time between Shuttle flights, 
is expected to be complete in the summer and will provide a better idea 
of how many Shuttle flights will be needed to complete assembly of the 
ISS. NASA plans to trade ISS requirements against launch capabilities 
to ensure that the Shuttle can be operated safely and the ISS assembly 
can be completed by the end of the decade, consistent with the Vision 
for Space Exploration.

Q11.  Please explain how NASA plans to implement this portion of the 
new policy (``pursue commercial opportunities for providing 
transportation and other services supporting the Space Station and 
exploration mission beyond low-Earth orbit'')?

A11. NASA will explore opportunities to utilize commercially developed 
and operated systems to the maximum extent possible to support the 
logistics infrastructure of the ISS and other exploration systems. 
Commercial systems, including launch, communications, and other end-to-
end support services, will be integrated into the overall logistics 
planning as they are developed.

Q12.  The FY 2005 budget shifts Project Prometheus, NASA's program to 
develop nuclear powered propulsion for spacecraft, to the newly created 
Exploration Enterprise, and it delays, by several years, the launch of 
the Jupiter Icy Moons Orbiter.

      What is the reason for the delay?

A12. A major reason for the delay is that NASA needs some time to 
analyze how investments in Prometheus and the Jupiter Icy Moons Orbiter 
(JIMO) can be leveraged to support the Vision for Space Exploration. To 
meet future space exploration needs, we expect that a more detailed, 
wider ranging analysis, and possibly more extensive development of 
advanced nuclear power and propulsion systems will be required--beyond 
that originally envisioned when Project Prometheus and JIMO were 
formulated last year. Such analyses and potential future capability 
development includes, but may not be limited to:

Power and propulsion for advanced robotic missions after JIMO;

Potential surface power for human missions to the Moon and Mars; and

Power and propulsion for the transit of human missions to Mars or other 
        destinations.

    To aid in this analysis, NASA has asked the National Research 
Council to advise NASA regarding (a) scientific goals and missions that 
may be enabled uniquely by nuclear power and propulsion technology and 
(b) the engineering aspects of the missions identified.
    The decision to delay JIMO was also made in light of the need to 
craft a credible and responsible NASA budget. Over the next few years, 
NASA will be returning the Space Shuttle to flight, completing assembly 
of the International Space Station, beginning development of a new crew 
transport system, and conducting vigorous space science, Earth science, 
education, and aeronautics programs. The previous schedule for 
Prometheus was unaffordable without making large cuts to these other 
priorities.

Q13.  The President's plan calls on NASA to ``pursue opportunities for 
international participation to support U.S. space exploration goals.''

Q13a.  How and when does NASA plan to engage the international 
community on its exploration plans?

A13a. NASA has begun informal preliminary discussions with potential 
partners and has heard positive reactions thus far. With the recent 
release of the ``President's Commission on Implementation of United 
States Space Exploration Policy'' (Aldridge Commission) provides its 
advice on international cooperation, NASA will move ahead with pursuing 
international cooperation.

Q13b.  Will NASA develop the plan and then invite international 
partners to participate, as was done on the International Space 
Station, or does NASA plan to involve the international partners in the 
formulation of the project?

A13b. We expect there will be a mix of approaches based on the specific 
needs of individual programs. In many exploration missions that focus 
on science, there is already substantial international cooperation 
which begins in the early stages of a program.

Q13c.  China launched its first astronaut last year. Will NASA seek 
participation from China or allow China to participate?

A13c. No country, including China, has been excluded from participation 
at this stage. If Chinese participation advances the goals of the 
vision and is consistent with broader U.S. policy objectives, NASA will 
consider it at the appropriate time.

Q14.  Does NASA plan to use existing launch systems, such as the Atlas 
5 and Delta 4, to implement any aspect of the President's initiative 
for human space flight or will it require the development of a larger 
``heavy-lift'' system?

A14. NASA is developing architectures and requirements necessary to 
implement the Vision for Space Exploration. NASA plans to continue to 
utilize a Mixed Fleet Launch Strategy to meet space launch 
requirements, relying on both domestic and international launch 
capabilities. As part of the ongoing internal trade studies, 
capabilities of existing systems, such as the Atlas V, Delta IV, and 
partner systems, are being considered, as well as contractor-proposed 
vehicle enhancements to performance and reliability. Ideas for meeting 
the to-be-defined space transportation requirements are also being 
offered by emerging domestic companies.

Q14a.  If the answer has not yet been determined, when does NASA expect 
to have the information to make that decision?

A14a. NASA expects to have initial human space flight exploration 
requirements and a flexible architecture defined within the next 12 to 
18 months. Over the next 12 months, NASA will develop a roadmap that 
identifies when key decisions need to be made on investments, including 
any future launch enhancements/developments, which will be included in 
future updates to the NASA Integrated Space Transportation Plan.

Q14b.  Do NASA's five- and 20-year budget projections assume it will be 
able to use existing vehicles or do they include the development of a 
new heavy-lift launch vehicle?

A14b. The President's proposed budget for NASA was designed to be 
sufficient to allow the execution of the Vision for Space Exploration, 
whether or not a new heavy lift launch vehicle is required. NASA is 
currently defining detailed program requirements, which will determine 
the necessity of such things as a new heavy lift vehicle. This 
information will be used as part of the FY06 budget planning process.

Q15.  Does NASA expect to have anything other than full and open 
competitions for any contracts involving the Crew Exploration Vehicle? 
If not please explain.

A15. NASA plans only full and open competitions for the CEV, starting 
with Broad Area Announcements (BAA) in June 2004 and an RFP in January 
2005. NASA plans to maintain competition through flight demonstrations 
in 2008.

Q16.  In response to questions from Congressman Bart Gordon, NASA said 
that a decision about the U.S. government's role in the Space Station 
will not be made until the middle of the next decade. However, NASA's 
budget projections through 2020 show that it no longer plans to support 
the Space Station after 2016.

      Why does NASA's budget projection make an assumption that NASA as 
a whole appears unable to make?

A16. The 2016 budget projection for the Space Station was based on a 
fifteen-year operating life after the deployment of the U.S. Laboratory 
and predates the Vision for Space Exploration. The ISS end of service 
life was documented in the Cost Analysis Requirements Description 
(CARD) approved in May 2002, and will be updated as requirements for 
on-orbit research evolve over the life of the program. This is 
consistent with the response provided to Congressman Gordon.

Q17.  Are Return-To-Flight (RTF) activities budgeted and managed as a 
separate line within the Space Shuttle account?

A17. Although Return-to-Flight (RTF) activities are not budgeted as a 
separate line item, NASA does manage these funds separately. RTF 
activities are approved for implementation by the Space Flight 
Leadership Council and managed by the Space Shuttle Program 
Requirements Control Board (PRCB).

Q17a.  If not, what are the criteria for determining which activities 
should be included in the breakdown of cost estimates provided to the 
Committee for RTF?

A17a. NASA bases the RTF estimates provided to the Committee on the 
corrective actions necessary to address the CAIB recommendations, as 
well as other ``raising the bar'' initiatives, after they have been 
reviewed and approved by the PRCB.

Q17b.  NASA produced the initial RTF cost estimate on October 10, 2003, 
and provided revised estimates to the Committee on November 17, 2003, 
and January 30, 2004. Please explain the reason for the increased 
estimates for these costs, including details about the assumptions and 
the technical content that have changed. What is the basis of estimate 
for these costs?

A17b. The costs to address RTF activities have increased as new tasks 
have been approved, the scope of work for previously approved tasks has 
increased, and/or cost estimates have been refined. Although there is a 
greater level of technical maturity for RTF activities, engineering 
requirements are still evolving. Cost estimates therefore remain 
dynamic, and are still under evaluation. As appropriate and depending 
on data available, estimates are based on cost relationships derived 
from previous cost histories, cost analogues for similar work, or 
engineering estimates for components of unique activities, including 
studies, design efforts, development, production, integration, 
certification, verification, implementation and retrofit.

Q17c.  Please provide the five-year runout for RTF activities included 
in the FY05 budget.

Q17d.  Please provide a breakdown of the current estimate for RTF 
costs, if different than the FY05 budget levels.

A17c&d. 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q17e.  What affect does the recent schedule slip for RTF to March 2005 
have on RTF costs?

A17e. NASA is reassessing the RTF technical, schedule, and cost 
requirements as part of the FY 2006 budget formulation process. Revised 
cost estimates will be shown in the periodic releases of the NASA's 
Implementation Plan for Space Shuttle Return to Flight and Beyond, or 
through separate correspondence if significant changes are realized 
prior to a scheduled RTF plan update.

Q18.  NASA's briefing materials include funding for the NASA 
Engineering and Safety Center (NESC) along with its RTF cost estimates, 
however, NESC is paid for through General and Administrative (G&A) 
accounts.

      Why is NESC funding displayed as part of RTF costs?

A18. NASA has displayed costs associated with the NESC separately from 
RTF costs, and identified as ``Other RTF Related.'' Please note that 
funding for NESC is not included in the totalization of RTF costs 
because the NESC provides comprehensive engineering and safety 
assessment of all NASA programs and projects, including the Shuttle. In 
fact, only a portion of the NESC costs in the first six months of its 
existence have been applied to the assessment of Shuttle technical 
problems. However, it is fully anticipated that a significant 
percentage of NESC expenditures in the first several years will be 
devoted to Shuttle technical problem assessment. Consequently, NASA 
elected to display costs associated with the NESC separately from total 
RTF costs for information and to acknowledge other sizable investment 
efforts that are direct outcomes of the Columbia tragedy.

Q19.  Does NASA's budget projection through 2009 assume maintenance and 
operation of NASA's current level of infrastructure?

A19. No. NASA's budget projections for infrastructure repair, 
maintenance and operation are based on our known infrastructure needs 
at the time of the projections. Many facilities have been or are 
planned to be mothballed or put on ``standby.'' In addition, NASA has 
allocated $10 million per year for FY04 through FY 2007 for facilities 
demolition to remove older, excess facilities from our infrastructure 
base. And we are also planning to lease out under-utilized facilities 
to the extent possible, especially through our recent Enhanced Use 
Leasing demonstration authority. We are also implementing an innovative 
Reliability Centered Maintenance concept at our Centers to increase 
facility maintenance efficiency. All those actions help to reduce 
infrastructure costs, however, NASA's infrastructure continues to age, 
and maintenance and repair costs for remaining infrastructure continue 
to rise. NASA is committed to ensuring that our facilities are of the 
right type and size, are safe, secure, and environmentally sound, are 
quality workplaces, and are affordable.

Q19a.  Does NASA have any plans to review its infrastructure?

A19a. Yes, NASA has plans to review its infrastructure.

Q19b.  If so, what is the schedule for such a review?

A19b. There is a two-fold process in place: First, NASA reviews its 
infrastructure yearly during budget preparations. The need for existing 
facilities, as well as the condition of those facilities, is analyzed 
as part of the budget process. Second, NASA is conducting a Real 
Property Mission Analysis (RPMA) which is reviewing all NASA real 
property with an independent, mission-driven, top-down process to 
develop the proper balance of real property as it supports NASA's 
vision and mission. The RPMA team was formed in February 2004 and has 
been conducting data gathering and site visits. The RPMA is expected to 
conclude no earlier than December 2004. Implementation of approved 
recommendations will depend on the scope of those recommendations.

Q20.  The current Progress vehicle manifest indicates that only three 
flights are planned this year rather than the four previously agreed to 
by the Multilateral Coordination Board (MCB). What is the rationale for 
this change?

      What effect would a Progress mission failure have on the Space 
Station program?

A20. Within a month of the Space Shuttle Columbia accident, the ISS 
Multilateral Coordination Board (MCB) approved a near-term ISS 
operations plan that would allow the Partnership to maintain a 
continued crew presence on the ISS until the Space Shuttle is able to 
return to flight. Among other things, the plan approved as a goal that 
the Russian Progress flight schedule be accelerated to support crew and 
ISS consumable needs until the Space Shuttle returns to flight. Since 
late February 2003, the near-term operations plan has been continuously 
reviewed and updated as required. Modifying this operations plan to 
reflect improved conditions is a normal part of ISS operations and does 
not require MCB approval.
    The key constraint driving the near-term ISS operations plan has 
been projected consumable usage with water being the limiting item. 
However, actual water usage has been less than predicted. The NASA and 
Russian program management staffs have on-going technical discussions 
to determine a revised Progress schedule based on actual experience to 
date with on-orbit consumables. Consumables are managed so that the 
loss of a Progress resupply mission would not require immediate de-
crewing of the Station. Procedures exist for orderly de-crewing of the 
ISS should this be required. The need to implement this response will 
be dictated by the state of consumables aboard the ISS. Efforts to 
accelerate the next supply vehicle launch would probably be conducted 
in parallel with preparation for de-crewing if a Progress mission 
failure were to occur and consumables were critical.

Q21.  One of the fundamental questions in space policy is how much risk 
we should ask astronauts to assume. The Shuttle is being discontinued 
because of its risks; the Hubble mission was canceled because of its 
risks. How will the risks of a lunar landing compare with those of 
current activities?

A21. Project Apollo made six successful lunar landings in six attempts 
(Apollo XIII did not attempt a lunar landing) between 1969 and 1972. 
That record was made with 1960s technology. It is NASA's expectation 
that, with 21st century technology and the experience gained in all 
aspects of space activity since the time of Apollo, the risk of lunar 
landing will be significantly less than it was in the 1960s/1970s. Our 
Level 1 requirements for the development of lunar systems should 
reflect this expectation. All the trade studies being done to develop 
the lunar mission requirements are specifically determining which 
system hazards to the crew and vehicle are associated with each part of 
the mission and how those hazards can be mitigated through vehicle 
design and technology advancements.

Q21a.  How about the risks of longer-term activities on the Moon, or a 
landing on Mars?

A21a. A Mars mission should pose a similar risk to the crew as a long 
ISS mission combined with a lunar exploration mission, with the 
exception that there will be no quick abort-back-to-Earth capability 
that one has with ISS and lunar missions. As a result, there will be 
added emphasis on flight system safety and reliability and on-board 
medical care to handle crew injury/illness risks. NASA's Exploration 
Systems Enterprise is conducting trade studies to determine the optimum 
system configuration for both the lunar surface missions and the Mars 
missions. Integral to these trade studies is an assessment of the 
extent to which the architecture will ensure safety for all mission 
phases. This includes identifying mission and crew health risks and 
system hazards, abort options for all mission phases, and system design 
redundancy and reliability.

Q21b.  What risks will astronauts be asked to assume as participants in 
the new biological experiments that are planned for the Space Station?

A21b. Space Station crew members will be asked to assume minimal or 
reasonable risk as participants in biomedical/biological experiments. 
The definition of Minimal Risk is ``the probability and magnitude of 
harm or discomfort anticipated in the research are not greater in and 
of themselves than those ordinarily encountered in daily life or during 
the performance of routine physical or psychological examinations or 
tests'' (from 45 CFR 46.102(i)). The definition of Reasonable Risk is 
``the probability and magnitude of harm or discomfort anticipated in 
the research are greater in and of themselves than those ordinarily 
encountered in daily life or during the performance of routine physical 
or psychological examinations or tests, but the risks of harm or 
discomfort are considered acceptable when weighed against the 
anticipated benefits and the importance of the knowledge to be gained 
from the research'' (from JSC 20483). Minimal risk and reasonable risk 
judgments for clinical research have been used for many years. These 
applications, which are utilized by our Institutional Review Board 
process (now Committee for the Protection of Human Subjects), have also 
been in place for many years. A consistent process has and will be 
applied to ISS.
    The astronauts will be volunteers who will be fully informed 
regarding (1) the nature of the research to be performed on them, and 
(2) the probable risks. Most of the studies performed will be in the 
``Minimal Risk'' category. A few studies will be in the ``Reasonable 
Risk'' category. It is important to note that the research will benefit 
the astronaut research subject directly by either acting as a 
countermeasure or by better defining the risk to human health resulting 
from space flight.

Q21c.  What is NASA's overall philosophy as to what constitutes 
acceptable risk?

A21c. There are four major categories of risk that NASA is faced with: 
(I) safety and health risk to the public, (II) safety and health 
occupational risk (risk to astronauts and other NASA and contractor 
workforce), (III) risk to high-value property, and (IV) programmatic 
risk.
    In NASA Procedural Requirements (NPR) 7120.5B, NASA Program and 
Project Management Processes and Requirements, November 21, 2002, risk 
is defined as follows:

    Risk. The combination of (1) the probability (qualitative or 
quantitative) that a program or project will experience an undesired 
event such as cost overrun, schedule slippage, safety mishap, 
compromise of security, or failure to achieve a needed technological 
breakthrough; and (2) the consequences, impact, or severity of the 
undesired event were it to occur.

    Acceptable risk is defined in the same document as follows:

    Acceptable Risk. The risk that is understood and agreed to by the 
program/project, GPMC [Governing Program Management Council], 
Enterprise, and other customer(s) sufficient to achieve the defined 
success criteria within the approved level of resources.

    This is how NASA defines acceptable risk in a programmatic context. 
It is this definition of acceptable risk that would ultimately apply to 
the development of new Exploration systems. More specific 
(quantitative) requirements for acceptable risk will be found in the 
requirements documents for specific flight systems, such as the Crew 
Exploration Vehicle (CEV). These requirements will affect the risk to 
crew members, as well as the risk to people and property external to 
the flight systems.
    In situations where the public or other external stakeholders are 
involved or affected, it is NASA's policy to augment the concept of 
acceptable risk to include risk that is acceptable to the broader 
group(s) of affected stakeholders. In many of these cases, ensuring 
that risk is maintained below threshold levels of acceptability 
dictated by compliance with federal, state, local, or other specific 
types of requirements may satisfy risk acceptability for these affected 
groups. From a safety standpoint, NASA will ensure that the risk to the 
general public and foreign countries will be no greater than that for 
conventional aircraft flying overhead, as referenced in Legislative 
History, 81st Congress, p. 1235.

Q22.  What milestones for assessment are built into the major aspects 
of the exploration initiative? At what point should NASA and the 
Congress re-examine the initiative, particularly CEV development, to 
determine whether it is appropriate to proceed to completion?

A22. The acquisition plan for the CEV and other elements of Project 
Constellation builds in decision milestones as follows:

Milestone A initiates the technology maturation and concept design 
        phase of the program.

Milestone B initiates development after successful completion of the 
        System Requirements Review and a System Design Review.

Milestone C initiates final design certification.

    This milestone process will occur in a phased approach to all 
Project Constellation elements, starting with the Crew Exploration 
Vehicle (CEV). NASA intends to utilize an evolutionary acquisition 
approach that approves entrance to the next step of development when 
requirements for that phase (entrance criteria) are fully developed.

Q23.  How likely is it that we will know enough about the effects of 
radiation and lack of gravity by 2016, when NASA apparently plans to 
stop using the Space Station?

A23. The ISS has a number of U.S. and Russian devices, both active and 
passive, for monitoring radiation on the Station. In addition to the 
on-board monitoring capability, we rely on real-time monitoring and 
forecasting data from the NOAA Space Environment Center. These data 
provide an early warning for proton fluxes and other radiation events, 
and allows us to take steps to mitigate crew exposure. In this way, we 
continue to build our essential data record on space radiation.

Q23a.  How would research be conducted after that point?

A23a. We will continue to perform a range of experiments on Earth in 
conjunction with the measurements that monitor the radiation aboard the 
ISS. To ensure the safety of spacecraft crews, NASA biologists and 
physicists will perform thousands of experiments at the new NASA Space 
Radiation Laboratory (NSRL) commissioned at the Department of Energy's 
(DOE) Brookhaven National Laboratory in Upton, N.Y. This laboratory, 
built in cooperation between NASA and DOE, is one of the few facilities 
that can simulate the harsh space radiation environment. With 
approximately 80 investigators conducting research annually, the NSRL 
will enable us to triple the ability of researchers to perform 
radiobiology experiments and the resulting science knowledge in the 
coming years and beyond our use of the ISS.

Questions submitted by Representative Bart Gordon

Q1.  What did the President ask you about the costs of the President's 
space initiative, and how did you respond?

A1. The exploration vision is affordable in both the short-term and the 
long run. NASA's FY 2005 budget request is fiscally responsible and 
consistent with the Administration's goal of reducing the budget 
deficit by over 50 percent within the next five years. The budget 
strategy supporting the exploration vision places a premium on avoiding 
balloon payments for future Congresses and Administrations. Unlike 
previous major civil space initiatives, the approach is intentionally 
flexible, with adjustable exploration milestones and investments in 
sustainable exploration approaches to maintain affordability.

Q2.  How much do you estimate it will cost to achieve a human lunar 
landing by 2020, and what assumptions are included in that estimate?

A2. NASA has developed a budget projection through 2020 to define the 
resources that will be available to achieve the vision for space 
exploration, as shown in table below [sand chart]. The first five years 
are based on the details contained in the President's FY 2005 Budget 
request, and fiscal years 2010-2020 are based on roughly inflationary 
growth. NASA has taken the unusual step of projecting the budget beyond 
five years to demonstrate the exploration vision's sustained and 
affordable approach, which redirects resources within NASA and does not 
require balloon payments beyond the normal five-year budget horizon.
    The President's five-year FY 2005-2009 budget request establishes 
necessary groundwork for the execution of the exploration vision. 
Proposed near-term investments are focused on technology risk reduction 
and flight experiments as well as robotic missions throughout solar 
system.
    The table below shows a rough estimate for the cost of the 
exploration initiative through 2020 including the initial human lunar 
landing sometime between 2015 and 2020. Projections for the blue 
``Exploration Missions'' wedge over the period FY 2010-2020 total 
approximately $103 billion and include both human and robotic 
exploration activities. Human lunar activities over this time period 
including the initial landing and subsequent activities represent about 
half of this total. This represents a bounding estimate based on 
experience and actual costs from relevant elements of the Apollo 
program. The estimate does not reflect architecture studies, design 
analysis, new technologies, and innovative approaches yet to be 
undertaken. It also does not reflect that the vision, unlike Apollo, 
views the lunar landing not as an end in itself, but as one step in a 
sustained human and robotic program to explore the solar system and 
beyond.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Q3.  As was agreed at the hearing, please provide a breakdown of what 
programs are included in each of the wedges of the ``sand chart'' 
displayed at the hearing.

A3. 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  As was agreed at the hearing, please provide the total funding 
included within the blue ``Exploration Missions'' wedge over the period 
FY 2010-2020. Is it accurate, as you seemed to say at the hearing, that 
the funding within this wedge does equate with the funding necessary to 
achieve the President's lunar objectives, including human missions to 
the Moon by 2020. If that is true, what components of these lunar 
objectives (e.g., a lunar lander) are not encompassed within the blue 
wedge?

A4. Projections for the blue ``Exploration Missions'' wedge over the 
period FY 2010-2020 total approximately $103 billion and include both 
human and robotic exploration of the Moon and robotic exploration of 
Mars, other solar system destinations, and beyond. As stated in the 
response to Question 2 above, this level of funding represents a 
bounding estimate based on experience and actual costs from relevant 
elements of the Apollo program. The estimate does not reflect 
architecture studies, design analysis, new technologies, and innovative 
approaches yet to be undertaken. It also does not reflect that the 
vision, unlike Apollo, views the lunar landing not as an end in itself, 
but as one step in a sustained human and robotic program to explore the 
solar system and beyond.

Q5.  If certain of the programs in the President's initiative wind up 
costing more than you expect, will you ask for more money, propose 
additional cuts to other activities, or stretch out the timeline?

A5. NASA intends to pursue the President's Vision for Space Exploration 
within the funding projections in the FY 2005 budget request. As we 
learn more and refine our cost estimates, the scope of our planned 
activities and schedule may be adjusted to be consistent with funding 
projections, while still meeting the vision put forth by the President.

Q6.  In response to a written question asking whether the 
Administration plans to transfer any current NASA activities or 
programs to other agencies or the private sector over the next five 
years, you did not deny that possibility. Instead you stated, ``Some 
programmatic decisions are still under consideration and will be 
announced at the appropriate time.''

Q6a.  What specific ``programmatic decisions'' are under consideration?

Q6b.  What activities or programs are being considered for transfer to 
other agencies or to the private sector?

A6a&b. There are no programs currently identified for transfer to other 
agencies or to the private sector. NASA will review the recently 
released report of the President's Commission on Implementation of 
United States Space Exploration Policy with respect to such possible 
considerations.

Q7.  One of the significant policy decisions embedded in the 
President's plan is the decision to terminate the Shuttle program years 
before a replacement vehicle will be available. Basically, that means 
we will be dependent on the Russians for getting our astronauts into 
space. Leaving aside the question of the Iran Nonproliferation Act, why 
does it make sense to rely on Russia to provide access to space for 
American astronauts for a number of years?

A7. Development of a new U.S. crewed space system will cost billions of 
dollars. Until the Shuttle--which costs over $4 billion per year to 
operate--is retired, funding available within NASA's budget for 
developing the new crew exploration vehicle (CEV) is limited. Speeding 
up the schedule for CEV availability would either require large 
increases to NASA's budget, or drastic cuts to other NASA programs. 
Extending the operational life of the Shuttle also does not solve the 
problem--each year the Shuttle continues operating past 2010 is another 
year that billions of dollars are not available for CEV development, 
resulting in delays to CEV availability. For these reasons, we believe 
that the only affordable approach to transitioning between the Shuttle 
and CEV is to rely on others to launch U.S. astronauts during the 
period between Shuttle retirement and CEV availability.
    The ISS Program is currently reviewing plans for assembly 
completion and operations as part of the FY 2006 budget formulation 
activity. Crew transport to/from the ISS after Shuttle retirement is a 
consideration in this effort. Discussions with our international 
partners concerning how to best proceed with ISS operations in light of 
the decision to retire the Shuttle will be held in summer 2004. If the 
decision is made to use Russian crew transport services, we will be 
working with a reliable partner. In the wake of the Columbia accident, 
Russia has provided, consistent with partnership agreements, Soyuz 
flights to transport crews and Progress vehicles to ferry supplies to 
the ISS during the current hiatus in Shuttle flights.

Q8.  The February 7, 2004 edition of the New York Times reported that 
the NASA engineer who had written a pair of internal assessments of the 
risk of the Hubble servicing mission that were at odds with your 
justification for canceling the mission ``declined to be identified for 
fear of losing his job.'' That is a very troubling indication that the 
NASA culture, as described by the Columbia Accident Investigation Board 
as one that discouraged dissent, still exists. What specific steps have 
you taken to ensure that the employee will face no reprisals for his/
her actions, and what assurance have you given that employee--and all 
NASA employees and contractors--that you consider such dissent healthy 
and welcome?

A8. 

Background

    NASA had begun to address issues of ``culture'' before the Columbia 
accident. Even as the 2002 Federal Human Capital Survey results 
identified NASA as one of the best places to work in the Federal 
Government, a grassroots effort was underway to explore issues within 
the NASA culture that, if addressed, could improve the Agency's 
effectiveness and performance.
    In July 2002, a team of NASA and contractor employees began working 
to assess the feasibility and define the action plan needed to create a 
more highly unified NASA organization. This One NASA team set out to 
formulate a set of specific recommendations for organizational and 
cultural change, emphasizing teamwork and collaboration across the 
Agency, which would elevate NASA to a new level of effectiveness and 
performance.
    The CAIB issued its report in August 2003, a mere seven months 
after the tragic loss of Columbia and her crew, and found that NASA's 
history and culture contributed as much to the Columbia accident as any 
technical failure. This is explicitly identified in the Organizational 
Cause Statement found in Chapter 7 of the report. This chapter gave us 
a very candid look into our organizational culture and provided us with 
a great opportunity to take a deeper look at our culture, to look at 
those aspects that are positive and also those that need improvement, 
and to take action to achieve positive, long-lasting change at NASA.

Progress and Actions

Safety Climate and Culture Survey
    Based upon the CAIB report and our desire to place even greater 
attention on moving to a more effective culture, we felt it would be 
beneficial to engage external expertise to assist us in developing and 
deploying an organization plan for culture change at NASA. To this end, 
on February 9, 2004, NASA awarded a contract to Behavioral Science 
Technology, Inc. (BST), an organization with specific expertise and 
proven track record helping organizations achieve safety excellence 
through culture transformation and leadership development.
    The first part of BST's effort involved establishing a baseline of 
our culture by administering a Safety Climate and Culture Survey. BST 
delivered the final survey results, along with a recommended 
implementation plan for NASA to achieve positive improvements in its 
culture, in a report entitled, Assessment and Plan for Organizational 
Culture Change at NASA, which is available on the NASA HQ website 
(http://www.nasa.gov/about/highlights/index.html).
    The results of the survey support NASA's legacy of technical 
excellence, teamwork, and pride, indicating that we are strong in areas 
such as teamwork, work group relations, approaching coworkers about 
safety concerns, and reporting incidents or deviations that affect 
safety. The survey also identifies important safety and organizational 
issues that must be addressed before we can initiate positive changes 
within the agency. There is a general perception that the organization 
as a whole does not show concern for the needs of employees. There is 
also a perception that there are deficiencies in the quality and 
quantity of upward communication about safety issues.
    While these issues are similar to those highlighted in the Columbia 
Accident Investigation Board Report, this Assessment and Plan for 
Organizational Culture Change at NASA has given us specific data to 
assess organizational functioning down to the directorate level, as 
well as a specific plan of action for improving these aspects of our 
culture.
Implementation Plan
    One of the first steps of this plan will be for the core leadership 
team to validate and embrace NASA's Core Values. These values will 
drive the culture change effort. The plan also calls for focused 
change-related activities to take place at a specific Centers and 
Directorates, with the aim of achieving measurable results in five 
months.
    These activities will first take place at Glenn Research Center, 
the Engineering and Mission Operations Directorates at Johnson Space 
Center, the Safety and Mission Assurance Directorates at Goddard Space 
Flight Center and Kennedy Space Center, and at Stennis Space Center. 
Activities at these locations will include leadership practices 
assessments, development of individual action plans for Center 
leadership, behavioral observation and feedback, and behavior-based 
project team effectiveness training.
    Additionally, in the next months, BST will assist each Center in 
developing Center-specific implementation plans to achieve positive 
cultural improvements, driven from NASA's core values, while 
accommodating the unique needs of each Center.
    At the end of five months, we will use specific data and feedback 
to determine if measurable progress has been achieved, including 
whether NASA leadership has adopted behaviors that support the desired 
culture. Once measurable progress has been achieved and the processes 
used to achieve forward progress have been validated, NASA plans an 
agency-wide deployment of the above-mentioned approach.
    In addition to specific implementation steps we can undertake to 
achieve positive change in our culture, the plan also emphasizes the 
need for a single culture change initiative that integrates existing 
activities where appropriate but minimizes the proliferation of 
multiple approaches, philosophies, models, methods, and terminology. 
This culture change effort that NASA is undertaking will serve as an 
integration point to ensure that all the Agency's ongoing efforts 
related to culture change are aligned in a manner conducive to a 
comprehensive organizational culture change.
Culture Change Efforts and NASA OmBuds Program
    A very important aspect of this culture change effort is to create 
an environment in which it is routine to actively solicit the minority 
opinion, enabling employees to feel comfortable raising safety concerns 
to their supervisors and Center and Agency management. In part, this 
will be achieved through focusing on helping managers and supervisors 
maintain an effective balance between task orientation and relationship 
orientation. The survey results and assessment indicate that at NASA, 
many managers have a natural inclination toward task orientation, which 
is not unusual for technical organizations. However, strong task 
orientation at the expense of relationship orientation can lead to 
inhibition of upward communication. By taking steps to help managers 
and supervisors improve their balance between task and relationship 
orientation, NASA can move toward a culture where people really feel 
free to speak up without retribution.
    In addition to the culture change effort, on January 27, 2004, the 
NASA Administrator announced the establishment of NASA's Ombuds 
Program, empowering Ombuds at each NASA Center and Headquarters to 
listen to and act on employees' concerns related to safety, 
organizational performance and mission success. The Ombuds are designed 
to serve as a safety valve when employees feel regular channels for 
raising issues and concerns are not working effectively. Each Ombuds 
has the ability to raise issues directly with Center Directors, and at 
Headquarters with the Deputy Administrator. The Assistant Administrator 
for Institutional and Corporate Management leads the program, and names 
of the designated Center Ombuds were provided to the NASA workforce.

Question submitted by Representative Todd Akin

Q1.  As you well know there has been a significant public outcry to 
save the space telescope from the general public, but I have also heard 
that some in the scientific community are very concerned about the 
impact to real scientific research capability that the loss of the 
Hubble Space Telescope (HST) may cause. Even though ground based 
telescope technology continues to advance, notably in adaptive optics 
to help combat the blurring effects of the Earth's atmosphere on 
astronomical observations, the HST still provides far greater 
resolution over greater fields of view than any ground telescope. The 
HST also provides tremendous ultraviolet capability that does not exist 
with Earth based scopes. Many astronomers consider the HST's Ultra-
Violet (UV) capability very valuable. For example, I am told that UV 
light typically radiates from extremely hot, dynamic phenomena, such as 
the cores of active galaxies, quasars, energetic stars and vast disks 
of dust around black holes. Given the superior resolution and unique UV 
capabilities of the HST do we not risk the loss of a significant 
research capability with the retirement of the HST? Are there any 
alternatives to recapture this UV capability when HST ceases to 
function?

A1. The Hubble Space Telescope has made tremendous contributions to 
astronomical discovery, and it continues to produce world-class 
scientific results. Hubble was designed for a nominal mission length of 
at least 15 years, a milestone that will be reached in 2005. Within 
this span, Hubble has reached or exceeded every one if its scientific 
and technical goals and expectations. NASA plans to extend Hubble's 
mission for several more years by judicious use of the telescope's 
battery power and pointing capability, and possibly by a robotic 
servicing mission, which is currently under study. As a result of 
extensive planning and advice from the astronomical community, NASA 
also has over 30 newer space astronomy and physics missions in 
operation or in development; these will continue to support a vigorous 
national and international astronomical research program. Hubble is the 
first of NASA's four ``Great Observatories,'' Hubble has capabilities 
at visible, infrared, and ultraviolet wavelengths.
    The other three Great Observatories include the Chandra X-Ray 
Telescope, the Compton Gamma-Ray Observatory, and the infrared Spitzer 
Space Telescope. Compton's mission is completed, and Chandra and 
Spitzer are in the prime phase of their missions, producing astounding 
results.
    Energetic phenomena such as active galaxies, energetic stars, and 
material around black holes are often best observe at X-Ray 
wavelengths, studied with Chandra and other telescopes like XMM-Newton. 
Many other space telescopes with various wavelength capabilities are 
also planned or in operation. In visible light wavelengths, Hubble 
still provides the best resolution and sensitivity available for many 
types of observations. However, in recent years, large ground-based 
observatories (such as the Keck telescopes) have developed remarkable 
capabilities for precision observations in visible and infrared light, 
employing larger telescope apertures and innovative techniques. For 
example, at infrared wavelengths, the use of Adaptive Optics on ground-
based telescopes can now achieve a precision comparable to that of 
Hubble. For studies at ultraviolet (UV) wavelengths, a space-based 
capability is required. It is likely that the ultraviolet capability of 
Hubble will be maintained even longer than that of some other 
wavelengths such as infrared, due to the lower power consumption 
required. Two other NASA missions in addition to Hubble are also 
currently available for observations at ultraviolet wavelengths: GALEX 
and FUSE. FUSE performs precision spectroscopic studies, and GALEX 
allows ultraviolet imaging over fields of view larger than that seen by 
Hubble.
    Future large astronomy missions (including wavelength coverage of 
those missions) are planned in concert with prioritization efforts of 
the scientific community, such as the Decadal Surveys of the National 
Research Council. For example, the highest priority for large space-
based astronomy missions in the latest decadal survey is for the highly 
sensitive observations at infrared wavelengths that will be achieved by 
NASA's James Webb Space Telescope, due to launch in 2011. Future 
moderate-size missions for ultraviolet and other wavelength 
observations can be realized through NASA's highly successful and 
competitive Explorer program. NASA is also currently soliciting and 
receiving ideas from the community for larger missions at any 
wavelength range.
    NASA's regular strategic planning process gets underway this year, 
and through this process the proposals and expertise of the scientific 
community are employed to help set priorities for future NASA astronomy 
missions.

Questions submitted by Representative Nick Lampson

Q1.  In order to free up money for the President's initiative, the 
budget plan would basically lump Earth Science, Aeronautics, Education, 
some parts of Space Science, and some parts of Biological and Physical 
Research together in an account whose purchasing power, according to 
one of the charts describing the President's initiative, will decline 
by some 40 percent over the next fifteen years. That means that any 
increase in any one of those program areas will necessitate cuts to one 
or more of the other areas--while the total pot of real dollars 
continues to decline.

Q1a.  Is the plan to slowly starve those other programs for resources 
until NASA can terminate its involvement in them?

Q1b.  If not, what is the rationale for that funding approach?

A1a&b. NASA is not changing its fundamental account structure in the 
manner suggested by the question. The proposed Exploration, Science and 
Aeronautics account contains the same key research elements as todays 
Science, Aeronautics and Exploration account: Space Science, Earth 
Science, Biological and Physical Science, Aeronautics and Education. 
Further, this account is not separate from the vision--rather, some of 
these elements are critical to the new vision.
    NASA is committed to its full mission and will continue to invest 
in all of these important areas. The chart below shows the prospective 
budget for NASA beyond our five-year horizon. This figure, which has 
been widely distributed, illustrates NASA's public plan to conduct the 
vision in both the short-term and the long-term without large NASA 
budget increases. In this chart, the activities described in the 
question do not decline, but rather are shown as increasing at an 
inflationary level beyond the five-year budget horizon, maintaining 
their relative purchasing power within the entire NASA budget.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  In order to fund the Presidents initiative, cuts, deferrals, and 
cancellations will be made to a wide range of NASA programs.

Q2a.  Did you offer to make such cuts in order to fund the Presidents 
initiative, or were you directed to make such cuts? If the latter, who 
directed you to make them?

A2a. The NASA budget process evaluated and selected programs with 
respect to four key principles:

Compelling--The programs fully support the Vision for U.S. Space 
Exploration or provide for ongoing NASA mission priorities such as 
Aeronautics and Earth Science in accordance with the NASA Strategic 
Plan.

Affordable--The programs are part of a budget that is fiscally 
responsible and consistent with the Administration's goal of cutting 
the federal deficit in half within the next five years.

Achievable--The programs will not require large balloon payments by 
future Congresses and Administrations.

Focused--The exploration vision provides the needed compass with which 
to evaluate our programs and make the required tough decisions.


Q2b.  Why are the science and aeronautics programs that have been cut, 
deferred, or canceled considered a lower priority than the President's 
Initiative?

A2b. The Vision for Space Exploration challenges NASA to implement a 
sustained and affordable human and robotic program for the exploration 
of the solar system and beyond. This challenge also requires changes in 
the research agenda of the International Space Station to intensify the 
emphasis on understanding how space environments affect astronaut 
health and capabilities as well as the development of effective 
countermeasures. We recognize the importance of basic research that can 
uniquely be pursued on the ISS as a part of our research portfolio, as 
it both informs applied mission-driven research and invariably results 
in unanticipated breakthroughs that can contribute to the exploration 
agenda. We plan to emphasize research on the ISS that will support the 
Nation's new exploration agenda. Life science research conducted by 
NASA will not only benefit future manned space missions, but will also 
lead to the improvement of life here on Earth, including applications 
in medicine, agriculture, industrial biotechnology, and environmental 
management.
    Earth science research remains a priority for NASA. Although some 
new projects were postponed, NASA's five-year budget request for Earth 
Science is about $1.4 billion annually, representing a significant 
Administration priority. NASA remains the largest federal contributor 
to the Climate Change Research Initiative. Approximately 40 percent of 
the FY05 Earth Science budget will go towards research on data from 80 
sensors supported by NASA's 18 Earth-observing satellites. NPOESS 
Preparatory Project (NPP), used to harness NASA satellite data for 
global climate change observations, increased funding by 36 percent for 
FY 2005. The Orbiting Carbon Observatory (OCO), which relies on space-
based platforms to measure atmospheric levels of carbon dioxide that 
generate data for the enforcement of emissions standards, was increased 
by 37 percent in FY 2005.
    NASA's budget for Structure and Evolution of the Universe averages 
$400 million annually over the next five years. The budget for Sun-
Earth Connection ramps up to $1 billion over the next five years. While 
some previously planned work has been deferred, these activities remain 
significant strategic objectives of the Agency.
    Aeronautics funding remains a priority for NASA, and has not been 
reduced as a result of the Vision for Space Exploration. A minor dip in 
the budget in FY 2005 represents a planned project completion in FY 
2004. In addition, in FY 2004 Congress added $88 million for 
Congressional earmarks, which are not reflected in the FY 2005 budget 
request for NASA..

Q3.  After the Shuttle program ends in 2010, Russia will have a 
monopoly in providing crew transport to and from the Space Station. How 
will you ensure access to Soyuz vehicles at a reasonable price?

A3. The ISS Partnership is currently engaged in detailed discussions on 
the selection of an ISS configuration. As part of this process, the 
Partnership is assessing any implications to the program resulting from 
the new U.S. Vision for Space Exploration, including retirement of the 
Space Shuttle. (The Shuttle is slated for retirement upon completion of 
Station, which is planned for 2010.) In the event that any acquisition 
of Soyuz services from Russia are required to fulfill U.S. obligations 
to the international partnership it will be conducted in accordance 
with the U.S. Federal Acquisition Regulations and all other applicable 
U.S. laws and regulations. As with past acquisitions for the ISS 
program from Russian sources, the reasonableness of the price will be a 
central part of the negotiations.

Q3a.  The President has basically told the civil servants and 
contractors working on the Shuttle program that their jobs will be gone 
in six years. The best employees will start leaving first. Yet the 
Shuttle still has to fly safely over that entire period (some 25 to 30 
flights). What is your plan for ensuring that you will retain the 
critical skills and focus needed to fly the Shuttle safely in the midst 
of such change?

A3a. Our contractors have the requirement to hire appropriately skilled 
personnel or train them to meet all the conditions of the contracts. 
They have been hiring or training to meet and maintain our skill level 
requirements and this trend is anticipated to continue. As the Space 
Shuttle program nears retirement, we fully anticipate that aerospace 
technician employment opportunities will continue with NASA, driven in 
part by the Vision for Space Exploration and the continuing need to 
support the International Space Station.
    NASA understands the challenges of maintaining an incentivized 
workforce as the Shuttle Program phases down. We are beginning to 
develop a plan to ensure that the skills required to maintain a safe 
and reliable fleet are in place until the last Space Shuttle flight has 
completed its mission.
    The retirement of the Space Shuttle is not the end of the space 
program but rather the beginning of an opportunity to transition a 
highly skilled workforce into programs requiring their skills and 
challenging their creativity. We believe, at the appropriate time, 
these workers who have Shuttle experience will be able to continue to 
work with NASA on new programs requiring their unique skills.

Q3b.  How much do you estimate it will cost?

A3b. While we currently do not anticipate increased costs associated 
with maintaining critical skills as the Space Shuttle program draws 
down, there are still too many unknowns at this point.

Q3c.  If you do not know now, when will you have such a plan and cost 
estimate completed?

A3c. As noted above, we are just beginning to develop a plan to ensure 
that we maintain the critical skills and focus necessary to safely fly 
the Shuttle until its retirement. At this time, we cannot provide an 
estimate of when the plan and cost estimate will be complete.

Q4.  After the Shuttle is retired in 2010, there will be no way to get 
any major pieces of failed Space Station hardware back to Earth to be 
repaired and refurbished. Since that had been the maintenance and 
repair philosophy for the Space Station, how much will you have to 
spend acquiring sufficient ``throwaway'' spare parts? Where is that 
``book-kept'' in the Space Station budget?

A4. Based on the Vision for Space Exploration, NASA is refining its 
projections for ISS cargo and crew support (including spare parts). 
This activity is being done in concert with developing an integrated 
strategy for using a range of domestic and international assets for 
transportation to and from the Station. Once a comparison is made 
between future logistics needs and the capabilities of existing and 
potential transportation assets, NASA will determine if additional 
spares will be required, what their projected cost will be, and whether 
the costs can be accommodated within projected program budget reserves.

Q5.  The President's plan does not set any timetable for sending humans 
to Mars. Based on your assumed inflationary growth budget plan and all 
of the lunar activities you have planned, what is the earliest date at 
which a human mission to Mars would be possible from a budgetary 
standpoint?

A5. Before the timeline for a human mission to Mars can be established, 
a number of steps must be completed. First, to get the range of 
possible dates, architectural concepts will have to be developed based 
on extensive and rigorous trade studies. Second, to narrow the possible 
dates, many scientific, risk-reduction, and technology demonstration 
missions will have to be conducted.
    Multiple architectural concepts for conducting a human Mars mission 
are currently under development. These options will identify trade 
studies and options for conducting precursor robotic or human 
demonstrations in relevant environments including the Lunar surface. 
New concepts will be developed by soliciting ideas from industry, 
academia, NASA, and other sources. Mission concepts will be scientific 
and discovery driven, and will maximize the potential of robots and 
humans working together towards the Vision for Space Exploration.
    Many important steps will be taken along the way to Mars, including 
development flights of a new Crew Exploration Vehicle, robotic missions 
to the Moon, and human missions to the Moon. In parallel, robotic 
missions to Mars will continue to identify key scientific goals for 
future human missions. Robotic missions to Mars in this decade include 
the Mars Reconnaissance Orbiter (MRO) in 2005, and the telecom orbiter 
and Mars Science Laboratory (MSL) in 2009. Mars sample return missions 
and the ``Safe on Mars'' missions are planned for the following decade. 
As these precursor missions evolve, their results in terms of 
technology demonstrations will enable the establishment of the timeline 
for a human mission to Mars.

Q6.  When will the permanent ISS crew be expanded beyond three people 
to support the restructured research agenda? Your response to Mr. 
Gordon's written question on that topic states: ``We fully anticipate 
increasing the crew size beyond three when feasible, in order to 
increase the ISS's research productivity.'' What does ``when feasible'' 
mean? What determines when it is feasible?

A6. There are two critical factors to growth beyond three crew; these 
are life support and crew rescue capability. Crew rescue for a crew 
greater than three will require a second Soyuz spacecraft docked to the 
ISS. Continued provision of the Soyuz is an issue that is being worked 
across the Partnership and has several solution paths.
    The current Environmental Control and Life Support (ECLSS) system 
on-orbit is capable of maintaining three crew. To grow beyond three 
crew, additional ECLSS capacity and habitability elements are required. 
NASA has been continuing development of regenerative ECSLS elements to 
meet this requirement.
    NASA is presently evaluating the options for launch and on-orbit 
accommodation of the regenerative ECLSS and habitability elements. 
These studies will be concluded in the fall of 2004 with the selection 
of a feasible assembly sequence option, which includes capability for 
growth beyond three crew.

Q7.  Under your plan, a Crew Exploration Vehicle (CEV) capable of 
carrying humans into low-Earth orbit won't be available for another 10 
years. It only took eight years to get humans to the Moon in the 1960s. 
Before NASA suspended the Orbital Space Plane (OSP) program, you were 
saying that you thought the OSP could be ready to carry humans into 
low-Earth orbit in six years.

     The pace of the CEV program seems to be driven solely by the 
budget, especially since the development funding is largely flat over 
the next five years. Is that accurate? If not, why does it take ten 
years to develop the CEV?

A7. The budget phasing will impact the CEV schedule, but NASA is 
committed to realizing the Vision for Space Exploration without 
substantial augmentation of NASA's existing budget. More importantly, 
NASA will organize its exploration program so that it does not require 
major new commitments of funding in future administrations. The success 
of the CEV, in respect to capability and affordability, is 
significantly driven by the development of sound requirements from the 
beginning. The CEV will be one critical element in an overall 
transportation architecture that must work together as a system of 
systems to support long-range goals for human exploration. Architecture 
studies and the process of developing requirements will define the CEV 
interfaces and its relationship to the many supporting elements of the 
exploration transportation system. The budget phasing supports this 
process. The CEV program will start in 2006, with the initiation of the 
design and development process towards the first human flight in 2014. 
Selection of a single concept for detailed design and development will 
occur in 2008.

Q8.  NASA's FY 2005 budget request sets aside $140 million for 
additional cargo and crew services. The Russian Soyuz is the only non-
Shuttle means of providing crew services. Historically, legislation 
provides that funds appropriated to NASA must be spent within two 
fiscal years, which means that this $140 million would need to be 
obligated either in FY 2005 or FY 2006. However, the Iran Non-
Proliferation Act makes it illegal to expend these funds for additional 
Soyuz services during those two years.

Q8a.  How do you explain this discrepancy?

A8a. The FY 2005 performance goal for this project, as submitted in the 
2005 Budget Estimates, is to ``baseline a strategy and initiate 
procurement of cargo delivery service to the ISS.'' This would be an 
augmentation of current Shuttle capability using commercially procured 
services, and could include domestic capabilities if available, or 
foreign capabilities such as the ATV.

Q8b.  Do you agree that expending these funds in FY 2005 or FY 2006 on 
Soyuz or Progress services would require a legislative change to the 
INA?

A8b. NASA is aware of the provisions of the INA and will work with 
Congress to resolve any issues associated with it.

Questions submitted by Representative Brad Sherman

Q1.  According to NASA's budget plan, the President's exploration 
initiative is estimated to cost close to $200 billion over the next 15 
years, with more costs incurred after that time. Why is this investment 
better than investing the same amount of money in energy R&D, with the 
goal of making the U.S. energy independent? Which of the two 
alternative investments do you think would deliver a greater benefit to 
the American economy and to overall societal goals?

A1. 

It is Affordable--The budget fits within the goals of reducing the 
deficit by half over five years and constraining discretionary growth.
    Represents 0.7 percent of Federal Budget vs. 1.0 percent in 1994 
and over four percent peak during Apollo.
    From FY 1995 through the FY 2005 request, NASA budget increase is 
one-fourth the rate of overall non-defense discretionary spending--17 
percent compared to 69 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


It is Achievable--The vision can be accomplished within the long-term 
funding plans, and it builds on NASA's recent successes and 
demonstrated management reforms.
    Space Station program now under control, demonstrating solid 
resource management.
    Mars Exploration Rovers successes highlight NASA's technical and 
management skills.
    NASA is leading implementation of the President's Management Agenda 
in two areas government-wide, and has improved in more areas than any 
other federal agency.

It is Focused--The budget aligns programs with the vision goals, 
affirms the Nation's commitment to space exploration and provides a 
clear direction for the civil space program.
    Vision responds to concerns expressed by the Columbia Accident 
Investigation Board (CAIB), Congress, and elsewhere on the need for a 
long-term vision for human space exploration.
    Vision encompasses human and robotic missions and includes pursuit 
of multiple destinations, including the return of humans to Moon.
    Activities will be paced by experience, technology readiness, and 
affordability.
    Implementation begins now with key missions that are already in 
progress, such as Mars exploration, visits to other solar system 
targets, and Space Station research.

It is Compelling--The budget fully supports the vision for space 
exploration and supports other mission priorities such as Aeronautics 
and Earth Science.
    Exploration of the solar system and beyond will be guided by 
compelling questions of scientific and societal importance.
    NASA exploration programs will seek profound answers to questions 
of our origins, whether life exists beyond Earth, and how we could live 
on other worlds.
    It Funds Critical Near-Term Priorities in Space Shuttle Return-to-
Flight and Space Station-Space Shuttle Return-to-Flight and Space 
Station account for 85 percent of the FY 2005 increase.

        <bullet>  $374M increase for Shuttle, to safely return to 
        flight and continue assembly and operations of the Space 
        Station.

        <bullet>  $365M increase for Space Station to continue assembly 
        and operations, due primarily to new funding for crew & cargo 
        services and needed reserves, and $200M appropriation cut in FY 
        2004.

Questions submitted by Representative Mark Udall

Q1.  In your response to my question on the timetable for having the 
autonomous repair capability (ARC) required for the Hubble Space 
Telescope (HST) servicing mission, you stated: ``The autonomous repair 
capacity has to be demonstrated on the first two flights. That is our 
objective.'' From the projected annual Shuttle flight rate and the 
projected availability of ARC, the HST servicing mission could proceed 
safely as planned in 2006. While there may be uncertainty as to whether 
a successful demonstration will occur on that timetable, that 
uncertainty affects planning for Shuttle missions to both HST and the 
International Space Station.

     Given these facts, wouldn't it make sense to continue planning for 
the servicing mission in the same manner as planning is continuing for 
Shuttle missions to the Space Station, pending demonstration of the 
repair capability?

A1. The decision to cancel the Hubble SM-4 servicing mission was made 
after evaluating the requirements that came from safety recommendations 
of the Columbia Accident Investigation Board (CAIB) report. NASA 
rigorously examined the on orbit inspection techniques and repair 
methods that are required to ensure adequate mission safety. NASA 
determined that safe inspection techniques and repair methods could be 
developed for use on the Shuttle while docked at the International 
Space Station (ISS) because of the safe haven capabilities of the ISS 
and because the Space Station Remote Manipulator System (SSRMS) would 
be available to assist with inspection and repairs.
    For the scenario of the Shuttle in a non-Station orbit (like the 
HST servicing mission), NASA determined that it would have to develop 
unique, single use technologies and tools in order to be able to 
accomplish the needed inspection techniques and repair methods. It is 
unlikely the new technology needed to service Hubble would be ready 
before critical Hubble systems fail (Gyroscopes will probably fail by 
late 2006; the battery is expected to fall below needed capacity in 
about 2008).
    NASA would also have to dedicate two Shuttles for a servicing 
mission to comply with safety recommendations of the CAIB for a non-
Station mission. NASA would need a second Shuttle positioned for 
launch, which would require an unprecedented double workload for ground 
crews. The rescue, if required, would involve a Shuttle-to-Shuttle crew 
transfer with unproven techniques. All this would have to be done under 
extreme schedule pressure, because Shuttle life support, food and water 
are limited. On a non-Station autonomous mission, the crew would only 
have two to four weeks before the rescue Shuttle would have to arrive.
    NASA issued a formal ``Request for Information'' (RFI) on February 
20, 2004, to solicit from industry, academia, or anyone who may have 
useful information bearing on how to extend the useful scientific 
lifetime of the Hubble. NASA received 26 responses, which are being 
evaluated at this time. A plan will be developed when a decision is 
made as to the approach the Agency will take to prolong the life of 
Hubble.
    NASA has also formally requested a study by the National Academy of 
Sciences to ensure we have fully considered all reasonable alternatives 
to finding the best way to extend the lifetime of the Hubble Space 
Telescope.

Q2.  In your written testimony, you cite the failure of the NRC's 2001 
Decadal Survey to recommend new missions in the Hubble wavelength 
regime as a scientific rationale for not pursuing the SM-4 HST 
servicing mission. However, isn't it true that the Decadal Survey 
assumed that the Hubble Space Telescope would continue to operate until 
the end of this decade and that it endorsed NASA's decision to continue 
HST operations through this decade? If this is true, why do you cite 
the Decadal Survey?

A2. The difficult decision to not proceed with an HST servicing mission 
was made after careful review of risk issues following the tragic loss 
of the Columbia Space Shuttle and crew. The safety recommendations of 
the Columbia Accident Investigation Board were used as our guide, along 
with our progress in meeting the recommendations in our return-to-
flight activities. Safety, not science, was the reason for the 
cancellation.
    It is true that the decadal survey endorsed NASA's plan to operate 
Hubble to the end of the decade, at reduced operating cost for the 
final years. This, however, assumed normal Shuttle operations and a 
Shuttle servicing mission by or before 2004. The decadal survey 
endorsed a different wavelength band, infrared, for the next large 
space telescope (now known as JWST). It now appears, with current 
projections, that with judicious use of the telescope's battery power, 
HST will continue to operate for three to four more years, even without 
a servicing mission. Furthermore, NASA is now studying and considering 
a robotic mission to service Hubble. Such a mission could extend 
Hubble's mission even beyond the end of the decade.

Q3.  What countries have been approached about their willingness to 
participate in the new human space flight vision? What have their 
reactions been? What additional countries do you intend to approach? 
What is the U.S. government's current position on whether China is 
eligible to participate in significant human space flight activities 
with NASA? Would you in fact welcome China's participation in this 
initiative?

A3. NASA has not formally approached any other nations about specific 
participation in the human missions called for in the Vision for Space 
Exploration. NASA has discussed the Vision with current space partners 
and with other nations that have expressed interest. NASA is continuing 
preliminary discussions with prospective partners, and is now 
considering the advice of the President's Commission on Moon, Mars, and 
Beyond (Aldridge Commission) on international participation before 
proceeding more vigorously. Reactions to the vision thus far have been 
favorable. The European Space Agency has initiated a formal process to 
consider its participation in the Vision.
    No country, including China, has been excluded from participation 
at this stage. If Chinese participation advances the goals of the 
Vision and is consistent with broader U.S. policy objectives, NASA will 
consider it at the appropriate time.

Q4.  What is the scientific rationale for the President's initiative? 
How much of that rationale will be satisfied by planned robotic 
missions, and how much will require human explorers? From a scientific 
standpoint, what objectives specifically require human explorers?

A4. The science content of the President's exploration initiative flows 
directly from and enhances the science agenda formally presented in the 
NASA 2003 Strategic Plan. Specifically, the Vision for U.S. Space 
Exploration advances exploration of the solar system and beyond, 
promotes the search for life in the universe and extends life beyond 
our home planet.
Robotic Precursors
    The initial steps in the President's initiative must be undertaken 
robotically, just as the precursor missions to the Apollo human 
expeditions were undertaken in the 1960's. Specifically, the ongoing 
Mars Exploration Program will intensify its efforts to understand the 
potential habitability of Mars, chart the potential resources that may 
help enable human exploration of the red planet, and establish a 
knowledge-base for understanding the modern Martian environment (i.e., 
weather, climate, dust, toxic components, etc.). This is already 
underway thanks to the Spirit and Opportunity rover missions, the 
ongoing activities of the Mars Global Surveyor and Odyssey orbiters, 
and with the 2005 launch of the Mars Reconnaissance Orbiter, which will 
help chart landing sites that may one day serve as the places the first 
humans on Mars must visit. In addition, the President's initiative 
calls for a robotic lunar exploration program, which will be guided by 
applied science/engineering drivers to return humans to the lunar 
surface no later than 2020. The first specific lunar mission will be 
the Lunar Reconnaissance Orbiter (LRO), which NASA will launch in 2008. 
This mission will chart the Moon using the latest in measurement 
devices, searching for resources such as water ices, and developing the 
knowledge of what it will take to land both robots and humans on the 
Moon in new places, as a stepping stone to getting people to Mars. LRO 
will establish a high precision global map of the Moon necessary for 
safe landings and discover what lies in the permanently shadowed 
regions of the planet. Many LRO measurements will support ongoing 
science priorities recommended to NASA by the National Academy of 
Sciences for the Inner Planets of the Solar System.
Human Exploration of the Moon
    Once the robotic precursors have identified the most compelling and 
safe places for human-based exploration, human explorers will venture 
to the Moon to new kinds of places, much more directly aligned with the 
kinds of activities humans will have to undertake on Mars. The first 
human explorers will serve as highly adaptable field samplers, 
collecting invaluable materials for both on-site analysis (in prototype 
surface laboratories) and for more detailed analysis back on Earth. 
They will set up equipment as precursors for what will have to be done 
on Mars, perhaps including drilling devices for accessing the 
subsurface to depths of 30 feet or more, where even more compelling 
scientific materials may be isolated. In addition, they will undertake 
life sciences experiments designed to conduct experiments necessary to 
understand (and ultimately to predict) how living systems respond to 
variable gravity and deep space radiation. These keystone measurements 
and experiments will serve as both scientific and operational stepping-
stones toward the more challenging goals of sending humans to Mars, 
where they will undertake activities that seek to understand whether 
Mars ever harbored life as we presently understand it. One example (of 
many) of an activity that humans are uniquely suited for, on the Moon 
or Mars, would be in situ radiometric age determination of rocks. This 
sort of analysis requires careful sample selection, preparation, 
handling, and subsequent analysis in complex instrumentation such as 
mass spectrometers. Humans could conduct the first field-based 
assessments of the absolute ages of lunar (and later Martian) surface 
materials for the purpose of understanding the chronology of key Solar 
System events, including gigantic impacts (such as those that formed 
the impact basins). The timing of such events is critical to 
understanding any record of life on planets such as Mars, and for using 
the Moon as a key stepping-stone.
Scientific Goals on Mars
    In 2000, the Mars Exploration Payload Assessment Group established 
a set of scientific goals for Mars exploration at a series of meetings 
and workshops that involved more than 110 individuals from 
universities, research centers and organizations, industry, and 
international partners. The primary scientific goals are: the search 
for life, evaluation of Mars geology, and studies of Martian climates. 
The following discussion considers the implications of pursuing the 
first of these goals, and the potential advantage of using humans on 
location.
    We will attempt to establish if there is, or ever was, life on 
Mars. The investigation of life on Mars has at least three possible 
outcomes: (1) Life arose independently and different from life on 
Earth; (2) Life arose just like life on Earth, but evolved differently; 
or (3) There is no evidence of life ever existing on Mars.
    If we find that there was or is life that arose independently on 
Mars, then we have answered the big question--we are not alone. It also 
implies the broader search for life throughout the universe should bear 
fruit--there is a lot of life in the universe. If it can evolve 
independently in two places, then it is going to be present in billions 
of places.
    Furthermore, suppose the life we find is not based on nucleic 
acids, as every form of life on Earth is. Suppose it is protein based 
(it will almost certainly be carbon-based, since no other element has 
the stability and complex covalent bonding of carbon) instead of 
nucleic acid based. It would be simply the biggest scientific discovery 
ever made.
    Suppose we find that there is life but it did not develop 
independently, instead Mars seeded Earth or vice-versa. Again, an 
astounding discovery and the differences in subsequent evolution would 
reveal incredible things about how life occurred and evolved on Earth.
    Suppose we do not discover life on Mars. How can it be that life 
did not arise in a place with water and all the elements necessary for 
life? What was so different on Mars from the Earth? There is plenty of 
life on the Earth that lives in much harsher conditions than Mars. 
Extremophiles live in water that is hotter than steam (doesn't boil due 
to being deep underwater, therefore under high pressure), other life 
lives where the pH is that of hydrochloric acid, others with pH of 
ammonia. Life is tough stuff. Was there some event in Earth's past that 
made life begin here? If we find no life on Mars, then it is possible 
we really are alone. Earth could contain all the life in the universe. 
If that is true, then insuring our survival as a species is transformed 
from an important, somewhat egocentric goal to what must be considered 
a universal imperative.
Role of People in Pursuing Science on Mars
    The very character of research begins with the ability to observe, 
to be able to recognize something new and valuable, and then to 
envision a new direction that so often cannot be anticipated by or pre-
programmed into a computer.
    The crew provide feedback that machines cannot--they participate, 
they think, they observe, they ``feel.'' They use all five senses, and 
interpret and respond to these senses. People can anticipate problems 
and be proactive (whereas computers are only reactive); people are our 
eyewitnesses to discovery.
    People are needed in space research because any research--in space 
or on the ground--requires human abilities that exceed the capabilities 
of modern machines. We must be able to observe, adapt, overcome 
unforeseeable obstacles, and recognize serendipity. These things cannot 
be programmed into machines.
    Direct human intervention remains indispensable in four specific 
areas:

Creative input in response to observed and unexplained space-based 
        phenomena requiring specific scientific expertise

Instrumental dexterity combined with human judgment in order to carry 
        out complex activities specific to working in a microgravity 
        environment

Troubleshooting and repair activities not feasible through automation

Inspiration and sharing of experience: The most common question about 
        space flight is ``How does it feel?'' Astronauts bring the 
        experience of ``being there'' to people all over the world.

    The first step is observation and appropriate sampling. Consider 
taking a walk, first a human walk, then a robotic one. A woman is 
walking along and sees an interesting patch of orange on a rock. She 
goes to the rock, takes a picture, and notices that the orange area has 
varied patterns of texture. She touches a few locations without much 
reaction but suddenly finds a spot that starts to crumple and give off 
a vapor when touched. She quickly grabs a sample container, fills it 
with material from the crumbling area, and then uses a tool to 
carefully extract a similar looking area, along with its surrounding 
structures, without touching it directly. She walks along a little 
further and feels something soft beneath her feet. Looking down she 
sees a patch of material that looks like dry moss. The part she stepped 
on is dissolving but there is another tiny patch nearby that she 
carefully scoops up for a sample. She goes on to find samples under 
rocks, inside crevices, on top of walls.
    Now consider sitting by a monitor on Earth operating a robot taking 
a similar walk. We spot the interesting patch of orange on the rock. Of 
course, by the time we see it, our robot has already walked past it for 
fifteen minutes. We send the command to turn around, retrace the path 
for 30 minutes (since that is when our command will get there), and 
then wait. 30 minutes later we see that the robot got our command and 
turned around. 30 minutes later we see the area near the interesting 
rock. Now we command the robot to go to the rock and wait. 30 minutes 
later we tell the robot to touch an interesting spot. 30 minutes later 
we learn that spot is solid, not very interesting. We command the robot 
to touch several spots. 30 minutes later we see a couple of the spots 
we touched crumple, give off vapor, and dry up. 30 minutes later we 
tell the robot to touch 10 more spots and immediately sample every spot 
touched. 30 minutes later we see if we wasted 10 sample containers or 
if we got a good sample. Unfortunately, we may not be able to carefully 
extract a similar looking area, along with surrounding structures, 
because our robot is not dexterous enough or because the 30 minute 
feedback is too slow to react to crumbling or cracking that occurs in 
the extraction. By now it is getting dark and we have used all our 
sample containers so we go back to return our samples to the lab. 
Perhaps we drive over the dry mossy patch but we do not notice the 
change in surface texture so we miss an opportunity. Or perhaps we have 
a very sophisticated robot and we do notice the change in texture. 
Then, 15 minutes later. . ..
    Back in the laboratory, we have to analyze the samples. We try 
various techniques including microscopy and biochemical analysis. 
However, life on Mars may not look or act like life on Earth at all. It 
may not need water. It may not even contain DNA or RNA or even any 
nucleic acids. If we find a promising specimen, we would like to get it 
to grow. How do you feed something that doesn't use proteins, fats, or 
carbohydrates? We may need to build a terrarium that is highly specific 
to the ecology where we obtained the sample. Even that may not succeed 
so we may need to bring our culture materials out in the field and set 
them up within the ecology of our specimen. We may need to catch 
transient findings--perhaps the sample will be dying before our eyes. 
We may need to create new tests in response to our results--perhaps we 
need different pieces of equipment and have to cannibalize an 
instrument to build a new one. These are tasks that require humans for 
success.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
